<html>
<title> - INVESTING IN FEDERAL R&D</title>
<body><pre>[Senate Hearing 112-292]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 112-292

                        INVESTING IN FEDERAL R&D

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON SCIENCE AND SPACE

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 17, 2011

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
  73-230 PDF              WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
FRANK R. LAUTENBERG, New Jersey      JOHN THUNE, South Dakota
MARK PRYOR, Arkansas                 ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             ROY BLUNT, Missouri
TOM UDALL, New Mexico                JOHN BOOZMAN, Arkansas
MARK WARNER, Virginia                PATRICK J. TOOMEY, Pennsylvania
MARK BEGICH, Alaska                  MARCO RUBIO, Florida
                                     KELLY AYOTTE, New Hampshire
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                 Ann Begeman, Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                                 ------                                

                   SUBCOMMITTEE ON SCIENCE AND SPACE

BILL NELSON, Florida, Chairman       JOHN BOOZMAN, Arkansas, Ranking
DANIEL K. INOUYE, Hawaii             JOHN ENSIGN, Nevada
JOHN F. KERRY, Massachusetts         ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           MARCO RUBIO, Florida
MARK PRYOR, Arkansas                 KELLY AYOTTE, New Hampshire
MARK WARNER, Virginia












                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 17, 2011...................................     1
Statement of Senator Nelson......................................     1
Statement of Senator Boozman.....................................     3

                               Witnesses

Dr. John P. Holdren, Director, Office of Science and Technology 
  Policy, Executive Office of the President......................     5
    Prepared statement...........................................     7
Dr. Subra Suresh, Director, National Science Foundation..........    17
    Prepared statement...........................................    19
Patrick D. Gallagher, Ph.D., Under Secretary of Commerce for 
  Standards and Technology, U.S. Department of Commerce..........    25
    Prepared statement...........................................    26
Dr. Waleed Abdalati, Chief Scientist, National Aeronautics and 
  Space Administration...........................................    33
    Prepared statement...........................................    35

                                Appendix

Hon. John D. Rockefeller IV, U.S. Senator from West Virginia, 
  prepared statement.............................................    59
Response to written questions submitted to John P. Holdren by:
    Hon. John D. Rockefeller IV..................................    60
    Hon. Bill Nelson.............................................    60
    Hon. Mark Warner.............................................    61
    Hon. Roger F. Wicker.........................................    62
Response to written questions submitted to Patrick D. Gallagher 
  by:
    Hon. John D. Rockefeller IV..................................    62
    Hon. Bill Nelson.............................................    64
    Hon. Roger F. Wicker.........................................    67
Response to written questions submitted to Dr. Subra Suresh by:
    Hon. John D. Rockefeller IV..................................    68
    Hon. Bill Nelson.............................................    69
    Hon. Mark Warner.............................................    70
    Hon. Kay Bailey Hutchison....................................    75
    Hon. Roger F. Wicker.........................................    75
Response to written questions submitted to Dr. Waleed Abdalati 
  by:
    Hon. Bill Nelson.............................................    77
    Hon. Kay Bailey Hutchison....................................    82
    Hon. Roger F. Wicker.........................................    84

 
                        INVESTING IN FEDERAL R&D

                              ----------                              


                        THURSDAY, MARCH 17, 2011

                               U.S. Senate,
                 Subcommittee on Science and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:34 a.m. in 
room SR 253, Russell Senate Office Building, Senator Bill 
Nelson, Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Good morning. Good morning everybody.
    We are really looking forward to this hearing, and before 
we start, I want to introduce two of our special guests, Ms. 
Tracy Caldwell Dyson and Colonel Doug Wheelock. They are part 
of our very fine astronaut corps and they have both flown on 
the Space Shuttle, and Soyuz, to and from the International 
Space Station.
    Both of them have spent quite a bit of time on the space 
station. Colonel, I think you spent close to 6 months. How 
about you Ms. Dyson?
    Ms. Dyson. The same, sir. A hundred and seventy-six days.
    Senator Nelson. Colonel, share with us a bit about your 
experience on the station.
    Colonel Wheelock. Oh wow, where do I begin? Well we had--we 
were very, very excited about our mission because we were sort 
of ushering in the full utilization of the science platform 
that we had originally planned, you know, for the space 
station. And very excited about it and we had over 130 science 
experiments going on onboard. And it was just tremendously 
exciting. It took up most of our work day.
    Then as space has it, always has a surprise sort of lurking 
around every corner, because of the hostile environment that we 
are orbiting in, and on July 31 last year we had a critical 
failure onboard the space station, a pump module failure. And--
but it--just like the rest of the times, the challenging 
moments we face as NASA, as an administration and we as problem 
solving people, it really turned out to be one of NASA's finest 
hours. And we were so proud to be a part of that.
    And I have spent 28 years in the military now and never in 
my life had I experienced teamwork like I did onboard that 
station. And Tracy and I got the opportunity to go outside and 
do three space walks to try to repair this station and bring 
our science platform back to life. It took us 3 weeks and it 
was--I kind of kidded with the children that we go to speak to 
now to try to pass this dream of space exploration and 
discovery to them, that you know, there was a point on board 
where, you know, where you face this challenge. And I am one 
that always believed that, you know, adversity, sometimes we 
hear that adversity builds character but I am more that 
adversity exposes character. And this event that happened 
onboard really exposed the character of NASA, of our country, 
of our partner countries that we are working with in 
cooperation onboard the space station. And it was really just a 
terrific, I think, testament to teamwork and the way that we 
pulled together just to solve and overcome these challenges.
    And we were able to bring the science back up on line and 
then really bring the station into full utilization. And we are 
so excited about the future of the station and where we are 
going and excited to be here, sir.
    Thank you so much for the invite to spend a few moments 
with you.
    Senator Nelson. Both of you did the space walk at the same 
time?
    Colonel Wheelock. Yes, sir. We went outside three times for 
a total of about 23 hours outside to replace this pump. And the 
pump actually pumps ammonia through the outside lines on the 
space station to try to radiate some of the heat from space. 
And so half the space station was shut down. And we kind of kid 
that, you know, we don't have a shower onboard the space 
station so we go about 6 months without a shower, but we got an 
ammonia shower on the outside of that space station.
    And again, it was a challenging effort but our problem 
solvers on the ground, you know, came up with ways for us to 
get the job accomplished and get things cleaned up and get back 
inside safely and bring our space station back up. So we were 
just real thrilled to be a part of it.
    Senator Nelson. Did both of you launch on the same Soyuz?
    Ms. Dyson. No, sir. Separate Soyuz. Separate three person 
crews. I launched April 2, 2010 with Alexander Skvortsov and 
Mikhail Kornienko. And Doug launched with Shannon Walker and 
Fyodor Yurchikhin.
    Colonel Wheelock. I launched in June, sir and then came 
back on--actually returned to Earth on Thanksgiving day, so it 
was a nice Thanksgiving.
    Ms. Dyson. I returned on September 25, just 2 months prior.
    Senator Nelson. There was a malfunction on reentry on one 
of the Soyuz. Is that problem corrected, in your opinion?
    Ms. Dyson. Are you speaking before our descents or?
    Senator Nelson. I don't know about the time on your descent 
but there was a problem on a deploying of--go ahead.
    Ms. Dyson. Well, there was a--when our Soyuz was docked to 
the space station, the day that we were supposed to undock the 
latches failed to release from the station, from our Soyuz, 
coming from the station and necessitated our return back into 
the vehicle space station while our Russian cosmonaut crewmates 
remedied the problem. We tried it again the next day.
    There have been problems. I think you're maybe referring to 
earlier flights that some pyro bolts didn't fire. And yes, that 
has been investigated and remedied and we haven't seen a 
problem like that since.
    Senator Nelson. Well, we are just delighted that you are 
here.
    When both of you were up there you had Russian colleagues 
onboard the station. You know, I see frequently General Tom 
Stafford who paved the way, having been a part of Apollo-Soyuz. 
And it is just amazing how that Russian crew, with still Tom 
Stafford and Vance Brand, of course Deke Slayton has since 
passed away, but how they stay in touch with each other. 
Aleksey Leonov and Valeri Kubasov, they're in touch with each 
other all the time.
    And Tom Stafford has now adopted two Russian boys that he 
is raising and educated here in the United States. So it is 
quite a story of the cooperation between the U.S., back then 
the Soviet Union, and now Russia.
    So thank you for being a part of that. Thank you for being 
a part of our space program. Miss Garver, thank you for coming 
and accompanying them, we appreciate it very much.
    We are going to turn to a very distinguished science panel. 
And I am going to turn to my colleague Senator Boozman for his 
opening statement.

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you, Mr. Chairman.
    And again, we appreciate you all being here. Appreciate 
your service to our country.
    The director was in the office the other day and we talked 
about the importance of getting young people involved in math 
and science and those things and certainly these two witnesses 
are great examples of what, you know, following that career 
path. I don't think we could show any finer examples of people 
that have gone that route and we do appreciate their service.
    I am really looking forward to being ranking member on the 
Science and Space Subcommittee and working with you, Mr. 
Chairman. We appreciate your leadership.
    Advances in science and engineering are essential for 
America's economic growth and global competitiveness. They are 
also crucial to many of our other national priorities, 
including energy independence, cybersecurity and healthcare.
    As you know, we are slowly moving out of a recession. We 
have experienced a very serious economic disruption and our 
nation's future growth must be based on the substantial, 
sustainable growth driven by technology and innovation.
    During the next decade the U.S. demand for scientists and 
engineers is expected to increase at four times the rate for 
all other occupations. In fact, the pace of economic growth may 
very well depend on how well our nation can meet the demands of 
the global marketplace for the highly skilled researchers and 
advanced products that we are going to need.
    As policymakers we must do what we can to support this 
growth, but here is the reality. We are faced with the largest 
deficit in our nation's history and at the same time nations 
around the globe are pouring money into their research and 
development systems with the hope of attracting our scientists 
and surpassing our nation in cutting edge technologies.
    Here is our Nation's challenge. How do we support America's 
spirit of innovation while being realistic that the federal 
government cannot sustain our current level of spending? The 
answer is that we must prioritize our spending in a manner that 
gets the biggest bang for the taxpayer's buck. We have to 
prioritize fundamental, basic research and we have to make sure 
that our previous federal investments do not go to waste.
    In my home state of Arkansas we have worked hard to grow 
our research and development capacities. Many stakeholder 
groups have aligned across the science and technology spectrum, 
from our university system to the private sector, to make sure 
that new innovations get out of the labs and into the 
marketplace. We are also working hard to educate our students 
and inspire them to pursue the science, technology, engineering 
and math fields.
    We must continue our commitment to fundamental research 
that cannot be carried out by the private sector because of 
long development timelines and high costs. This fundamental 
research is critical to maintaining our global technological 
advantage, but we must do this in a fiscally responsible way.
    It is in this context that I think we need to evaluate our 
federal investments in research and development in STEM 
education and make sure that all of our investments represent 
the most efficient and effective use of the taxpayers' dollars. 
I look forward to hearing from the witnesses about the 
President's plan for funding these priorities, as the nation's 
key scientific research agencies, the National Science 
Foundation and National Institute of Standards and Technology.
    And with that, I yield back, Mr. Chairman.
    Senator Nelson. Thank you, Senator.
    The subject of this hearing today is research and 
development, which has obviously, through the federal 
government, yielded untold benefits to the American people. A 
lot of our technological dominance today is a result of 
investments in research and technology, and those decisions 
were made years ago. And so what we want to look at here is 
those continuing investments, much of which will not bear fruit 
until years down the road.
    And we also ought to be mindful that if we are cutting out 
the R&D, you are starting to eat your seed corn so that you 
don't have a crop to plant for next year. We have seen new 
technologies that have developed whole new industries that have 
kept America competitive in the global marketplace. And with 
places like China and South Korea that are dramatically 
increasing their governmental R&D, it is a significant 
challenge for us to keep up that leadership.
    And we ought to remember that when you wonder, is 
governmental R&D worthwhile, and I preach this in NASA all the 
time. Remember that it has fueled the creation of the laser, 
the Internet, and GPS. As a result, it has created all kinds of 
business and spawned off thousands and thousands of high paying 
jobs. And those industries are led by American companies.
    You know, I think back years ago, 25 years ago, we saw the 
semiconductor business going abroad. And that didn't make a lot 
of sense for us to become entirely reliant on other countries 
for our semiconductors. So we formed a consortium called 
SEMATECH--it happened to be located in Texas and because of 
that effort they ended up keeping a good portion of 
semiconductor production here in the U.S., which was necessary 
to a lot of our high security and classified programs.
    So too, we're seeing a major competition right at the 
present on the question of how we can make electricity cheaper 
from photovoltaic cells. And so there is a competition that is 
going through the Department of Energy right now to see who can 
do the R&D to get photovoltaic cells to produce electricity 
cheaper so that it becomes a viable alternative to making 
electricity from our standard energy sources such as petroleum.
    Well, we have a star-studded panel here today. Dr. John 
Holdren is director of OSTP, the Office of Science and 
Technology Policy in the White House. He has been in that role 
since early 2009 and we are going to hear from him on the 
priorities and importance of federal investment in R&D. Dr. 
Subra Suresh is Director of the National Science Foundation. 
NSF funds reach all 50 states through grants to nearly 2,100 
universities. He directs NSF programs and initiatives in order 
to advance all fields of fundamental science and engineering 
research in education. Dr. Patrick Gallagher is the Under 
Secretary of Commerce for Standards and Technology and directs 
what we call NIST, the National Institute of Standards and 
Technology. In his capacity he provides the oversight and 
direction on the mission to promote U.S. innovation and 
industrial competitiveness by advancing measurement science 
standards and technology. And Dr. Waleed Abdalati is NASA's 
newly named Chief Scientist. In this role he serves as the 
principal advisor to the NASA Administrator on the agency's 
science programs and its strategic planning and evaluation of 
related investments.
    So, we welcome you. What I would like you all to do, in as 
much as you can possibly not just to read your statement, talk 
it through to us. Let's be mindful to keep to five or six 
minutes and then we want to get into some real questions.
    So, we will start with you Dr. Holdren.

 STATEMENT OF DR. JOHN P. HOLDREN, DIRECTOR, OFFICE OF SCIENCE 
    AND TECHNOLOGY POLICY, EXECUTIVE OFFICE OF THE PRESIDENT

    Dr. Holdren. Well thank you very much, Chairman Nelson, for 
convening this hearing. It is customary to say what a pleasure 
it is; I can say it is a genuine pleasure in this case. I have 
immensely enjoyed working with you since before my 
confirmation.
    And of course, as you have pointed out, the topic today is 
the federal research and development components of the 
President's Fiscal Year 2012 budget. The premise behind that 
budget is one that I am very sure you and I share, I think all 
of us in this room share, and that is creating the jobs and 
industries of the future and the quality of life that we all 
want for our children and our grandchildren. That is going to 
require investing in the creativity of the American people and 
it is going to require investing in America's capacity to 
innovate.
    We think the 2012 budget proposed by the President does 
that with responsible and targeted investments in the 
foundations of discovery and innovation, that is in research 
and development, in science, technology, engineering and math 
education and in 21st century infrastructure. It does it in a 
way that offsets the increases in the highest priority areas 
with reductions in lower priority areas. It is a budget that is 
aimed at helping us win the future by out-innovating, out-
educating and out-building the competition.
    Very obviously, we need the continuing support of the 
Congress to get this done. All told, the budget proposes almost 
$67 billion for civilian research and development. Welcome 
back, Ranking Member Boozman. I started by thanking you both 
for convening this hearing.
    Senator Boozman. It is always good to be thanked.
    [Laughter.]
    Dr. Holdren. And that $67 billion proposed for civilian R&D 
is an increase of over $4 billion or about six and a half 
percent over the 2010 appropriated level in that category. But 
the administration is committed to reducing the deficit, even 
as we prime the pump of discovery and innovation.
    Our proposed investments fit within an overall non- 
security discretionary budget that is frozen at its 2010 levels 
for a second year in a row. And we think that budget reflects 
some strategic decisions, hard decisions, to focus resources on 
those areas where the payoff for the American people is likely 
to be the largest.
    Now I know, Mr. Chairman and Mr. Ranking Member, that this 
committee is already familiar with the details of the proposed 
budget. I just want to highlight, very briefly, a few key 
points. First of all, consistent with the America Competes 
Reauthorization Act that was passed in December with leadership 
from this committee, signed by the President in January, the 
budget calls for continuing the doubling trajectory for the 
National Science Foundation, the Department of Energy's Office 
of Science and the NIST Laboratories.
    My colleague, Subra Suresh, Director of NSF and Pat 
Gallagher, the Director of NIST, lead two of those three 
agencies that are so important to our Nation's continued 
scientific and economic leadership. In the case of NASA, 
represented today by its Chief Scientist, Waleed Abdalati, the 
President's budget holds to the 2010 appropriated level of 
$18.7 billion, while still funding every initiative in the 2010 
NASA Authorization Act.
    In addition, the President's budget would allow NOAA to 
improve critical weather and climate services, invest more 
heavily in restoring our ocean and coasts and ensure continuity 
in crucial Earth observation satellite coverage. And I know you 
agree that that is indeed crucial. The budget also reinforces 
the Department of Energy's work to make clean energy affordable 
and abundant, as you, Mr. Chairman, have talked about in your 
opening statement.
    To help the Nation win the future the budget also 
emphasizes STEM education to prepare our kids to be the skilled 
workforce of the future in part by providing a $100 million as 
a downpayment on a 10-year effort to help prepare a 100,000 
new, highly qualified and effective science, technology, 
engineering and math teachers. That is part of a broader 
administration commitment to look carefully at the 
effectiveness of all of our STEM education programs and find 
ways to improve them.
    To further that goal I have established a committee on STEM 
education under the National Science and Technology Council. It 
is co-chaired by OSTP's associate director for science, Dr. 
Carl Wieman, a Nobel Laureate, as you know, in physics, and Dr. 
Suresh. And it has participation from many of the federal 
agencies that are involved in STEM education activities, indeed 
from all of them. That committee began its work 2 weeks ago.
    Three priority initiatives in science and technology that 
are interagency in character were also highlighted in the 2012 
budget. The first is the Networking and Information Technology 
R&D Program which coordinates and plans agency research efforts 
in cybersecurity, high end computing systems, advanced 
networking. That budget, the 2012 budget, requests $3.9 billion 
for NITRD, an increase of $74 million over 2010 and that is a 
targeted increase which we believe is appropriate to the 
increased importance of information technology in American 
life, health, economy and national security.
    The second of these interagency initiatives is the $2.1 
billion for the National Nanotechnology Initiative, or NNI, 
increasing that by over $200 million from 2010. The 
participating agencies in that initiative are going to be 
guided by a revised NNI strategic plan submitted to the 
Committee last month. It reflects the emerging opportunities 
for frontier research at the nanoscale which we think have 
enormous potential for revolutionizing American manufacturing 
and other economic sectors.
    The third interagency initiative I want to highlight is the 
U.S. Global Change Research Program for which the budget 
requests $2.6 billion, an increase of $446 million over the 
2010 level.
    I want to reiterate, in closing, the guiding principle that 
underlies this budget. America's strength, our prosperity, our 
global leadership depend directly on the investments that we 
are willing to make in R&D and STEM education and in 
infrastructure. Only by sustaining those investments are we 
going to be able to assure future generations of Americans a 
society and a place in the world worthy of the history of this 
great nation, which has been building its prosperity and its 
global leadership on a foundation of science, technology and 
innovation since the days of Jefferson and Franklin.
    Staying the course in the current fiscal environment is not 
going to be easy, but I believe the President's 2012 budget 
provides a blueprint for doing that, that is both visionary and 
responsible. The support of this committee, which has been the 
source itself of so much visionary and also responsible 
legislation in this domain is going to be essential if we are 
to stay the course and I am very much looking forward to 
working with both of you and the rest of the committee toward 
that end.
    Thank you very much.
    [The prepared statement of Mr. Holdren follows:]

Prepared Statement of Dr. John P. Holdren, Director, Office of Science 
        and Technology Policy, Executive Office of the President
    Chairman Nelson, Ranking Member Boozman, and members of the 
Committee, it is my distinct privilege to be here with you today to 
discuss investments in Federal research and development (R&D) in the 
President's Fiscal Year (FY) 2012 Budget.
Administration Initiatives in Education, Innovation, and Infrastructure
    President Obama, in his most recent State of the Union address, 
called on all of us to help create the American jobs and industries of 
the future by doing what this Nation does best--investing in the 
creativity and imagination of the American people. The President 
identified this time in history as our generation's Sputnik moment. And 
just as investments in science and engineering research and development 
(R&D) turned the original Sputnik moment into a Golden Age of American 
technological and economic dominance, so new investments in science, 
technology, and innovation (STI) will be the foundation for continued 
American leadership in the future. Targeted investments in the most 
promising frontiers of science, made in the context of responsible 
reductions in less productive endeavors, will fuel this trajectory and 
allow us, in the President's words, to ``out-innovate, out-educate, and 
out-build the rest of the world.''
    President Obama understands that our ability to meet the grand 
challenges before us is intimately dependent on robust research and 
development; superior science, technology, engineering, and mathematics 
(STEM) education; and 21st century transportation, telecommunications, 
and energy infrastructure. His 2012 Budget provides strategic 
investments in these domains while also streamlining aspects of the 
Federal Government and responding responsibly to the deficit. At a 
difficult time in America's history, the President's 2012 Budget 
proposes to invest intelligently in innovation, education, and 
infrastructure today to generate the industries, jobs, and 
environmental and national security benefits of tomorrow. Obviously, we 
need the continued support of the Congress to get it done. I say 
``continued support'' because much of the President's Federal research 
and education investment portfolio enjoyed bipartisan support during 
the first 2 years of the Administration. And in this 112th Congress, we 
hope to extend this partnership with both the Senate and the House 
across the entire science and technology portfolio. Such a 
collaboration to stimulate scientific discovery and new technologies 
will take America into this new century well-equipped for the 
challenges and opportunities that lie ahead.
    In the remainder of this testimony, I elaborate on the reasons the 
President and I are most hopeful you'll provide that support.
The Federal R&D Budget
    In his State of the Union address, the President said: ``The first 
step in winning the future is encouraging American innovation,'' and he 
promised to deliver a budget that would ensure the Nation's ability to 
achieve that goal. Last month, the President released that budget. It 
proposes a record $66.8 billion investment in civilian research and 
development, an increase of $4.1 billion or 6.5 percent over the 2010 
funding level, reflecting the Administration's firm belief that 
investment in civilian research is a key ingredient for cultivating the 
innovation that is so important to growing the American economy of the 
future.
    (Because of the uncertainty around the outcome of 2011 
appropriations, all the comparisons in my testimony are between the 
2012 Budget and the enacted 2010 appropriations. My testimony discusses 
changes in current dollars, not adjusted for inflation. The latest 
economic projections show inflation of 2.7 percent between 2010 and 
2012 for the economy as a whole, using the GDP deflator.)
    These important R&D investments will bolster the fundamental 
understandings of matter, energy, and life that are at the root of much 
innovation, and they will foster significantly new and potentially 
transformative technologies in areas such as biotechnology, information 
technology, and clean energy.
    The Obama Administration's investments in innovation, education, 
and infrastructure fit within an overall non-security discretionary 
budget that would be frozen at 2010 levels for the second year in a row 
and would stay frozen to 2015. The Budget reflects strategic decisions 
to focus resources on those areas where the payoff for the American 
people is likely to be highest, while imposing hard-nosed fiscal 
discipline on areas lacking that kind of promise. For example, the 2012 
Budget proposes $79.4 billion for development within the Federal R&D 
portfolio--a decline compared to the 2010 funding level primarily 
because of reductions in development funding in the Department of 
Defense. Across government, important programs will have to make do 
with less, as noted in several of the program descriptions below. The 
total (defense and nondefense) R&D budget would be $147.9 billion, $772 
million or 0.5 percent above the 2010 enacted level. That modest 
increase is difficult to accept, of course, given the many needs that 
could potentially be addressed by an expanded Federal R&D portfolio. 
But the Administration is committed to making tough choices and it has 
made many such in this Budget.
Budgets of Science Agencies
    Three agencies have been identified as especially important to this 
Nation's continued economic leadership by the President's Plan for 
Science and Innovation, the America COMPETES Act, the Administration's 
Innovation Strategy, and the America COMPETES Reauthorization Act, 
passed by the Congress in December through the leadership of this 
Committee and signed by the President in January. Those three jewel-in-
the-crown agencies are the National Science Foundation, a primary 
source of funding for basic academic research; the Department of 
Energy's (DOE's) Office of Science, which leads fundamental research 
relevant to energy and also builds and operates the major research 
infrastructure--advanced light sources, accelerators, supercomputers, 
and facilities for making nano-materials--on which our scientists 
depend for energy research breakthroughs; and the National Institute of 
Standards and Technology laboratories, which support a wide range of 
pursuits from accelerating standards development for health information 
technology and ``smart grid'' technologies to conducting measurement 
science research to enable net-zero energy buildings and advanced 
manufacturing processes.
    In recognition of the immense leverage these three agencies offer 
and their key role in maintaining America's preeminence in the global 
marketplace, Congress and this Administration have worked together to 
put these agencies on a doubling trajectory. The FY 2012 budget 
maintains that trajectory, as newly authorized in the America COMPETES 
Reauthorization Act (Public Law 111-358), with a 12.2 percent increase 
between 2010 and 2012 for their combined budgets, totaling $13.9 
billion. I want to emphasize that the proposed increases for these 
three agencies are part of a fiscally responsible budget focused on 
deficit reduction that holds overall non-security discretionary 
spending flat at 2010 levels for the second year in a row, meaning 
these increases are fully offset by cuts in other programs.
    I now turn to the budgets of individual agencies in a bit more 
detail. I will focus on the agencies under the jurisdiction of the 
Committee. Therefore, I will not provide details of the defense R&D 
portfolio (the Department of Defense and DOE's defense programs) or the 
budget of the National Institutes of Health (NIH).
National Science Foundation (NSF)
    The National Science Foundation (NSF) is the primary source of 
support for academic research for most non-biomedical disciplines, and 
it is the only Federal agency dedicated to the support of basic 
research and education across all fields of science and engineering. 
NSF has always believed that optimal use of Federal funds relies on two 
conditions: ensuring that its research is aimed--and continuously re-
aimed--at the frontiers of understanding; and certifying that every 
dollar goes to competitive, merit-reviewed, and time-limited awards 
with clear criteria for success. When these two conditions are met, the 
Nation gets the most intellectual and economic leverage from its 
research investments. In recognition of the time-proven truth that 
today's NSF grants are tomorrow's billion dollar, job-creating 
companies, the 2012 Budget request for NSF is $7.8 billion, an increase 
of 13.0 percent above the 2010 funding level. This keeps NSF on track 
to double its budget as promised in the President's Plan for Science 
and Innovation.
    NSF puts the greatest share of its resources in the Nation's 
colleges and universities. Universities are the largest performers of 
basic research in the United States, conducting over fifty percent of 
all basic research. Basic research funding such as that provided by NSF 
is important not only because it leads to new knowledge and 
applications but also because it trains the researchers and the 
technical workforce of the future, ensuring the Nation will benefit 
from a new generation of makers and doers. In order to maximize this 
dual benefit to society and NSF's special contribution, the 2012 Budget 
sustains the doubling of new NSF Graduate Research Fellowships to 
support 2,000 new awards. The 2012 Budget also includes $64 million for 
the Advanced Technological Education (ATE) program to promote 
partnerships between higher-education institutions and employers to 
educate technicians for the high-technology fields that drive our 
Nation's economy; ATE is the centerpiece of an overall $100 million NSF 
investment in community colleges, an important part of the higher 
education system.
    NSF also proposes to increase research funding to promote 
discoveries that can spark innovations for tomorrow's clean energy 
sources with a cross-disciplinary approach to sustainability science. 
The Science, Engineering, and Education for Sustainability (SEES) 
portfolio will increase to $998 million in the 2012 Budget for 
integrated activities involving energy and environment. NSF is also 
committed to enhancing U.S. economic competitiveness with Science and 
Engineering Beyond Moore's Law (SEBML), a multidisciplinary research 
program that aims to extend the technological and conceptual limits on 
computer processing, with an investment of $96 million in the 2012 
Budget. NSF is also investing $76 million in a multi-directorate 
initiative on research at the interface of the Biological, 
Mathematical, and Physical Sciences (BioMaPS) that aims for an 
accelerated understanding of biological systems and the opening of new 
frontiers in biotechnology. The Administration proposes $15 million in 
the 2012 Budget for NSF's contribution to a new interagency initiative 
called Enhancing Access to the Radio Spectrum, or EARS, to support 
research into new and innovative ways to use the radio spectrum more 
efficiently so that more applications and services used by individuals 
and businesses can occupy the limited amount of available spectrum.
National Aeronautics and Space Administration (NASA)
    This past October, the President signed the 2010 NASA Authorization 
Act (the ``Act'', Public Law 111-267), which stands as a statement of 
bipartisan agreement by Congress and the Administration regarding NASA 
and its many programs. NASA's programs not only support the grand and 
inspiring adventures of space exploration, scientific discovery, and 
aeronautical advancement, but also provide an indispensable platform 
for observing the Earth to ensure that we have the information we need 
to cope with weather-related and other environmental threats to human 
well-being. NASA programs also fuel new technology development and 
innovation and help launch new products, services, businesses, and jobs 
with enormous growth potential. The Act will further our joint goal of 
placing NASA's programs on a more stable footing and enhancing the 
long-term sustainability of these exciting endeavors as we chart a new 
path forward in space.
    The FY 2012 NASA budget reaffirms the Administration's commitment 
to a bold and ambitious future for NASA. Every initiative called for in 
the Act is funded, including: a robust program of space science and 
Earth science, including a commitment to invest in new satellites and 
programs of Earth observation; a strong aeronautics research program; 
the Space Launch System (SLS) heavy-lift launch vehicle and Multi-
Purpose Crew Vehicle (MPCV) needed to support human spaceflight and 
exploration missions beyond Earth's orbit; a vigorous technology 
development program; extension of International Space Station (ISS) 
activities through at least 2020, coupled with a plan to use this 
orbiting outpost more effectively; and the development of private-
sector capabilities to transport cargo and crew into low Earth orbit, 
thus shortening the duration of our reliance solely on Russian launch 
vehicles for access to the ISS.
    Within the context of a difficult budget environment and the 
President's decision to freeze non-security discretionary spending at 
2010 levels for 5 years, NASA's budget remains at $18.7 billion in the 
2012 Budget. This budget level demands difficult choices, and those 
choices were made while keeping in mind the priorities of the Act as 
well as the collective desire of the Congress and the Administration to 
have a balanced program of science, research, technology development, 
safe spaceflight operations, and exploration. One such difficult choice 
was limiting the budget for the James Webb Space Telescope, keeping the 
project funded at $375 million in 2012, to assure NASA the opportunity 
to begin work on new scientific opportunities identified in the 
National Academies' most recent decadal survey in astronomy and 
astrophysics. Similarly, the 2012 Budget reduces the planned increases 
in Earth-science research outlined in the 2011 Budget. The Budget 
demonstrates the President's continued commitment to our shared 
priorities even when difficult decisions are required, providing $1.8 
billion in FY 2012 funding for the Space Launch System and $1.02 
billion for the Multi-Purpose Crew Vehicle, thereby laying the critical 
foundation for these exploration programs. As NASA reported in January 
of this year, it is still in the process of shaping these efforts and 
will discuss them in more detail in a report to Congress this spring. 
Similarly, the Budget provides a solid foundation for the commercial 
crew and cargo transportation programs that are necessary to provide 
safe and cost-effective access to low-Earth orbit, including sufficient 
support for the operations of the ISS.
Department of Commerce National Institute of Standards and Technology 
        (NIST)
    The hugely complex web of technology that keeps this Nation's 
equipment and economy running smoothly depends on largely invisible but 
critical support in the fields of measurement science and standards. 
The National Institute of Standards and Technology (NIST) laboratories 
stand at the core of this Nation's unparalleled capacity in these 
areas, helping ensure that America remains the world leader in 
measurement innovation and systems interoperability. Reflecting NIST's 
vital role in supporting the economy and infrastructure, the 2012 
Budget of $764 million for the Institute's intramural laboratories 
amounts to a 15.1 percent increase over the 2010 enacted level. That 
increase will support high-performance laboratory research and 
facilities for a diverse portfolio of investigations in areas germane 
to advanced manufacturing, health information technology, 
cybersecurity, interoperable smart grid, and clean energy. For NIST's 
extramural programs, the 2012 Budget requests $143 million for the 
Hollings Manufacturing Extension Partnership (MEP), an $18 million 
increase over the 2010 enacted level. The 2012 Budget also requests $75 
million for the Technology Innovation Program (TIP), a $5 million 
increase over 2010, and $12 million for the Advanced Manufacturing 
Technology Consortia program, a new public-private partnership that 
will develop road maps for research that will broadly benefit the 
Nation's industrial base. All of these NIST programs are important 
components of A Framework for American Manufacturing, a comprehensive 
strategy for supporting American manufacturers announced in December 
2009, and the Administration's revised Innovation Strategy released in 
February.
Department of Commerce National Oceanic and Atmospheric Administration 
        (NOAA)
    NOAA plays a vital role supporting research on the Earth's oceans, 
atmosphere, and marine habitats. The NOAA budget of $5.5 billion is an 
increase of $749 million over the 2010 enacted level. This will allow 
NOAA to strengthen the scientific basis for consequential environmental 
decision-making, improve critical weather and climate services that 
protect life and property, invest more heavily in restoring our oceans 
and coasts, take advantage of high-performance computing to manage 
weather and climate data, and ensure continuity in crucial Earth-
observation satellite coverage. The 2012 Budget proposes a 
restructuring of NOAA, including the creation of a Climate Service line 
office in NOAA that will focus on the delivery of climate services 
while sustaining research on oceans, atmosphere, and climate.
    NOAA satellite systems are critical for our Nation's ability to 
forecast severe weather, such as blizzards or hurricanes, and as such 
can save lives and property. Ensuring that we retain these capabilities 
remains a top priority in the 2012 Budget. The former National Polar-
orbiting Operational Environmental Satellite System (NPOESS) program 
had a troubled history, as illustrated by numerous Congressional 
hearings and GAO reports. Because of this, in early 2010 the 
Administration announced a significant restructuring of the program, 
and this plan was endorsed by Congress as part of the 2010 NASA 
Authorization Act (Section 727). This restructuring was accompanied by 
significant increases in NOAA's 2011 Budget request in order to 
expedite the launch schedule of these essential weather satellites and 
reduce the risks of a gap in forecasting data. However, because the 
current continuing resolution allows for only a fraction of the funding 
necessary in FY2011 to continue work on the instruments and spacecraft 
for the first of NOAA's satellites (the first Joint Polar Satellite 
System mission, or JPSS-1), work on the first JPSS satellite has been 
slowed down considerably. Under current funding scenarios, the JPSS-1 
mission could be delayed by up to 2 years, thus forcing the weather 
forecasting community to rely solely on satellites that will be 
operating well past their planned mission life. The 2012 Budget request 
provides $1.1 billion to continue the development of the Joint Polar 
Satellite System, a significant increase over the 2010 enacted level 
which reflects the need for NOAA to fully fund the acquisition of 
satellites for the afternoon orbit within its own budget. NOAA 
recognizes the magnitude of the requested investment for environmental 
operational satellites. However, given the impact of weather on society 
and the Nation's economy, the ability to warn and protect our citizens 
from harm is well worth the cost.
Department of Energy (DOE)
    The Administration is directing Federal innovation incentives to 
one of the most important, job-creating, innovation-inspiring 
challenges of our time: making clean energy affordable and abundant. 
The DOE R&D portfolio is a key part of this effort, which is why DOE 
R&D increases to $13.0 billion in the 2012 Budget. This represents 
targeted growth of 19.9 percent and does not include DOE's non-R&D 
cleanup, weapons, and energy-deployment programs. The 2012 Budget also 
proposes significant resources for demonstration and deployment 
incentives as part of a comprehensive framework for moving the United 
States toward a clean-energy future. The Administration's clean-energy 
R&D priorities focus on developing cutting-edge technologies with real-
world applications to advance a clean-energy economy, increase energy 
efficiency in industry and manufacturing, reduce energy use in 
buildings, and reach the goal of having 1 million electric vehicles on 
the road by 2015. To help pay for these priorities, we are proposing to 
cut inefficient subsidies that we currently provide, unnecessarily, for 
fossil fuels.
    The 2012 Budget proposes $550 million in appropriations for the 
Advanced Research Projects Agency-Energy, or ARPA-E, and another $100 
million in mandatory funding under the Wireless Innovation Fund. The 
Budget will advance ARPA-E's portfolio of transformational energy 
research with real-world applications across areas ranging from grid 
technology and power electronics to batteries and energy storage. First 
funded as part of the American Recovery and Reinvestment Act (ARRA), 
ARPA-E is a signature component of the America COMPETES Act, which was 
recently reauthorized.
    The 2012 Budget also doubles the number of Energy Innovation Hubs 
to solve key challenges that require cross-cutting inputs from diverse 
disciplines. The three new Hubs will focus on Batteries and Energy 
Storage, Smart Grid Technology and Systems, and Critical Materials. In 
early February, the President visited the existing Energy Efficient 
Building System Design Hub, which will accelerate the development of 
innovative designs for cost-effective lighting, sunlight-responsive 
windows, and smart, thermodynamic heating and cooling systems, which 
together will help make America home to the most energy-efficient 
buildings in the world. The other two existing Hubs focus on Fuels from 
Sunlight and Modeling and Simulation for Nuclear Reactors.
    The Department of Energy's Office of Science pursues fundamental 
discoveries and supports major scientific research facilities that 
provide the foundation for long-term progress in economically 
significant domains such as nanotechnology, advanced materials, high-
end computing, energy supply and end-use efficiency, and climate 
change. The 2012 Budget of $5.4 billion, more than 10 percent above the 
2010 enacted level, increases funding for facilities and cutting-edge 
research geared toward addressing fundamental challenges in many areas 
including clean energy and climate change, as well as multi-scale 
carbon cycle research to underpin measurement, reporting, and 
verification of greenhouse gas emissions.
    Investments in DOE's clean-energy applied R&D programs target gains 
over the next several decades for reducing dependence on oil and 
accelerating the transition to a low-carbon economy. The President's 
2012 Budget increases investments in Energy Efficiency and Renewable 
Energy by more than 40 percent over the 2010 appropriation to a total 
of $3.2 billion. EERE supports important work in industrial 
productivity, R&D on advanced batteries for electric and hybrid 
vehicles, and building technology R&D to cut energy consumption. It 
also supports new deployment activities in these areas, including a 
$200 million competitive grant program to encourage electric vehicle 
(EV) readiness and a $100 million competitive ``Race to Green'' program 
to encourage state and local governments to streamline codes, 
regulations, and performance standards and make efficient building the 
norm. Strong support continues for carbon capture and storage options 
that can significantly reduce the cost of transitioning to a low-carbon 
economy. The Budget also increases investments by more than 40 percent 
over 2010 funding levels in R&D to modernize the electric grid, 
critical to enabling clean energy sources, by providing $238 million 
for Electricity Delivery and Energy Reliability.
    To help pay for these programs and align policies toward new clean 
energy technologies, the Budget proposes to repeal over $4 billion per 
year in inefficient fossil fuel subsidies. The Administration will 
continue to work in a bipartisan fashion to put in place market-based 
incentives to promote U.S. leadership in the clean-energy marketplace. 
Consistent with Administration policy to phaseout inefficient fossil 
fuel subsidies, the Budget eliminates funding for R&D focused on 
increasing hydrocarbon production.
Environmental Protection Agency (EPA)
    The R&D portfolio of the Environmental Protection Agency (EPA) is 
$584 million in the 2012 Budget, a decline of $13 million or 2.2 
percent compared to the 2010 funding level. With this investment, EPA 
will focus on enhancing and strengthening the planning and delivery of 
science by restructuring its research and science programs to be more 
integrated and cross-disciplinary. This request supports high-priority 
research of national importance in such areas as endocrine disrupting 
chemicals, green chemistry, e-waste and e-design, green infrastructure, 
computational toxicology, air monitoring, drinking water, and STEM 
fellowships. In addition, by way of strategic redirections, EPA will 
significantly increase--by $25 million--its outreach to the broader 
scientific community through its Science to Achieve Results (STAR) 
program. This investment will bring innovative and sustainable 
solutions to 21st century environmental science challenges by engaging 
the academic research community.
United States Geological Survey (USGS)
    The total 2012 budget of the United States Geological Survey 
(USGS), Interior's lead science agency, is $1.1 billion or a $6 million 
increase from the 2010 enacted level. The Budget includes a total of 
$126 million in program increases, offsetting a total of $120 million 
in program reductions and savings, reflecting shifting priorities 
toward climate variability research and ecosystem restoration. There 
are significant decreases in minerals and water resources research as 
well as targeted increases, including $11 million to complete the 
network of climate science centers that will develop research-based 
decision support tools for use by Federal land managers. The 2012 
Budget also proposes an addition of $60 million over the 2010 level for 
Landsat operations and the development of a new operational Landsat 
satellite program, which will continue to collect remote sensing data 
that are invaluable for many purposes, including climate and land-use 
change research.
Department of Homeland Security (DHS)
    Department of Homeland Security (DHS) R&D totals $1.1 billion in 
the 2012 Budget, up $167 million or 18.8 percent from the 2010 enacted 
level. Within the DHS Science and Technology Directorate, the 2012 
Budget proposes $150 million to begin construction of the National Bio 
and Agro-defense Facility (NBAF), which will serve as a new, state-of-
the-art biosafety level 3&4 facility for the development of vaccines 
and anti-virals and enhanced diagnostic capabilities for protecting the 
United States against emerging agricultural diseases. The Budget also 
proposes $64 million for research to support the Comprehensive National 
Cybersecurity Initiative (CNCI), an increase of $22 million from the 
2010 enacted level.
Department of Transportation (DOT)
    The 2012 Budget provides $1.2 billion for Department of 
Transportation (DOT) R&D, an increase compared to the 2010 funding 
level. One significant part of DOT's R&D activities is the Federal 
Aviation Administration's (FAA) Research, Engineering, and Development 
program. The Budget includes funding for several R&D activities in 
FAA's Next Generation Air Transportation System, known as NextGen. The 
Joint Planning and Development Office coordinates this important effort 
with NASA and other participating agencies. The Federal Highway 
Administration (FHWA) also manages a comprehensive, nationally-
coordinated highway research and technology program, engaging and 
cooperating with other highway research stakeholders. FHWA performs 
research activities associated with safety, infrastructure preservation 
and improvements, and environmental mitigation and streamlining.
White House Office of Science and Technology Policy (OSTP)
    The 2012 Budget requests $6.65 million for White House Office of 
Science and Technology Policy (OSTP) operations, 5 percent below the 
2010 enacted funding level, in recognition of the need for shared 
sacrifice to freeze non-security discretionary spending. OSTP works 
with OMB to ensure that the President's S&T priorities are 
appropriately reflected in the budgets of all the Executive Branch 
departments and agencies with S&T and STEM-education missions. OSTP 
also provides science and technology advice and analysis in support of 
the activities of the other offices in the Executive Office of the 
President and supports me in my role as the Assistant to the President 
for Science and Technology, with the responsibility to provide the 
President with such information about science and technology issues as 
he may request in connection with the policy matters before him. In 
addition, OSTP coordinates interagency research initiatives through 
administration of the National Science and Technology Council (NSTC), 
serves as the lead White House office in a range of bilateral and 
multilateral S&T activities internationally, and provides 
administrative and technical support for the very active 21-member 
President's Council of Advisers on Science and Technology (PCAST). This 
work is accomplished with approximately 34 full-time equivalent staff 
supported by the OSTP appropriation, which includes the OSTP Director, 
four Associate Directors (for Science, Technology, Environment, and 
National Security and International Affairs), additional technical 
experts, and a small administrative function. In addition, there are 
approximately 40 scientific and technical experts detailed to OSTP from 
all across the Executive Branch along with approximately a dozen other 
experts brought in under the Intergovernmental Personnel Act or various 
fellowship arrangements. This mix of personnel allows OSTP to tap a 
wide range of expertise and leverage all available resources to ensure 
that the science and technology work of the Federal Government is 
appropriately resourced, coordinated and leveraged.
Interagency Initiatives
    A number of priority interagency S&T initiatives are highlighted in 
the President's 2012 Budget. These initiatives are coordinated through 
the NSTC, which as noted above is administered by OSTP.
Networking and Information Technology R&D
    The multi-agency Networking and Information Technology Research and 
Development (NITRD) program plans and coordinates agency research 
efforts in cyber security, high-end computing systems, advanced 
networking, software development, high-confidence systems, information 
management, and other information technologies. The 2012 Budget 
provides $3.9 billion for NITRD, an increase of $74 million over the 
2010 funding level.
    Networking and computing capabilities are more critical than ever 
for a range of national priorities, including national and homeland 
security, reforming the health care system, understanding and 
responding to environmental stresses, increasing energy efficiencies 
and developing renewable energy sources, strengthening the security of 
our critical infrastructures including cyberspace, and revitalizing our 
educational system for the jobs of tomorrow. The 2012 Budget includes a 
focus on research to improve our ability to derive scientific insights 
and economic value from enormous quantities of data that heretofore 
would have been too large to take full advantage of, and continues to 
emphasize foundations for assured computing and secure hardware, 
software and network design, and engineering to address the goal of 
making Internet communications more secure and reliable.
National Nanotechnology Initiative
    The 2012 Budget provides $2.1 billion for the multi-agency National 
Nanotechnology Initiative (NNI), an increase of $201 million over the 
2010 funding level. Research and development in the NNI focuses on the 
development of materials, devices, and systems that exploit the 
fundamentally distinct properties of matter at the nanoscale. NNI-
supported R&D is enabling breakthroughs in disease detection and 
treatment, manufacturing at or near the nanoscale, environmental 
monitoring and protection, energy conversion and storage, and the 
design of novel electronic devices. In 2012, NNI agencies will be 
moving forward, using close and targeted program-level interagency 
collaboration, on three signature initiatives in areas ready for 
advances: Nanoelectronics for 2020 and Beyond; Sustainable 
Manufacturing--Creating the Industries of the Future; and 
Nanotechnology for Solar Energy Collection and Conversion.
    In addition, agencies continue to maintain a focus on developing 
nanotechnology responsibly with attention to potential human and 
environmental health impacts, as well as ethical, legal, and other 
societal issues. I will also add that I recently submitted to the 
Committee a revised strategic plan for the NNI reflecting the changing 
opportunities for frontier research at the nanoscale.
U.S. Global Change Research Program
    The Budget includes an expanded commitment to global change 
research, with the understanding that insights derived today will pay 
off with interest in the years and decades ahead as our Nation works to 
limit and adapt to shifting environmental conditions. Investments in 
climate science over the past several decades have contributed 
enormously to our understanding of global climate. The trends in global 
climate are clear, as are their primary causes, and the investments in 
this research arena in the 2012 Budget are a critical part of the 
President's overall strategy to mitigate U.S. greenhouse-gas emissions 
and move toward a clean- energy economy even as we adapt to those 
changes that are inevitable. Specifically, the 2012 Budget provides 
$2.6 billion for the multi-agency U.S. Global Change Research Program 
(USGCRP)--an increase of 20.3 percent or $446 million over the 2010 
enacted level--to continue its important work of improving our ability 
to understand, predict, project, mitigate, and adapt to climate change.
    As you are no doubt aware, the USGCRP was mandated by Congress in 
the Global Change Research Act of 1990 (P.L. 101-606) to improve 
understanding of uncertainties in climate science, expand global 
observing systems, develop science-based resources to support 
policymaking and resource management, and communicate findings broadly 
among scientific and stakeholder communities. Thirteen departments and 
agencies participate in the USGCRP. OSTP and the Office of Management 
and Budget (OMB) work closely with the USGCRP to establish research 
priorities and funding plans to ensure the program is aligned with the 
Administration's priorities and reflects agency planning. In 2011, the 
USGCRP is undertaking a comprehensive process that will result in an 
updated strategic plan, which will be submitted to Congress later this 
year.
    Funding in the 2012 Budget will support an integrated and 
continuing National Climate Assessment of climate change science, 
impacts, vulnerabilities, and response strategies as mandated by 
Congress. The Budget also prioritizes an interagency research effort 
for measuring, reporting, and verifying greenhouse-gas emissions.
Innovation, Entrepreneurship, and Job Creation
    The President believes we must harness the power and potential of 
science, technology, and innovation to transform the Nation's economy 
and to improve the lives of all Americans. In addition to the 
investments in research and development (R&D) I have described, the 
President's 2012 Budget targets strategic investments to spur 
innovation in the public and private sectors and to maximize the impact 
of the Federal R&D investment for innovation. Last month, the President 
released a revised Strategy for American Innovation, building on an 
earlier version released in September 2009. This strategy describes how 
investments in R&D work together with other Federal investments and 
policies to support American innovation. Let me share with you a few 
highlights that are reflected in the Budget.
    The Budget proposes a permanent extension of the research and 
experimentation (R&E) tax credit to spur private investment in R&D by 
providing certainty that the credit will be available for the duration 
of the R&D investment. In December, the President and Congress worked 
together to extend expiring tax breaks for Americans; as part of that 
agreement, the current R&E tax credit was extended through the end of 
this year. The 2012 Budget proposes to expand and simplify the credit 
as part of making it permanent.
    In addition, earlier this year the Administration announced Startup 
America, a campaign to inspire and accelerate high-growth 
entrepreneurship throughout the Nation. This coordinated public/private 
effort brings together an alliance of the country's most innovative 
entrepreneurs, corporations, universities, foundations, and other 
leaders, working in concert with a wide range of Federal agencies to 
increase the prevalence and success of American entrepreneurs. A broad 
set of Federal agencies will launch a coordinated series of policies 
that ensure high-growth startups have unimpeded access to capital, 
expanded access to quality mentorship, an improved regulatory 
environment, and a rapid path to commercialization of federally-funded 
research.
    The 2012 Budget sustains the Administration's effort to promote 
regional innovation clusters as significant sources of 
entrepreneurship, innovation, and quality jobs. These efforts are 
taking place in several agencies working together, including the Small 
Business Administration (SBA), DOE, and especially the Economic 
Development Administration (EDA) within the Department of Commerce. EDA 
will be pursuing several programs in research parks, regional 
innovation clusters, and entrepreneurial innovation activities, as 
authorized recently in the America COMPETES Reauthorization Act. And as 
mentioned earlier, the 2012 Budget continues to increase funding for 
the Hollings Manufacturing Extension Partnership (MEP) in NIST to 
disseminate the latest advanced manufacturing techniques and innovative 
processes to small- and medium-sized manufacturers around the Nation. 
Taken together, these investments will help ensure that Federal 
investments in innovation, education, and infrastructure translate into 
commercial activity, real products, and jobs.
Science, Technology, Engineering, and Mathematics (STEM) Education
    In his State of the Union address, the President said: ``If we want 
innovation to produce jobs in America and not overseas, then we also 
have to win the race to educate our kids.'' To help win that race, the 
2012 Budget emphasizes science, technology, engineering, and 
mathematics (STEM) education, building on two strong years of progress. 
Through his past budget requests and actions--including his recent 
hosting of the first White House science fair, his launch of the 
``Educate to Innovate'' and ``Change the Equation'' initiatives, and 
his challenging the Nation's 200,000 Federal scientists and engineers 
to get more involved in STEM education--the President has shown that he 
is deeply committed to improving STEM education. These efforts have 
engaged not only the Federal Government but also the private, 
philanthropic, and academic sectors. The Educate to Innovate campaign 
has resulted in over $700 million in financial and in-kind private-
sector support for STEM education programs. And the Change the Equation 
program has brought together over 100 corporations in a historic effort 
to scale up effective models for improving STEM education. The 
Administration has also integrated STEM education into broader 
education programs. For example, the Race to the Top competition 
provided a competitive advantage to states that committed to a 
comprehensive strategy to improve STEM education.
    Building on these efforts, the 2012 Budget proposes an investment 
of $100 million as a down payment on a 10-year effort to help prepare 
100,000 new highly effective STEM teachers. This coordinated effort 
between NSF and the Department of Education will help prepare teachers 
with both strong teaching skills and deep content knowledge. The 
Administration proposes $80 million for the Department of Education in 
the 2012 Budget to expand promising and effective models of teacher 
STEM preparation within the new Teacher and Leader Pathways program--
for example, ones that provide undergraduates with early and intensive 
field experience in the classroom along with extensive STEM subject 
coverage. At the same time, NSF proposes to launch a $20 million 
teacher-education research program called Teacher Learning for the 
Future. In cooperation with the Department of Education, this NSF 
program will fund research that will increase our understanding of what 
makes a great STEM teacher and how to best prepare, support, and retain 
highly effective STEM teachers in the most cost effective manner. The 
coordination of these two programs will ensure that there is continual 
innovation and improvement in teacher preparation that is grounded 
firmly in evidence.
    This is part of a broader Administration commitment to look 
carefully at the effectiveness of all STEM programs and find ways to 
improve them. To further this goal, I have established a Committee on 
STEM Education under the National Science and Technology Council. The 
STEM Education Committee is co-chaired by OSTP's Associate Director for 
Science, Carl Wieman, a Nobel Prize-winning physicist renowned for his 
work on improving STEM education, and involves participation from the 
many Federal agencies involved in STEM education activities.
    The work of this Committee is closely aligned with the vision for 
STEM education outlined by Congress in the America COMPETES 
Reauthorization Act and focuses on improving the coordination and 
effectiveness of all Federal STEM education programs. In this spirit, 
the Department of Education and NSF are leading an effort, with active 
OSTP participation, to increase the impact of the Federal STEM 
investments I've outlined above by: (1) developing an aligned strategy 
that emphasizes key agency capacities; (2) clarifying evidence 
standards used to assess program impact; and (3) identifying the most 
promising STEM efforts for further validation, testing, and suitability 
for scaling up.
    All told, the 2012 Budget requests $3.4 billion for STEM education 
programs across the Federal Government. This is $200 million lower than 
the 2010 funding level and reflects some difficult choices. However, we 
feel this budget is better focused on programs that will make an 
impact.
    OSTP looks forward to working with this Committee on our common 
vision of improving STEM education for all of America's students.
21st Century Infrastructure
    I've talked about innovation and education, and now I would like to 
talk briefly about the third step in winning the future: rebuilding 
America. In his State of the Union address, the President established a 
vision of rebuilding America for the 21st century. This vision is 
reflected in the 2012 Budget in investments that will not only rebuild 
the roads and bridges of the 20th century but will also help build the 
new infrastructure needed for America to remain competitive in this 
century.
    Within science and technology, the 2012 Budget proposes a Wireless 
Innovation and Infrastructure Initiative to help businesses extend the 
next generation of wireless coverage to 98 percent of the U.S. 
population. This Initiative will enable businesses to grow faster, 
students to learn more, and public safety officials to access state-of-
the-art, secure, nationwide, and interoperable mobile communications. 
It will also foster the conditions for the next generation of wireless 
technology, nearly doubling the amount of wireless spectrum for mobile 
broadband and providing critical support for R&D in wireless 
innovation. The Initiative builds upon the Presidential Memorandum on 
spectrum released last year, which proposes to reallocate a total of 
500 megahertz of Federal agency and commercial spectrum bands over the 
next 10 years to increase the Nation's access to wireless broadband.
    As part of the Initiative, the 2012 Budget proposes the creation of 
a $3 billion Wireless Innovation (WIN) Fund to be funded out of 
receipts generated through electromagnetic-spectrum auctions. This Fund 
will advance our economic growth and competitiveness goals, supporting 
key technological developments that will enable and take advantage of 
the private sector's rollout of next-generation wireless services and 
pave the way for new technologies. The WIN Fund will support basic 
research, experimentation and testbeds, and applied development in a 
number of areas including public safety, education, energy, health, 
transportation, and economic development.
    The 2012 Budget also proposes investments in novel, game-changing 
physical infrastructure systems including a national high-speed rail 
system, an improved civil aviation system taking advantage of the 
NextGen air-traffic-control innovations, and new standards for smart-
grid technologies.
Conclusion
    The investments in research and development, innovation, STEM 
education, and 21st century infrastructure proposed in the President's 
FY 2012 Budget reflect his clear understanding of the critical 
importance of science and technology, STEM education, and 21st century 
infrastructure to the challenges the Nation faces. Recognizing the 
importance of responsibly reducing projected budget deficits and 
holding the line on government spending, the President has made 
difficult choices in order to maintain and in some cases increase 
critical investments that will pay off by generating the American jobs 
and industries of the future. Indeed, the science and technology 
investments in the 2012 Budget are essential to keep this country on a 
path to revitalized economic growth, real energy security, intelligent 
environmental stewardship, better health outcomes for more Americans at 
lower costs, strengthened national and homeland security, and 
continuing leadership in science and in space.
    As this Committee has long understood over the decades, the best 
environment for innovation in all technologies is a broad and balanced 
research program for all the sciences. Such a broad base of scientific 
research will provide the foundation for a cornucopia of 
multidisciplinary discoveries with unimagined benefits for our society. 
The truth is that this country's overall prosperity in the last half-
century is due in no small measure to America's ``innovation system''--
a three-way partnership among academia, industry, and government.
    One of President Obama's guiding principles is that America's 
present and future strength, prosperity, and global preeminence depend 
directly on fundamental research. Knowledge drives innovation, 
innovation drives productivity, and productivity drives America's 
economic growth. And so it logically follows that economic growth is a 
prerequisite for opportunity, and scientific research is a prerequisite 
for growth.
    That is why President Obama believes that leadership across the 
frontiers of scientific knowledge is not merely a cultural tradition of 
our nation--today it is an economic and national security imperative. 
This Administration will ensure that America remains at the epicenter 
of the ongoing revolution in scientific research and technological 
innovation that generates new knowledge, creates new jobs, and builds 
new industries.
    By sustaining our investments in fundamental research, we can 
ensure that America remains at the forefront of scientific capability, 
thereby enhancing our ability to shape and improve our Nation's future 
and that of the world around us.
    I look forward to working with this Committee to make the vision of 
the President's FY 2012 Budget proposal a reality. I will be pleased to 
answer any questions the Members may have.

    Senator Nelson. Dr. Suresh?

           STATEMENT OF DR. SUBRA SURESH, DIRECTOR, 
                  NATIONAL SCIENCE FOUNDATION

    Dr. Suresh. Thank you, Chairman Nelson and Ranking Member 
Boozman. Thank you very much for this opportunity to present 
NSF's 2012 budget request to you this morning.
    I would like to expand on what Dr. Holdren said, focusing 
on what NSF is planning to do for the coming fiscal year.
    I came to the United States in 1977 to do science and 
engineering because it was the only beacon of science and 
engineering at that time; to do engineering research and 
education I did not have to think twice as to where I wanted to 
go. The mission of NSF is to sustain that excellence as we 
continue to lead the way for important discoveries and cutting 
edge technologies.
    For 2012, NSF's budget request is $7.8 billion, which 
represents an increase of $894 million or 13 percent. As Dr. 
Holdren just mentioned, it is consistent with the President's 
Plan for Science and Innovation and the President's plan for 
doubling the budget for science agencies. It is also consistent 
with the America COMPETES Reauthorization Act of 2010.
    The economic prosperity of our country and its global 
competitiveness depend on innovations that come from new 
technologies; new knowledge; basic research, as the Ranking 
Member mentioned in his opening remarks; and a highly skilled 
and inclusive workforce. NSF has an unparalleled track record 
for the past 60 years in supporting the best ideas and the most 
talented people. The 2012 budget request builds on these past 
accomplishments.
    The most challenging research problems today bring together 
people from very different fields; fields as different as 
computer science, mathematics and the physical, life, and 
social sciences. In 2012, INSPIRE, which is a new program in 
the NSF portfolio, will encourage investigators to undertake 
multidisciplinary research which is the hallmark of much of 
contemporary science and engineering.
    As you mentioned in your opening statement, Mr. Chairman, 
NSF supports basic research in all fields of science and 
engineering. Because of this, we are well positioned to 
catalyze the new fields and new research paradigms that emerge 
from this cross fertilization. Over the next 5 years NSF will 
receive a billion dollars from the Wireless Innovation Fund 
which was established with receipts from the spectrum auctions. 
In fact, NSF supported research on advanced economics that led 
to the identification of potential opportunities for financial 
gains through spectrum auctions. That led to the FCC's current 
system of spectrum auctions, which has netted $45 billion for 
the federal government since 1994. This fund will allow NSF to 
expand research on wireless test pads and systems such as smart 
sensors for buildings, roads, and bridges.
    In the 1960s and 1970s, process innovation and mathematical 
research funded by NSF led to major innovations in an area 
called rapid prototyping which revolutionized American 
manufacturing. This came at a time when industry was not 
supporting this research: it was NSF-funded research that led 
to the revolution in manufacturing. Continuing that trend, in 
the 2012 budget we have identified $190 million for the area of 
advanced manufacturing to pursue innovations in sensor and 
model-based smart manufacturing and nanomanufacturing.
    Additionally, an interagency National Robotics Initiative 
will focus on robots that will work cooperatively with people 
in areas such as manufacturing, space and undersea exploration, 
healthcare, surveillance and security, and education and 
training.
    Dr. Holdren mentioned the National Nanotechnology 
Initiative. NSF has continued to play a lead role in that 
initiative since the beginning of that effort more than 10 
years ago. As part of this, in the 2012 budget, we will explore 
significant initiatives in nanoelectronics, solar energy 
collection and conversion, and sustained nanomanufacturing. 
Just to illustrate the impact of NSF funded research in 
nanotechnology: in the past 10 years, NSF funded nanotechnology 
centers have led to 175 startups that have established 
collaborations with 1,200 companies.
    U.S. leadership in science and engineering requires the 
most knowledgeable and skilled STEM workforce. Three new 
programs in STEM education, each funded at a level of $20 
million, will improve teacher preparation, strengthen 
undergraduate STEM education and broaden participation of under 
represented groups in our workforce. We fully recognize that 
leading edge tools are also needed to advance the frontiers of 
science and engineering and to train students for the 
workforce. The budget sustains investments in major equipment 
and facility projects. These are very critical for creation of 
new knowledge and major new discoveries.
    In conclusion, ``one NSF'' is a concept that characterizes 
my vision for the National Science Foundation as a model 
agency. NSF will work seamlessly across organizational and 
disciplinary boundaries to create new basic knowledge, 
stimulate discovery, and address complex societal problems. 
NSF's investments in fundamental science and engineering have 
paid enormous dividends, improving the lives and livelihoods of 
several generations of Americans. The 2012 budget request will 
carry the success into the future.
    Mr. Chairman, Mr. Ranking Member, this concludes my 
testimony and I look forward to answering your questions.
    [The prepared statement of Dr. Suresh follows:]

           Prepared Statement of Dr. Subra Suresh, Director, 
                      National Science Foundation
    Chairman Nelson, Ranking Member Boozman, and Members of the 
Subcommittee, it is my privilege to be here with you today to discuss 
the National Science Foundation's Fiscal Year (FY) 2012 Budget Request. 
My name is Subra Suresh and I am Director of the National Science 
Foundation (NSF).
    I hope to make a clear and compelling case for the critical value 
of NSF support for science and engineering research and education at a 
time when America faces many pressing needs and tight budget 
constraints. I came to the United States as a young engineering student 
because it was the world's beacon of excellence in science and 
engineering research and education. I stayed for the same reason. The 
mission of NSF is to sustain that excellence as we continue to lead the 
way for the important discoveries and cutting-edge technologies that 
will help keep our Nation globally competitive, prosperous, and secure.
    The President's request for NSF for FY 2012 is $7.8 billion, an 
increase of 13 percent, or $894 million, over the FY 2010 Enacted 
level. The President's Plan for Science and Innovation calls for 
doubling the Federal investment in key basic research agencies. NSF's 
request is consistent with this plan, with the Administration's 
Innovation Strategy, and with the America COMPETES Reauthorization Act 
of 2010. The increase will support 2,000 more research awards across 
the Nation.
    In FY 2012, NSF will strengthen support for basic research and 
education in all fields of science and engineering, and promote 
collaborations that reflect the increasingly interdisciplinary nature 
of modern science and engineering, while strengthening our disciplinary 
excellence. We will capitalize on many promising areas of investigation 
where new discoveries can help establish U.S. leadership in next 
generation technologies, and we will invest in transformational work, 
new fields, and novel theoretical paradigms to fuel the innovations of 
the future. Innovative programs to bolster world-class science, 
technology, engineering, and mathematics education (STEM), from coast 
to coast, and from north to south, are central to the success of all 
these activities.
NSF: Where Discoveries Begin
    Sustained Federal support for research and education has fueled 
innovation and provided benefits to the American public for decades, 
and NSF has played a significant role in this success. For over 60 
years, NSF has been a catalyst for the development of new ideas in 
science and engineering and supported the people who generate them.
    In 1952, Caltech professor Max Delbruck used one of NSF's first 
grants to invent molecular biology techniques that enabled one of his 
students, James Watson, to determine the molecular structure of DNA. 
Since then, an entire biotechnology industry has bloomed and prospered, 
with profits reaching $3.7 billion last year.
    In the 1960s and 1970s, NSF provided seminal funding for 
fundamental mathematical and process innovations for manufacturing that 
industry considered too risky to fund. These led directly to rapid 
prototyping--and revolutionized how products are designed and 
manufactured.
    In the 1980s, NSF supported the very first computer science 
departments in U.S. universities, bringing computer science into the 
mainstream of research, and providing a training ground for the first 
and subsequent generations of computer scientists and entrepreneurs. 
Today, NSF provides 82 percent of total Federal support for research in 
computer science conducted in the Nation's universities and colleges. 
Jobs related to computer and information technologies are among the 
most rapidly growing in the Nation according to Bureau of Labor 
Statistics projections.
    In the 1990s, NSF supported pioneering research in the emerging 
field of nanotechnology. Between 2001 and 2010, NSF-supported centers 
and networks created 175 start-ups and developed collaborations with 
over 1,200 companies.
    Investments in basic research often yield unexpected benefits as 
well. NSF's support of game theory, abstract auction theory, and 
experimental economics provided the Federal Communications Commission 
(FCC) with its current system for apportioning the airwaves. Since 
1994, FCC ``spectrum auctions'' have netted over $45 billion in revenue 
for the Federal Government and more than $200 billion in worldwide 
revenue.
    The NSF FY 2012 Budget Request builds on these past accomplishments 
and provides a direction for future success. To fuel the innovations of 
the future, NSF continues to support fundamental research and education 
in all fields of science and engineering to maintain a global edge in 
the competition for new ideas and the most talented people. The core 
science and engineering disciplines form the ``building blocks'' for 
future innovations, and provide the new ideas and approaches needed to 
advance the interdisciplinary research that is a hallmark of 
contemporary science and engineering. In all these activities, we keep 
a steady focus on the frontier, where discoveries begin.
The NSF FY 2012 Budget Request
    The Administration's A Strategy for American Innovation makes clear 
the larger rationale for investments in science and engineering 
research and education. This is to put knowledge to work--to create the 
industries and jobs of the future, and to improve the quality of life 
and enhance the security and prosperity of every citizen. NSF 
investments support each of the three pillars of this strategy: Invest 
in the Building Blocks of American Innovation, Promote Market-Based 
Innovation, and Catalyze Breakthroughs for National Priorities.
Invest in the Building Blocks of American Innovation
    A robust U.S. science and engineering research enterprise is 
necessary to maintain a global edge in the competition for new ideas. 
In FY 2012, NSF will continue to support the most promising research 
programs and launch several new initiatives.
    Integrated NSF Support Promoting Interdisciplinary Research and 
Education (INSPIRE) will support new activities to encourage 
investigators to undertake the interdisciplinary research that is a 
hallmark of much contemporary science and engineering. This effort will 
be in concert with disciplinary excellence. INSPIRE will catalyze 
interdisciplinary research by seamlessly integrating a suite of new 
activities with existing efforts and other NSF investments. The goal is 
to foster and support the transformative research that 
interdisciplinary research so often produces. INSPIRE is a new $12 
million initiative in FY 2012, and will involve participation from all 
Directorates.
    Science and Engineering Beyond Moore's Law (SEMBL) explores next 
generation computing, including quantum computing, that addresses the 
limits of current technology. Those limits may be reached in as few as 
10 to 20 years. In FY 2012, NSF will invest $96 million to continue 
this multidisciplinary program.
    Research at the Interface of the Biological, Mathematical, and 
Physical Sciences (BioMaPS) is a $76 million investment to investigate 
biological systems that provide architectural and operational blue 
prints which can guide engineering of adaptive technologies. BioMaPS 
will integrate research in the biological, engineering, mathematical, 
and physical sciences to better understand and replicate nature's 
ability to network, communicate, and adapt. The research will 
accelerate the generation of bio-based materials and sensors, and the 
advanced manufacturing of bio-inspired devices and platforms.
    Global leadership also requires the most knowledgeable and skilled 
STEM workers in the world. NSF's approach is to develop the Nation's 
talent pool by integrating research and education. This longstanding 
NSF practice facilitates the direct transfer of new knowledge to the 
private sector. It happens every time graduate students with experience 
working at the frontiers of discovery enter the work force. A strong 
suit in U.S. competitiveness, this is one of NSF's greatest 
contributions to the Nation's innovation system. NSF will support three 
new initiatives to strengthen STEM education throughout the nation, and 
continue support for highly effective efforts to develop the Nation's 
talent and workforce.
    Teacher Learning for the Future (TLF), funded at $20 million, is a 
new teacher-training research program that will fund innovative efforts 
that design, develop, implement and test new teacher-training programs 
in cooperation with the Department of Education.
    Widening Implementation and Demonstration of Evidence-based Reforms 
(WIDER), a new $20 million program to support research on how to 
achieve widespread sustainable implementation of improved undergraduate 
instructional practices and student outcomes at major universities.
    Transforming Broadening Participation through STEM (TBPS), a third 
new program, will expand support for activities to broaden 
participation of underrepresented groups through partnerships that 
match research centers with other institutions committed to broadening 
participation. The FY 2012 investment in TBPS is $20 million.
    The Faculty Early Career Development program (CAREER) develops the 
future scientific and technical workforce through support of young 
faculty who are dedicated to integrating the excitement of research 
with inspired teaching and enthusiastic learning. In FY 2012, NSF will 
invest $222 million to support approximately 606 CAREER awards, an 
increase of 60 awards.
    The Graduate Research Fellowship program (GRF), funded at $198 
million in FY 2012, supports the development of graduate students in 
order to cultivate the next generation of STEM workers. In FY 2012, NSF 
will award 2,000 new fellowships, sustaining the doubling of new 
fellowship awards achieved in FY 2010. In addition, the cost of 
education allowance will be increased from $10,500 to $12,000, the 
first increase in this level since 1998. The Budget Request also 
includes initial funding for a stipend increase to $32,000 that will be 
fully implemented in FY 2013.
    Community college funding continues to be a priority for NSF in FY 
2012. NSF engages community colleges through several programs, 
including Advanced Technological Education (ATE), Transforming 
Undergraduate Education in Science, Technology, Engineering, and 
Mathematics (TUES), the Louis Stokes Alliances for Minority 
Participation (LSAMP), and the Tribal Colleges and Universities Program 
(TCUP). The total investment in community college programs is $100 
million.
Promote Competitive Markets that Spur Productive Entrepreneurship.
    Advances in technology, economic growth, and a prosperous society 
depend on the translation of fundamental discoveries into new 
processes, practices, and commercial products that are widely used. 
Many NSF activities provide incentives for scientists, engineers, and 
educators to undertake use-inspired research that transforms basic 
discoveries into applications for the benefit of society and the 
economy.
    The Advanced Manufacturing initiative will pursue advances in 
sensor and model-based smart manufacturing; cyber-physical systems such 
as advanced robotics; smart buildings and bridges; and nano-
manufacturing. This initiative holds tremendous potential for 
significant short-term and long-term economic impact by developing the 
foundation for entirely new classes and families of products that were 
previously unattainable. The NSF request for FY 2012 includes $190 
million for these activities.
    The Wireless Innovation (WIN) Fund, a component of the 
Administration's new Wireless Innovation and Infrastructure Initiative 
(WI3), will provide $1 billion to NSF over the next 5 years. WI3 
proposes to reallocate a total of 500 megahertz of Federal agency and 
commercial spectrum bands over the next 10 years to increase the 
Nation's access to wireless broadband. NSF will support research on 
experimental wireless technology testbeds, more flexible and efficient 
use of the radio spectrum, and cyber-physical systems such as wireless 
sensor networks for smart buildings, roads, and bridges. A portion of 
the receipts generated through electromagnetic spectrum auctions will 
provide funding for WIN. NSF's FY 2012 investments will be coordinated 
with a number of other agencies, including the Defense Advanced 
Research Projects Agency and the National Institute of Standards and 
Technology.
    Enhancing Access to the Radio Spectrum (EARS), in addition to the 
related research funded through the WIN, will support research into new 
and innovative ways to use the radio spectrum more efficiently so that 
more applications and services used by individuals and businesses can 
occupy the limited amount of available spectrum. NSF proposes an 
investment of $15 million in FY 2012.
    Engineering Research Centers (ERCs) and Industry/University 
Cooperative Research Centers (I/UCRC) direct much of their basic 
research to problems with potential economic impact. By working closely 
with industry, these programs create enabling technologies for national 
needs, such as managing the electrical power system, improving 
manufacturing and biological processing, and supporting new healthcare 
information and telecommunications technologies. They also prepare 
students for innovation leadership in a globally competitive 
marketplace. The FY 2012 NSF investment is $96 million.
    The Small Business Innovation Research (SBIR) and Small Business 
Technology Transfer (STTR) programs, funded at $147 million in FY 2012, 
build partnerships between the academic and industry sectors. They 
bolster the innovation economy by funding translational research at 
U.S. small businesses on topics that span the breadth of NSF scientific 
and engineering research and reflect national and societal priorities.
Catalyze Breakthroughs for National Priorities.
    In FY 2012, NSF will focus on key national priority areas, where 
the expertise of physical, biological, and social scientists and 
engineers can help advance U.S. goals through frontier research. NSF-
catalyzed research includes investments in clean energy and the 
advancing fields of bio- and nanotechnology, areas that are poised for 
innovative breakthroughs.
    Cyberinfrastructure Framework for 21st Century Science and 
Engineering (CIF21) is a new portfolio that builds on NSF's long 
history of providing leadership for cyber infrastructure and 
computational science for the U.S. academic science and engineering 
community. The $117 million CIF21 will advance data-enabled science 
through the development of novel approaches to collect, manage, and 
curate the vast quantities of data generated by modern observational 
and computational tools. The program will also expand access to cyber 
infrastructure to promote collaboration, and support improved community 
research networks to connect people, facilities, computers, and other 
tools.
    The Science, Engineering, and Education for Sustainability (SEES) 
portfolio, funded at $998 million in FY 2012, draws together NSF 
programs that spark innovations for tomorrow's clean energy solutions. 
SEES will promote a cross-disciplinary approach to sustainability 
science to explore the environment-energy-economy nexus in order to 
inform energy and environmental policies and improve our capabilities 
for rapid response to extreme events, such as power grid disruption, 
floods, or extreme weather.
    Clean Energy investments, a significant component of SEES, will 
lead to future clean energy and energy efficiency technologies. 
Investments totaling $576 million are found throughout the NSF 
portfolio, in core research programs and in activities such as BioMaPS 
and SEES.
    The National Nanotechnology Signature Initiatives are promising 
research themes that have the potential to generate applications with 
widespread economic benefit, as well as address national and homeland 
security challenges. In FY 2012, NSF will invest $117 million in three 
research areas: Nanotechnology for Solar Energy Collection and 
Conversion, Sustainable Nanomanufacturing--Creating the Industries of 
the Future, and Nanoelectronics for 2020 and Beyond. NSF also supports 
advanced manufacturing research through these investments.
    The National Robotics Initiative (NRI), a new interagency 
initiative for FY 2012, partners NSF with the National Aeronautics and 
Space Administration, National Institutes of Health, and the U.S. 
Department of Agriculture. NRI will marshal broad science and 
engineering support to provide U.S. leadership in the development of 
next generation robotics. The focus is on robots that work beside, or 
cooperatively, with people in areas such as manufacturing, space and 
undersea exploration, healthcare and rehabilitation, military and 
homeland surveillance and security, education and training, and safe 
driving. Collaboration and coordination strengthens the research effort 
and also ensures that agency programs do not overlap. NSF will invest 
$30 million in NRI in FY 2012.
Interagency Initiatives
    NSF participates in a number of interagency programs that aim to 
coordinate research and development activities in areas of critical 
national importance.
    National Nanotechnology Initiative (NNI), involving 25 departments 
and agencies across the Federal Government, focuses on realizing the 
tremendous potential of nanotechnology. Investments in nanotechnology 
have led to the discovery and development of entirely new classes of 
materials. NSF will increase support for NNI research by 10.6 percent 
to a total of $456 million. This investment includes the National 
Nanotechnology Signature Initiatives.
    The Networking and Information Technology Research and Development 
(NITRD) explores new frontiers in computer, information, and networking 
science, and coordinates these efforts among multiple agencies. NSF 
will increase its investment in these activities by 15.3 percent to 
$1.258 billion in FY 2012. The focus of NSF support includes human-
computer interaction and information management, high-end computing 
infrastructure and applications, large scale networking, and 
cybersecurity and information assurance. Other initiatives in the NSF 
budget will explore new techniques in education and workforce training 
to exploit cutting edge networking and information technologies.
    Homeland Security Activities across NSF will increase by 9.2 
percent to about $426 million. The focus is on two general areas: 
protecting critical infrastructure and key assets and defending against 
catastrophic threats. Approximately 73 percent of this investment 
supports research in cybersecurity, emergency planning and response, 
and risk management, modeling, and simulation of resilient 
infrastructure.
Major Research Equipment and Facilities Construction
    People and their ideas form the core of a robust science and 
engineering enterprise. But leading-edge tools are also needed in many 
cases to advance the frontiers and train students for the workplace. 
NSF provides the assets that will be central to success in the emerging 
``New Era of Observation,'' without precedent in terms of the sheer 
scale, scope, reach, resolution and volume of what we are able to 
observe. This new era has been enabled by the ``Era of Data and 
Information'' where we are now entering an emerging paradigm of data-
enabled science.
    NSF provides sophisticated tools to a broad population of 
scientists, engineers, students, and educators. All of the projects in 
the Major Research Equipment and Facilities Construction account 
undergo major cost and schedule reviews, as required by NSF guidelines. 
The following projects receive continued support:

  <bullet> The Advanced Laser Interferometer Gravitational-Wave 
        Observatory (AdvLIGO) is a planned upgrade of the existing 
        Laser Interferometer Gravitational-Wave Observatory (LIGO). 
        AdvLIGO will be ten times more sensitive, powerful enough to 
        approach the ground-based limit of gravitational-wave 
        detection. The FY 2012 investment is $21 million.

  <bullet> The Advanced Technology Solar Telescope (ATST) will enable 
        study of the Sun's magnetic fields, which is crucial to our 
        understanding of the types of solar variability and activity 
        that can affect communications and navigational satellites in 
        space and power grids here on earth, and may influence climate. 
        The FY 2012 investment is $10 million.

  <bullet> The Atacama Large Millimeter Array (ALMA) is the world's 
        most sensitive, highest resolution, millimeter wavelength 
        telescope. ALMA will provide a testing ground for theories of 
        planet formation, star birth and stellar evolution, galaxy 
        formation and evolution, and the evolution of the universe 
        itself. The FY 2012 investment is $3 million.

  <bullet> The National Ecological Observatory Network (NEON) will 
        consist of geographically distributed field and lab 
        infrastructure networked via cybertechnology into an integrated 
        research platform for regional to continental scale ecological 
        research. The FY 2012 investment is $88 million.

  <bullet> The Ocean Observatories Initiatives (OOI) will provide 
        continuous, interactive access to the ocean through a network 
        of sensors designed to collect physical, chemical, geological, 
        and biological data. OOI will produce never-before-seen views 
        of the ocean's depths. The FY 2012 investment is $103 million.
Terminations/Reductions
    NSF continually assesses its portfolio to ensure that investments 
align with agency priorities and focus on the frontiers of innovative 
science and engineering research. NSF proposes six programs for 
termination or reduction in FY 2012.

  <bullet> Deep Underground Science and Engineering Laboratory (DUSEL): 
        NSF eliminates funding for DUSEL. Termination is based on 
        National Science Board reviews that concluded the cost and 
        scope of DUSEL were inconsistent with the agency's traditional 
        strengths and its role in advancing research and education 
        across many fields and disciplines. NSF will continue to 
        solicit proposals for future particle physics research. No 
        funding is required in FY 2012 for DUSEL.

  <bullet> Graduate STEM Fellows in K-12 Education: NSF eliminates the 
        agency-wide Graduate STEM Fellows in K-12 Education (GK-12) 
        program. While the program has been effective in meeting its 
        overall goals, recent evaluation findings indicate that the 
        effects of this program's fellowship experience in improving 
        research skills is mixed, and program design limits the ability 
        of participants to gain in-depth experience in K-12 teaching. 
        NSF plans to build on experiences gained during the 10-years of 
        GK-12 funding to widen the breadth of graduate traineeship 
        experiences through other programs.

  <bullet> National STEM Distributed Learning Program (NSDL): NSF 
        eliminates funding for the NSDL program (formerly the National 
        STEM Digital Library). While NSDL has been successful in 
        meeting its original goals, an October 2010 preliminary 
        evaluation by the RAND Corporation, Steps Toward a Formative 
        Evaluation of NSDL: Phase 2, noted the challenges of sustaining 
        the collection in the face of changing technology, and raised 
        concerns about the currency of the collections, peer review of 
        collections, collaboration across pathways, and lack of 
        standardization. NSF plans to build from the substantial NSDL 
        experience to address key areas in cyberlearning through other 
        programs and activities, such as Cyberlearning Transforming 
        Education (CTE). No funding is required in FY 2012 for NSDL.

  <bullet> Research Initiation Grants to Broaden Participation in 
        Biology: NSF eliminates funding for the Research Initiation 
        Grants to Broaden Participation in Biology program (RIG) 
        because it did not achieve the goal of broadening participation 
        in biology. The number of proposals from underrepresented 
        groups did not increase. RIG concludes in FY 2011.

  <bullet> Science of Learning Centers (SLC): NSF proposes to reduce 
        funding for the SLC program, which currently supports six 
        large-scale, long-term centers that conduct science of learning 
        research. The on-going center review process and reviews from 
        an external May 2010 Advisory Committee both recommended that 
        NSF phase the program down as funding for individual centers 
        concludes and shift resources wherever possible to enhance 
        support for the science of learning using non-center 
        mechanisms. NSF expects there may be additional reductions to 
        this program in future years as funding for individual centers 
        comes to a close.

  <bullet> Synchrotron Radiation Center (SRC): NSF eliminates funding 
        for the Synchrotron Radiation Center facility at the University 
        of Wisconsin. The SRC is 30 years old, and more powerful and 
        capable facilities have come on-line since 1980.
Model Organization
    The National Science Foundation aims to perform as a model 
organization in carrying forward its mission. Only 6 percent of the NSF 
annual budget is spent on management and administration. The FY 2012 
request includes $494 million, an increase of $64 million, for 
activities to strengthen NSF's ability to manage its operations 
effectively and efficiently. These funds will support:

  <bullet> Staff will include 40 additional full-time equivalents for a 
        total of 1,365 FTE;

  <bullet> IT investments of $86 million will include NSF financial 
        system modernization (iTRAK), Research.gov expansion, and 
        improvements to the operational IT system's reliability and 
        security;

  <bullet> Headquarters lease expiration funding is $45 million to plan 
        and prepare for a new headquarters lease; and

  <bullet> Acquisition, part of the government-wide effort to 
        strengthen the acquisition workforce and improve capabilities 
        in the pre-solicitation phase of major acquisitions, receives 
        $2 million.

    NSF is committed to promoting strong, independent evaluation to 
inform its policy decisions, program management, and performance, and 
to sharing publicly available findings online.
OneNSF
    The concept ``OneNSF'' characterizes NSF efforts to perform as a 
model agency. The National Science Foundation will work seamlessly 
across organizational and disciplinary boundaries to create new 
knowledge, stimulate discovery and address complex societal problems 
and promote national prosperity.
    Within this overarching context, the process of setting NSF 
priorities involves many considerations and results in our best view of 
how to advance the Nation's science, engineering, and education 
enterprise. Internally, NSF holds a series of retreats and planning 
meetings where directions are developed based on an understanding of 
new research frontiers, emerging fields, and opportunities to advance 
research and educational goals. NSF also considers opportunities to 
coordinate and collaborate with other agencies. Staff from all 
Directorates and Offices participate in these activities.
    The NSF system of competitive merit review helps to bring the best 
ideas forward from every corner of the Nation. NSF continues to accept 
and review unsolicited proposals, a practice that ensures that 
unanticipated and novel ideas of great promise are heard.
Conclusion
    President Obama has spoken of this generation's new ``Sputnik 
moment,'' a reference to the challenge of meeting the Nation's economic 
and societal needs in the current climate of global competition for new 
ideas and talent. NSF's strategic investment in research and education 
will help the Nation meet the challenges of our times and move beyond 
them.
    Mr. Chairman and members of the Subcommittee, I hope my testimony 
explains NSF's transformative role in building our Nation's future 
prosperity and continued leadership at the frontiers of discovery, 
innovation and learning. Robust NSF investments in fundamental science 
and engineering have paid enormous dividends, improving the lives and 
livelihoods of generations of Americans. The FY 2012 NSF Budget Request 
supports leading edge programs and activities that will continue this 
success in the future.
    This concludes my testimony. I thank you for your leadership, and 
will be pleased to answer any questions you may have.

    Senator Nelson. Director Gallagher?

           STATEMENT OF PATRICK D. GALLAGHER, Ph.D.,

           UNDER SECRETARY OF COMMERCE FOR STANDARDS

          AND TECHNOLOGY, U.S. DEPARTMENT OF COMMERCE

    Dr. Gallagher. Great. Thank you, Chairman Nelson, Ranking 
Member Boozman, it is a pleasure.
    Let me summarize my brief comments for you this morning 
informally. I think there are three things I would like to 
mention to set up our discussion that I am very much looking 
forward to.
    First, the NIST budget request needs to be understood in 
the context of the priority setting that Dr. Holdren has 
already mentioned. The President has laid out a very 
responsible budget, but we find NIST being very well aligned 
with the Presidential priority to support the innovation 
capacity of the United States. The NIST mission to promote 
innovation and industrial competitive through measurement 
science and standards and technology is very well aligned with 
the President's goal and so the 2012 budget request for a 
billion dollars, which is approximately a 17 percent increase, 
really needs to be understood in this context.
    Also, within the budget request, there are several major 
themes in the NIST budget that I wanted to highlight. One of 
the key themes is advanced manufacturing. The NIST budget 
request includes significant emphasis on promoting the capacity 
of U.S. manufacturers and particularly in high technology 
related manufacturing areas. And this is important because 
manufacturing is central to our capacity as a nation to 
innovate. This includes--the details are in the submitted 
testimony--nearly $85 million of increases in the NIST 
Laboratory programs that are to address measurement barriers 
that manufacturers face in emerging areas and also to support 
the types of technologies that enable U.S. manufacturers to 
compete and thrive in a very competitive international market. 
It includes an increase for the Manufacturing Extension 
Partnership Program, which is a program that works in 
partnership in all 50 states to provide business services to 
small and midsize manufacturers. It includes an increase to our 
Technology Innovation Program so we can sponsor grants looking 
at breakthrough technologies in advanced manufacturing areas, 
and a new program, AMTech, that is designed to stimulate the 
creation of industrial consortia, very much like the SEMATECH 
example that you gave in your opening statement. And this is 
critically important, this is the ability to get competing 
companies to work together to tackle a shared technical problem 
and by tackling that problem, enable the whole sector. And we 
think this is going to be a critical asset.
    The other major theme in the budget request for NIST is in 
infrastructure, in particular, two types of infrastructure. 
What I would call cyber infrastructure, there's a very strong 
focus on cybersecurity and making sure that the integrity and 
reliability of our ability to move information, which is a key 
enabler and an innovation economy, is preserved. This includes 
core NIST functions in looking at cybersecurity research, 
advanced cryptography, biometrics, access control, things of 
that type. Also, in support of our national program office 
responsibilities for trusted identities in cyberspace and as 
our national program we are able to support cybersecurity 
education efforts, because humans interact with cyber 
infrastructure as well. And both from a workforce perspective 
and a participation perspective that is important.
    It also addresses cyber infrastructure in the context of 
enabling technology infrastructure that we need to advance our 
goals. So whether it is smart grid or cloud computing or health 
information technology, NIST is working in concert with 
industry to support the development of the standards 
infrastructure that make these complex systems work and the 
request addresses that as well.
    But it also touches on physical infrastructure. In 
particular, NIST is working with both industry and with state 
and local communities to develop technically sound model codes 
and standards to ensure that we can build robust and disaster 
resistant structures and infrastructure, something that is 
clearly on a lot of our minds as we look at the unfolding 
situation in Japan.
    I mentioned the one new program which is AMTech, the 
Advanced Manufacturing Technology Consortia, to develop these 
consortia approaches to share technical challenges. The other 
program is in the area of wireless infrastructure. It is part 
of the Public Safety Innovation Fund which is part of the 
larger administration effort in wireless innovation. NIST has a 
new program funded from spectrum and set of auctions to work 
with the public safety community to develop a network based 
communication infrastructure that first responders could use. 
So this would enable a broadly interoperable national system of 
emergency communication and to enable that sort of leap ahead 
technology.
    In spite of the sizable increases, we have also focused on 
realizing administrative savings wherever we could. The budget 
requests incorporate over $11 million in those administrative 
savings and offsets. And we certainly understand the context in 
which this takes place.
    So I will leave it with that and look forward to answering 
any questions you may have.
    [The prepared statement of Dr. Gallagher follows:]

 Prepared Statement of Patrick D. Gallagher, Ph.D., Under Secretary of 
   Commerce for Standards and Technology, U.S. Department of Commerce
    Chairman Nelson, Ranking Member Boozman, and members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to present the President's Fiscal Year (FY) 2012 budget request for the 
National Institute of Standards and Technology (NIST). This budget 
reflects the important role that NIST plays as part of President 
Obama's Plan for Science and Innovation. As the President has said . . 
. ``We know what it takes to compete for the jobs and industries of our 
time. We need to out-innovate, out-educate, and out-build the rest of 
the world.'' \1\ The NIST FY 2012 budget clearly lays out the NIST role 
in the Administration's priorities by making critical investments in 
key areas that will help preserve our Nation's economic security and 
strengthen American competitiveness.
---------------------------------------------------------------------------
    \1\ Remarks by the President in State of Union Address on January 
25, 2011.
---------------------------------------------------------------------------
    Mr. Chairman, I would like to start with a quick mention of the 
context of this budget. Overall, this is a very difficult budget 
environment. The President made clear that it was important for the 
government to live within its means and establish some priorities 
within those limits. The President has focused on a number of key 
goals, including innovation, infrastructure and education.
    Within that context, NIST finds itself with a mission that's very 
well aligned to those goals. Over the past few years, numerous reports 
have underscored the importance of a robust Federal presence in the 
sciences to advance technological innovation. The ``Rising Above the 
Gathering Storm'' report and its follow-on, ``The Gathering Storm, 
Revisited,'' were a clarion call to action that helped to shape the 
America COMPETES Reauthorization Act that this Committee championed and 
the President signed into law earlier this year. In addition, in 
February of this year, the White House Office of Science and Technology 
Policy, National Economic Council, and Council of Economic Advisers 
jointly released an update to the 2009 ``Strategy for American 
Innovation'' that ``focuses on critical areas where sensible, balanced 
government policies can lay the foundation for innovation that leads to 
quality jobs and shared prosperity.''
    The NIST mission is to promote U.S. innovation and industrial 
competitiveness through measurement science, standards and technology. 
The NIST mission is very well-aligned with the priority goals that the 
President has laid out. The FY 2012 budget for NIST reflects that 
alignment.
    Mr. Chairman, the President's FY 2012 discretionary budget request 
for NIST is $1 billion, a 17 percent increase over the FY2010 enacted 
level. The budget maintains the President's commitment to double the 
NIST laboratory budget, and to support and enhance our world leadership 
in the physical sciences and technology.
    The NIST budget is comprised of three discretionary spending 
accounts and one new proposed mandatory spending account.
    For the NIST laboratories, the budget requests $679 million to 
accelerate the development of standards, technology, and measurement 
science in areas as diverse as advanced manufacturing technologies, 
cybersecurity, and infrastructure. The request reflects a net increase 
of $173.6 million over the FY 2011 annualized CR level. We did not 
continue funding $10.5 million in previous year earmarks and redirected 
this amount to new initiatives. Thus, the budget proposes $178.5 
million in laboratory initiatives and $5.6 million in adjustments to 
base.
    For the NIST Industrial Technology Services (ITS) account, the 
budget requests $238 million, an increase of $33 million over FY 2011 
annualized CR levels. The account includes NIST's external programs: 
the Technology Innovation Program (TIP), the Hollings Manufacturing 
Extension Partnership (MEP), the Baldrige Performance Excellence 
Program (BPEP) and the newly proposed Advanced Manufacturing Technology 
Consortia (AMTech) program. The request includes $12.3 million for the 
AMTech, a new cooperative grant program with industry and academia to 
foster public-private partnerships to develop needed technology to 
support advanced manufacturing industries that will broadly benefit the 
Nation's industrial base. Also in the ITS line is a $1.9 million 
reduction to BPEP from the FY 2011 annualized CR levels.
    The budget requests $84.6 million for the Construction of Research 
Facilities (CRF) account; representing a $62.4 million decrease from 
the FY 2011 annualized CR level. The request includes $25.4 million for 
the continued renovation of the Boulder Building 1 renovation but does 
not include $67 million in FY 2010 earmarks and the Construction Grant 
Program.
    Finally, NIST requests $100 million in mandatory appropriations for 
the Public Safety Innovation Fund, NIST's component of the Wireless 
Innovation Fund, which itself is part of the President's Wireless 
Innovation and Infrastructure Initiative (WI3). This mandatory 
appropriation request will fund NIST's safety efforts in this area, 
with particular focus on working with industry and public safety 
organizations to develop new standards, technologies, and applications 
to advance public safety.
    Let me speak in more depth about the major thematic initiatives in 
this request: manufacturing, infrastructure, and education. These 
themes directly relate to the President's stated goals to ``out-
innovate, out-educate, and out-build.''
Out-Innovate: Supporting Innovation for a Strong Manufacturing Base
    In order to ``Out-Innovate,'' the U.S. must have a strong 
manufacturing base. With that focus innovation in manufacturing is key 
to the NIST 2012 budget. In the area of manufacturing, U.S. industry 
faces relentless competition that has trimmed the Nation's share of 
global manufacturing output from 25 percent in 2000 to about 20 percent 
today.
    The U.S. manufacturing sector, still the world's largest, is the 
Nation's innovation engine. Manufacturers perform half of all research 
and development in the U.S., and they employ 17 percent of the Nation's 
scientists and engineers. The sector develops, builds, and supplies the 
advanced equipment that enables the U.S. military to maintain 
technological superiority over our adversaries.
    Providing the measurement tools and other essential technical 
assistance that existing U.S. manufacturers and aspiring start-ups need 
to invent, innovate, and produce--more rapidly and more efficiently 
than their competitors--is a top NIST priority. NIST has partnered with 
the manufacturing sector for over a century. Today's challenges require 
stepping up efforts to enhance and strengthen the Nation's underlying 
technical infrastructure, which is integral to our innovation and 
advanced manufacturing capabilities.
    To reap the economic benefits of our ability to innovate, our 
Nation's manufacturing sector must be able to renew itself by adopting 
new technology and developing new markets. The nation's manufacturers 
must respond quickly and effectively to an ever-changing mix of 
requirements, risks, and opportunities, from new regulations to rising 
energy costs to emerging technologies and markets. The revitalization 
of the U.S. manufacturing base is critical to driving innovation and 
job creation in the future and will play a major role in building an 
economy that can help raise the standard of living for all 
Americans.\2\
---------------------------------------------------------------------------
    \2\ Executive Office of the President, A Framework for Revitalizing 
American Manufacturing, Dec. 2009.
---------------------------------------------------------------------------
2012 Manufacturing Initiatives
    The President's FY 2012 budget for NIST includes five 
manufacturing-related initiatives in NIST's scientific laboratories 
that will enable NIST to bolster and diversify needed research and 
promote proven services that will strengthen U.S. manufacturing 
competitiveness in high-value-added product markets.

  <bullet> Strengthening Measurement Services in Support of Industry 
        Needs ($20.0M) The U.S. economy depends upon a robust and 
        reliable physical science-based measurement system. Industry is 
        increasingly relying upon and utilizing NIST's precision time 
        and synchronization services to drive innovation. Industries as 
        diverse as telecommunications, electric power distribution, 
        broadcasting, and navigation networks, as well as many crucial 
        applications in national defense, intelligence, and homeland 
        security rely on NIST calibrations and measurement services. In 
        aeronautics, for example, NIST calibrations for commercial and 
        Federal Government partners ensure the accuracy and performance 
        of altimeters and electrical systems that enable F-18s and 
        commercial aircraft to fly. This initiative will enhance 
        systems for distributing NIST measurement services to meet the 
        growing demand from industry for such services.

  <bullet> Advanced Materials for Industry ($14.2M) The discovery and 
        optimization of new materials is costly and inefficient. Today, 
        U.S. researchers can design and create new materials at a rate 
        that outpaces our ability to support the measurements to 
        characterize and exploit these discoveries. NIST efforts in 
        advanced materials development and measurement science can help 
        manufacturers save millions of dollars in design costs. This 
        initiative will help to provide that support to industry 
        through the development of a national measurement and standards 
        infrastructure necessary to enable computer modeling and 
        simulation capabilities for discovering new materials and 
        reliably optimizing structures and properties for manufacturing 
        processes and product performance and features.

  <bullet> Innovations for 21st Century U.S. Manufacturing: Faster, 
        Smarter and Cleaner ($13.3M) Innovation is central to 
        manufacturing, and in turn, to the overall growth and health of 
        the U.S. economy. The ability to rapidly introduce product 
        innovations provides a foundation for future growth in U.S. 
        manufacturing and with it, the creation and retention of high-
        skill, well-paying jobs. This initiative will fund efforts to 
        develop advanced robotics technologies that allow the U.S. to 
        retain manufacturing competitiveness, and fund programs that 
        will promote sustainable operations and improve energy 
        efficiency in both the manufacturing and construction sectors 
        of the economy.

  <bullet> Measurement Science and Standards to Support 
        Biomanufacturing ($9.5M) The high cost of biotechnology 
        medicines is adversely impacting the U.S. healthcare system and 
        economy. Biotechnology drugs, currently dominated by protein 
        therapeutics, are the fastest-growing class of pharmaceuticals 
        and the fastest growing (20 percent/year) category of health 
        care spending.\3\ Inefficiencies in the manufacturing process 
        contribute to the high cost of these drugs. Under this 
        initiative, NIST will work closely with industry, the FDA, and 
        other standards organizations to better understand the 
        manufacturing process resulting in higher quality biologic 
        products through continuous improvement of manufacturing 
        processes. It will also enable the development of agile 
        biomanufacturing processes required for next generation 
        products such as stem cells and personalized biotherapeutics.
---------------------------------------------------------------------------
    \3\ Biotech 2008--Life Sciences: A 20/20 Vision to 2020, Burrill 
and Company, 2008.

  <bullet> Measurements to Support the Manufacture and Production of 
        Nanotechnology-based Products ($28.2M) There remain significant 
        barriers to the full commercial exploitation of nanotechnology. 
        The lack of manufacturing and characterization tools adds 
        significantly to the development cost of nano-based products. 
        Rigorous measurement science is needed to characterize the 
        environmental, health, and safety risks of engineered 
        nanomaterials. NIST's expertise in measurement science as well 
        as its world-class nanotechnology fabrication facilities at the 
        Center for Nanoscale Science and Technology (CNST) in 
        Gaithersburg, Maryland, provides industry unique resources to 
        advance the measurement science needed to enhance our 
        understanding of the safety of nanomaterials, and fund research 
        on the development and manufacture of cost-competitive 
        technologies. This initiative will position the U.S. to be 
        globally competitive in emerging technologies through safe use 
        of nanotechnology. It will also provide needed investments in 
---------------------------------------------------------------------------
        the CNST to keep it at the cutting-edge of innovation.

    The President's budget strongly supports manufacturing through the 
Industrial Technology Services programs.
Hollings Manufacturing Extension Partnership (MEP)
    The President's 2012 Budget requests $142.6 million for the MEP 
program. This request is a $17.9 million increase over the FY 2011 
annualized CR level. The MEP is a Federal-state partnership which 
requires a two-thirds financial match from non-Federal sources. Through 
its national network of MEP Centers located in every state, 1,400 
technical experts help small and medium-sized manufacturers navigate 
economic and business challenges and connect to public and private 
resources essential for increased competitiveness and profitability.
    Through competitively awarded cooperative agreements, NIST MEP will 
expand the capabilities of its nationwide network of centers to 
accelerate commercialization of technological innovations, adopt 
environmentally sustainable business practices, promote renewable 
energy initiatives, foster market diversification, and connect domestic 
suppliers to manufacturers to assist manufacturers in successfully 
competing over the long term in today's complex global manufacturing 
environment.
The Technology Innovation Program (TIP)
    The FY 2012 request for TIP is $75 million. The proposed TIP budget 
represents an increase of $5.1 million above the FY 2011annualized CR 
level. TIP funds cutting edge, transformative research and development 
projects that address critical national needs and societal challenges 
not already being addressed by others. TIP requires a 1:1 match of 
funds from the private sector. In FY 2012, TIP expects to hold a 
funding competition in one or more of the following research areas: 
advanced robotics and intelligent automation, energy, healthcare, 
water, civil infrastructure technologies, and manufacturing.
    TIP funding will incentivize innovative research and development 
(R&D) projects, conducted by small and medium-sized U.S. based 
companies, alone or as joint ventures with universities, national 
laboratories and other non-profit research organizations. Further, it 
will foster research collaborations, enable the creation of 
intellectual property in the United States, disseminate new knowledge, 
and advance the state-of-the-art in technologies that address societal 
challenges. In its most recent round of funding for manufacturing 
projects, TIP awardees included those young, small companies which are 
the engines of innovation and the future generators of globally 
competitive jobs.
Advanced Manufacturing Technology Consortia (AMTech)
    NIST is also requesting $12.3M for the Advanced Manufacturing 
Technology Consortia (AMTech) program, a new public-private partnership 
that will broadly benefit the Nation's industrial base by providing 
grants to form and fund industrial consortia to address industrial 
driven technological challenges that no one company can address alone. 
AMTech is modeled upon NIST's successful partnership, the 
Nanoelectronics Research Initiative, which in collaboration with 
industry, funds research consortia targeting the nanoelectronics 
technology sector.
    AMTech will collapse the timescale of technological innovation by 
including partners that span the innovation lifecycle from idea to 
discovery, from invention to commercialization. Through cost-sharing 
and a common research agenda, these consortia would support the 
development of innovative new technologies directed at creating high-
wage jobs and economic growth across the industry sector. These 
consortia will develop road-maps of critical long-term industrial 
research needs and provide support for research and equipment at 
leading universities and government laboratories directed at meeting 
these needs.
Out-Build: Building the Nation's Infrastructure--Cyber, Physical and 
        Wireless
    To meet the President's challenge to ``Out-Build'' other nations, 
NIST is requesting funds in the FY 2012 budget to strengthen the U.S. 
infrastructure in three main areas: the cyber infrastructure, the 
physical infrastructure and the wireless infrastructure.
    Cybersecurity Infrastructure. A secure cyber infrastructure is 
vital to the economic vitality and national security interests of the 
United States. In addition to enabling more than $200 billion in annual 
e-commerce, interconnected networks of computers are essential for 
critical functions such as air traffic control, electric power 
distribution and the GPS in our cars. The nation's cyber infrastructure 
is central to maintaining the timely delivery and quality of public 
services that are part of everyday life. Our nation's computers face 
ever-increasing threats from malicious individuals, organizations, and 
nation states. Currently, our computer security tools are manually 
implemented, too complex to be effectively used, and too static to 
respond to rapid changes in the threat environment. This allows many 
attacks to succeed, causing significant damage and undermining 
confidence in vital commercial and public information systems. The 
result is a large, direct economic impact--estimates show that 
Americans lose billions of dollars each year to cyber crime.
    NIST is responsible for cybersecurity research, development of 
Federal cybersecurity standards, establishment of methods and metrics 
for determining the effectiveness of security controls, and providing 
technical support to public and private sector implementation of 
security standards and controls. The FY 2012 budget request contains 
$43.4 million for cybersecurity related programs and activities that 
will strengthen NIST's contribution to the development and promulgation 
of effective and usable cybersecurity standards.
    The cybersecurity infrastructure request has three initiatives.

  <bullet> Scalable Cybersecurity for Emerging Technologies and Threats 
        ($14.9M) The request would provide improvements to NIST's core 
        cybersecurity work in support of the Comprehensive National 
        Cybersecurity Initiative (CNCI), the Federal Information 
        Security Management Act (FISMA), and other national priorities. 
        NIST will develop improved security techniques, support the 
        creation of consensus security standards, increase the 
        interoperability and usability of security technologies, and 
        expedite the secure adoption of emerging information 
        technologies.

  <bullet> National Program Office for the National Strategy for 
        Trusted Identities in Cyberspace (NSTIC) and NSTIC Grant 
        Program ($24.5M) The request would support a National Program 
        Office (NPO) to coordinate Federal activities needed to 
        implement NSTIC. This initiative is in direct response to the 
        recommendations of the White House Cyberspace Policy Review and 
        will raise the level of trust associated with the identities of 
        individuals, organizations, services, and devices involved in 
        online transactions. NIST will be responsible for day to day 
        and overall operation of the NPO. NIST will work with the 
        private sector to identify potential funding opportunities for 
        the delivery of NSTIC solutions. Of the $24.5 million for 
        NSTIC, $7.0 million will support a National Program Office and 
        $17.5 million will fund the pilot grants.

  <bullet> National Initiative for Cybersecurity Education (NICE) 
        ($4.0M) The request supports NICE, which expands the scope of 
        the Comprehensive National Cybersecurity Initiative's (CNCI) 
        Education Initiative from the training of the Federal workforce 
        to a larger national education focus. NIST will develop a 
        cybersecurity education framework that addresses: national 
        cybersecurity awareness, formal cybersecurity education, 
        Federal cybersecurity workforce structure, and cybersecurity 
        workforce training and professional development.

    Interoperability of Infrastructure. Other critical emerging 
technologies such as the Smart Grid and national health care 
information systems have the potential to transform our society and 
revitalize the U.S. economy. To be effective, the many interconnected 
components in these systems must be fully interoperable to allow 
information to be exchanged and used seamlessly across systems. As a 
respected and trusted technical partner, NIST is uniquely positioned to 
bring together stakeholders from industry, government, academia, and 
standards development organizations to establish consensus-based 
interoperability standards and conformity tests. The President's budget 
request for NIST contains an initiative that will support continued 
efforts in these critical areas as well as provide the infrastructure 
necessary to address other emerging interoperability challenges.

  <bullet> The Interoperability Standards for Emerging Technologies 
        Initiative ($23.8M), will focus on the development of standards 
        to enable or accelerate the successful development of new 
        technologies such as a smart electrical grid (Smart Grid), 
        interoperable electronic healthcare records, and cloud 
        computing. These technologies have the potential to transform 
        our society and galvanize U.S. industry, and provide new 
        opportunities for exports of U.S.-developed technologies. For 
        each technology to be effective, however, many complex 
        interconnected components must be built to enable full 
        interoperability and reduce the full potential of these 
        technologies. Lack of standards for interoperability can 
        significantly slow adoption of these emerging technologies, 
        dampen confidence in industry, and increase the risks of 
        stranded investments in solutions that quickly become obsolete.

    Physical Infrastructure. Buildings in the U.S. consume 72 percent 
of all electrical energy produced in this country. Emissions associated 
with buildings and appliances are projected to grow faster than those 
from any other sector. To ensure adequate supplies of energy and 
curtail the projected growth of carbon dioxide emissions, it is 
essential to reduce building energy consumption significantly while 
minimizing the environmental impacts of buildings during their life 
cycles. In addition, many of the Nation's largest buildings and much of 
its infrastructure are concentrated in disaster-prone regions where 
hurricanes, earthquakes, floods and other hazards are common. 
Catastrophic failures in infrastructure as a result of natural 
disasters are costly and directly impact our personal and economic 
health. NIST is requesting funds for two initiatives that will further 
the development of a stronger building infrastructure.

  <bullet> Measurements and Standards to Support Increased Energy 
        Efficiency and Reduced Environmental Impact initiative ($13.3M) 
        This initiative will fund research in Net-Zero Energy Building 
        (NZEB) design. NZEB designs would use as much energy from 
        renewable sources as they consume. Such design also doubles the 
        service life of building materials, products, and systems in 
        order to minimize their lifecycle impacts--this also takes 
        indoor air quality into account. Current analysis methods are 
        not able to assess the indoor air quality impacts of key design 
        decisions or impacts of new technologies. This initiative will 
        provide the measurement science required to achieve net-zero 
        energy, high-performance buildings. It will also provide the 
        measurement science to support gas measurement standards to 
        ensure their accuracy and comparability.

  <bullet> Measurements and Standards to Support Advanced 
        Infrastructure Delivery and Resilience ($10.6M) The disaster 
        resilience of our structures today is determined in large 
        measure by the building codes, standards, materials, and 
        practices used during their construction. There are gaps in the 
        measurement science needed to improve the disaster resilience 
        of infrastructure exposed to natural and man-made hazards. This 
        request funds efforts to provide improvements to our Nation's 
        physical infrastructure to damage from earthquakes, windstorms, 
        and fire. This funding will also develop comprehensive measures 
        of construction practices so our Nation's building 
        infrastructure can be both more efficiently built and more 
        resilient.

    Wireless Infrastructure. The request to create the Public Safety 
Innovation Fund (PSIF), a mandatory account within NIST funded at $100 
million ($500 million over 5 years) is part of the Administration's 
Wireless Innovation and Infrastructure Initiative (WI3).
    President Obama called for a National Wireless Initiative to make 
available high-speed wireless services to at least 98 percent of 
Americans. The WI3 will make it possible for businesses to achieve that 
goal, while freeing up spectrum through incentive auctions, spurring 
innovation, and supporting a nationwide, interoperable wireless network 
for public safety. An important element of this plan is the 
reallocation of the D Block for public safety, and some of the proceeds 
from the incentive auctions being dedicated to NIST research, 
experimentation and testbeds. The funds will also focus on applied 
development to foster the development of a next-generation Public 
Safety communications network.
    Specifically, to spur innovation, the WI3 includes a Wireless 
Innovation (WIN) Fund for research and development of emerging wireless 
technologies and applications. NIST will focus on applied development 
to foster the development of a next-generation Public Safety 
communications network. The current systems for 4G high speed wireless 
services are not tailored for public safety's requirements. Developing 
and implementing such requirements, including capabilities to enable 
handsets to operate in peer-to-peer (or without the aid of a central 
network) will require technological leadership that NIST can help 
provide. NIST, in consultation with agency partners, including the 
National Institute of Justice at the Department of Justice and the 
Department of Homeland Security, will focus on developing and testing 
requirements, standards, wireless applications, and other wireless 
technologies in support of an interoperable nationwide Public Safety 
Broadband Network.
Out-Educate: Training the Next Generation of Scientists.
    In order to ``Out-Educate,'' each agency must do its part. While 
NIST does not have a primary mission in education, the future 
development of the Nation's scientists is critical to the future of 
NIST. NIST has an important role to play in helping to identify, 
recruit, and retain the next generation of scientists and engineers to 
help drive American competitiveness. There is one initiative associated 
with this area:

  <bullet> The Postdoctoral Research Associateship Program ($3.0M) This 
        highly competitive program is very effective at attracting 
        outstanding scientists and engineers to consider a career in 
        science by providing opportunities to work alongside NIST 
        researchers. I want to thank the Committee for its support in 
        eliminating the cap on funding for the post-doc program. The 
        elimination of this cap allows NIST to fund more associates. 
        The requested increase will enable the program to offer at 
        least an additional 23 positions per year and keep the pipeline 
        of bright, new scientists flowing.

  <bullet> National Initiative for Cybersecurity Education (NICE) 
        ($4.0M) As mentioned earlier, the request supports NICE, which 
        expands the scope of the Comprehensive National Cybersecurity 
        Initiative's (CNCI) Education Initiative from the training of 
        the Federal workforce to a larger national education focus.

    Construction of Research Facilities (CRF): The FY 2012 request 
totals $84.6 million, a $62.4 million decrease over the FY2011 
annualized level. The request contains $25.4 million to continue the 
renovation of the 60-year-old Building 1 on the NIST Boulder campus, 
which houses the majority of research and measurement laboratories on 
the Boulder campus. The balance of the account, $59.2 million, will 
provide funding for NIST to address deficiencies and maintain NIST's 
laboratories and facilities. The decrease reflects the elimination of 
congressionally-directed projects from FY 2010.
    Budget Decreases: Finally, let me touch on two areas in which the 
budget reflects savings: The Administration's Administrative Efficiency 
Initiative challenged all agencies to identify savings as part of the 
budget development process. NIST's FY 2012 budget incorporates over $11 
million in administrative savings across the agency in order to make 
the agency more efficient and effective in an era of tight budgets.
    The Baldrige Performance Excellence Program (BPEP) requests $7.7 
million, $1.9 million less than the FY 2011 annualized CR level. The FY 
2012 funding supports the continued development of the Baldrige Program 
Criteria, dissemination of best practices, and the annual awards 
process. At the proposed level, BPEP will evaluate alternative sources 
of funding and alternative cost models consistent with the 
administration's goal of transitioning the program out of Federal 
funding.
Summary
    In summary, I would like to note that for more than 100 years NIST 
has maintained the national standards of measurement. This role was 
assigned by the U.S. Constitution to the Federal Government to promote 
industry and ensure market fairness. The FY 2012 budget request for 
NIST reflects the Administration's recognition of the important role 
that NIST plays in innovation and the impact that the research and 
services NIST provides can have on moving the Nation forward by laying 
the foundation for long- term job creation and prosperity. By 
sustaining our investments in fundamental research, we can ensure that 
America remains at the forefront of scientific capability, thereby 
enhancing our ability to shape and improve our Nation's future and that 
of the world around us.
    I look forward to working with you Mr. Chairman and members of the 
Committee and would be happy to answer any questions.
                                 ______
                                 
    Biography of Dr. Patrick D. Gallagher, Under Secretary of Commerce 
for Science and Technology and Director
    Dr. Patrick Gallagher was confirmed as the 14th Director of the 
U.S. Department of Commerce's National Institute of Standards and 
Technology (NIST) on Nov. 5, 2009. He also serves as Under Secretary of 
Commerce for Standards and Technology, a new position created in the 
America COMPETES Reauthorization Act of 2010, signed by President Obama 
on Jan. 4, 2011.
    Gallagher provides high-level oversight and direction for NIST. The 
agency promotes U.S. innovation and industrial competitiveness by 
advancing measurement science, standards, and technology. NIST's FY 
2010 resources include $856.6 million from the Consolidated 
Appropriations Act of 2010 (Public Law 111-117), $49.9 million in 
service fees, and $101.5 million from other agencies. The agency 
employs about 2,900 scientists, engineers, technicians, support staff, 
and administrative personnel at two main locations in Gaithersburg, 
Maryland and Boulder, Colorado.
    Gallagher had served as Deputy Director since 2008. Prior to that, 
he served for 4 years as Director of the NIST Center for Neutron 
Research (NCNR), a national user facility for neutron scattering on the 
NIST Gaithersburg campus. The NCNR provides a broad range of neutron 
diffraction and spectroscopy capability with thermal and cold neutron 
beams and is presently the Nation's most used facility of this type. 
Gallagher received his Ph.D. in Physics at the University of Pittsburgh 
in 1991. His research interests include neutron and X-ray 
instrumentation and studies of soft condensed matter systems such as 
liquids, polymers, and gels. In 2000, Gallagher was a NIST agency 
representative at the National Science and Technology Council (NSTC). 
He has been active in the area of U.S. policy for scientific user 
facilities and was chair of the Interagency Working Group on neutron 
and light source facilities under the Office of Science and Technology 
Policy. Currently, he serves as co-chair of the Standards Subcommittee 
under the White House National Science and Technology Council.

    Senator Nelson. Dr. Abdalati?

      STATEMENT OF DR. WALEED ABDALATI, CHIEF SCIENTIST, 
         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Dr. Abdalati. Thank you, Chairman Nelson and Ranking Member 
Boozman. It is my privilege to be here to give NASA a seat at 
the table for this important conversation. I appreciate the 
invitation.
    And I would like to preface my remarks: I actually had not 
expected to see my fellow NASA people, the astronauts, here 
this morning. But as I was looking at them it reminded me, as I 
am reminded almost every minute of every day that I am at NASA 
that they represent the ingenuity, the character, the 
perseverance, the integrity, the commitment, any adjective, any 
positive adjective you can come up with, that really is 
pervasive among our engineers, our astronauts, and our 
scientists. Our nation really is stronger and better for it.
    And science is a critical element of that investment, a 
tremendously important one that we are proud to execute at 
NASA. So it really is an absolute privilege to be here and have 
the opportunity to have this conversation.
    Party because NASA really leads the Nation on a great 
journey of discovery, we look for new knowledge across domains 
that range from right here at home on Earth to the far reaches 
of the universe. Our research budget, besides the missions that 
we develop, supports 10,000 scientists, engineers, technicians, 
and students throughout the nation. Students, that are a key 
part of your research portfolio and in fact, I am happy to say 
a former student of mine is sitting right behind me on the 
staff of Senator Mark Udall. She came to hear me talk, so she 
forgives me for whatever I may have done to her.
    These grants and research activities support discoveries 
and technologies that fuel a strong economy. As the newly 
appointed chief scientist I view it as an honor and a 
privilege, not just a job, to work with agency leaders to 
support and ensure that our science investments bring the most 
value to the nation. And value, not just in terms of scientific 
return, but value in terms of elevating the national 
competence--the national literacy.
    To do this, our investments are focused--rich in content, 
but also mindful of the current challenges facing the nation in 
this fiscal environment. We at NASA feel, as much as anyone, 
these challenges. The 2012 budget request for NASA supports a 
diverse science and research and development portfolio, but it 
also makes difficult choices. We don't like making those 
choices, but we recognize the need to make those choices and do 
our part for the good of the nation. But at the same time, our 
research budget allows us to continue to inspire the next 
generation, and even the current generation, of leaders in 
science, technology, engineering and math. And to ensure that 
our investments are really of the best quality and the best 
value, we develop them through a rigorous process of engagement 
of the scientific community through National Academy of 
Sciences studies called Decadal Surveys. In Earth science the 
view from space provides the context, scale and perspective to 
study Planet Earth as a complex system with diverse interacting 
components: the atmosphere, the ocean, the land, the ice and 
life. By observing their interactions we are able to understand 
and develop a comprehensive picture of how the Earth works, how 
it is changing, why it is changing and ultimately what those 
changes mean for life on Earth.
    At the same time, with partnerships through our operational 
agencies, NOAA, USGS, the Environmental Protection Agency, we 
improve the nation's capabilities to predict climate, to assess 
and endure national hazards, to manage resources and to develop 
environmental policy. But these benefits are not only realized 
here at home, they are also realized abroad. And as just one 
example, for the recent devastating earthquakes in Japan, NASA 
has been collecting and analyzing--not just acquiring and 
``watching,'' data from multispectral, multiangle, and multiple 
resolution sensors to support damage assessment and response 
activities.
    NASA Earth Science, as you are well aware, is an essential 
part of the national and international efforts to understand 
the Earth's system. It is of economic value, humanitarian 
value, and strategic value for the benefit of billions of 
people worldwide.
    Our space endeavors look far beyond the Earth environment, 
in fact tonight one of our missions--the Messenger Mission--is 
going to enter Mercury's orbit. It has traveled 5 billion miles 
over the last few years, it is finally at its destination and 
we look forward to the knowledge it will bring us.
    Our portfolio includes missions to study the sun in new 
ways, to explore Mars by traversing its surface with robots and 
to use high-energy X-rays to search for black holes and map 
supernova explosions. The budget also provides stable footing 
for the James Webb Space Telescope, which truly is a technical 
marvel and will be well worth the investment. In addition, 
through funding NASA research and analysis programs, scientists 
will continue to use the vast volumes of data from NASA 
spacecraft, rockets, balloons, and payloads on the ISS to 
further fuel the nation's research and advancements.
    And finally, with the extension of the International Space 
Station operations to 2020 or beyond, we are able to expand 
fundamental knowledge of biological and physical processes in 
the microgravity environment. The astronauts talked of 130 
ongoing experiments on Station now and the incredible 
discoveries that are being made.
    NASA science is uniquely targeting not only matters of the 
human mind, but also matters of the human spirit, the human 
heart. It nourishes our need to explore the unknown. And with a 
balanced and diverse portfolio we diligently seek to understand 
the world in which we live, the sun that fuels us, our 
celestial neighbors and the universe beyond. These endeavors 
inspire and serve humankind. They are timeless and they are 
priceless, although I realize we do have to put a price on some 
of them. And they will continue to enable the United States to 
lead the world toward a future that will no doubt exceed what 
we can only imagine today.
    Thank you.
    [The prepared statement of Dr. Abdalati follows:]

      Prepared Statement of Dr. Waleed Abdalati, Chief Scientist, 
             National Aeronautics and Space Administration
    Mr. Chairman and members of the Committee, it is my privilege to 
appear before you today to discuss NASA's portion of the President's FY 
2012 Federal Research and Development and Science budgets. Maintaining 
our status as the world's leader in innovation, education, science and 
technology is directly linked to our ability as a nation to push the 
frontiers of human understanding in innovative and transformational 
ways. NASA leads the Nation on a great journey of discovery, seeking 
new knowledge across domains that range from right here at home to 
distant galaxies and everywhere in between. In collaboration with the 
Nation's science community, NASA's space-based and suborbital 
observatories conduct scientific studies of the Earth, explore the 
nature and behavior of the Sun and other bodies in our solar system, 
and peer toward the edges of the universe, back toward the beginning of 
time. The International Space Station, with construction complete in 
2011, will serve as a fully functional and permanently crewed research 
laboratory and technology test bed in orbit around Earth. Work on board 
the International Space Station will expand scientific research 
opportunities in the areas of biological and physical research as well 
as technology development in the microgravity environment.
    From space, in space, and about space, NASA's science efforts are 
focused on pursuing questions that are rooted at the very core of the 
human spirit. These range from a practical curiosity about the 
environment in which we live, to a wondrous fascination about what lies 
beyond. What child has not peered at the stars, planets and comets in 
the night sky and wondered--``What is it like there? How many stars are 
out there? Is there life out there? Can we go there someday?'' That 
wonder carries with us through adulthood and is a part of who we are. 
At the same time, who cannot look at the images of the Earth from 
space--a beautiful blue, green, and white globe, seemingly suspended 
against a dark and silent backdrop, carrying the whole of human 
civilization abuzz on its surface--and not wonder how it works and how 
it is changing? There is tremendous value to understanding how and why 
our planet is changing and what the future Earth will look like. There 
is economic value; there is humanitarian value; there is political 
value, and there is value for ensuring our security. NASA Science 
inspires and serve humankind in ways that are truly unique and in ways 
that are critical for ensuring that we as a society not only survive, 
but thrive, in whatever future the human race carves out for itself.
    Recognition of NASA's remarkable science contributions comes from 
many places. In the simplest sense, it can be seen in the incredulous 
eyes of people who see images of the famous Butterfly nebula or the 
Martian surface for the first time. It can also be evident in the 
appreciation of the farmer whose crop output is increased through the 
use of NASA data and information. However, one of the most notable 
validations of the value of NASA science comes from objective 
assessments by scientific journals. In its report of the top ten 
insights of the 2000-2010 decade, the journal Science identifies four 
achievements that are directly derived from NASA science investments. 
Discover Magazine's 100 Top Science Stories of 2010 include fifteen 
NASA stories. American Physical Society's counts three NASA science 
stories among its Top Ten Physics-related News Stories of 2010. And the 
list goes on.
    As NASA's newly appointed Chief Scientist, it is my job, honor and 
privilege, to work in conjunction with the leaders of the Agency and 
the scientific community to ensure that the Nation's space program 
delivers the most valuable science for the taxpayer investment. Doing 
so requires that our goals remain focused, rich in content, and mindful 
of the resources available in our current, challenging fiscal 
environment. NASA's proposed FY 2012 budget request supports a diverse 
science and research and development (R&D) portfolio that reflects key 
priorities, while making some difficult choices that allow us to 
continue to invest in our Nation's future. This budget acknowledges 
that we must be good stewards of the tax payers' science and technology 
investments, while providing the Nation with the advancements necessary 
to maintain our global leadership and inspire our next generation of 
leaders in science, technology, engineering and math. The FY 2012 
budget supports the key scientific priorities that are developed 
through a rigorous process of scientific community engagement by the 
National Academy of Sciences known as decadal surveys.
    NASA's journey of scientific discovery also helps motivate, 
support, and prepare for human expansion into the solar system. Science 
missions provide critical insights into the radiation environment of 
deep space, the characteristics and compositions of planetary 
atmospheres, the terrain and geology of planetary surfaces, and the 
nature and origin of small bodies. They identify the hazards and 
resources present as humans explore space and the science questions and 
regions of interest that warrant detailed examination by human 
explorers.
    The importance of NASA Science was recognized by Congress more than 
a half-century ago and codified in our founding document, the National 
Aeronautics and Space Act of 1958. The Act explicitly states:

        ``The aeronautical and space activities of the United States 
        shall be conducted so as to contribute materially to one or 
        more of the following objectives:

                (1) The expansion of human knowledge of the Earth and 
                of phenomena in the atmosphere and space;'' [section 
                102(d)]

    Thus establishing science as a core element of NASA's mission. The 
return on investments in NASA science over the years have been 
tremendous, and the President's FY 2012 budget request provides for 
continued investments that will move the Nation forward in important 
and inspiring scientific endeavors.
Earth Science
    The view from space allows scientists to study planet Earth as a 
complex system with diverse interacting components: the oceans, 
atmosphere, land, ice, and life. NASA assets observe processes that are 
global in nature with local impacts, and that are local in nature with 
global impacts. By observing the interactions of these various 
components, we are able to develop a comprehensive picture of how the 
Earth works, how it is changing, why it is changing, and ultimately, 
what these changes mean for life on Earth. The knowledge we derive from 
this comprehensive picture, which is essential for ensuring our well-
being as a society, can only be realized when the Earth is viewed in 
the context, scale, and perspective afforded by these space-based 
capabilities. From quantifying the impacts of melting ice on sea level, 
to understanding the inner workings of hurricanes and tropical storms, 
to assessing the health and amount of global vegetation, NASA Earth 
Science provides advances in understanding that positively benefit the 
lives of billions of people all over the world.
    In addition to the scientific research and the new knowledge that 
NASA investments provide, NASA Earth Science also has real-time direct 
applicability to many national needs. Through our partnerships with 
other agencies (e.g., the National Oceanic and Atmospheric 
Administration (NOAA), the United States Geologic Survey (USGS), the 
Environmental Protection Agency (EPA)) that maintain forecasting and 
decision support systems, we ensure complementary, not duplicative 
activities. The result of these partnerships is improved national 
capabilities for climate predictions, weather, and natural hazards; the 
management of resources; and development of environmental policy. 
NASA's Earth Science is an essential part of the national and 
international efforts to understand the global environment and use 
Earth observations and scientific understanding in service to society.
    There are too many examples of the direct societal benefits gained 
from NASA's Earth Science missions to list them all here today. 
However, I would like to highlight a few for your consideration. Once 
such example is the use of the Thermal Infrared Sensor (TIRS), 
currently flying on the Landsat 5 and 7 spacecraft and now in 
development for the Landsat Data Continuity Mission. TIRS plays an 
important role in the water management efforts in the western United 
States. In particular, TIRS measurements are used operationally by 
state agencies to monitor snowpack runoff and water consumption on a 
field-by-field basis in nine western states (Nevada, Idaho, Wyoming, 
Montana, Colorado, New Mexico, Nebraska, North Dakota and South 
Dakota). State water managers call TIRS's data the ``gold standard'' 
for the cost-effective administration of water transfer agreements, and 
an irreplaceable tool for western water managers. In 2012, NASA will 
begin to work with the Department of the Interior to develop successor 
Landsat satellites, through an operational program funded by USGS.
    The Moderate Resolution Imaging Spectroradiameter, or MODIS 
instrument, on the Terra and Aqua spacecrafts provides data for the 
MODIS Rapid Response System developed to provide daily satellite images 
of the Earth's landmasses within a few hours of acquisition. This 
capability makes the system a valuable resource for organizations like 
the U.S. Forest Service and the international fire monitoring 
community, which use the images to track fires; the United States 
Department of Agriculture Foreign Agricultural Service, which monitors 
crops and growing conditions; and the United States Environmental 
Protection Agency and the United States Air Force Weather Agency, which 
track dust and ash in the atmosphere. As a final example, NASA-
sponsored investigations have developed and demonstrated reliable and 
accurate detection of volcanic ash clouds using data from instruments 
on NASA Earth Science satellites, including the MODIS, MISR, OMI, and 
CALIOP instruments on the Terra, Aqua, Aura, and Cloudsat NASA research 
missions. The proven utility of these data led to their operational use 
by the NOAA National Weather Service to formulate Volcanic Ash 
Advisories. These products were used extensively during the Iceland 
volcano eruption in April 2010 and more recently, NASA satellite data 
were used to produce volcanic ash advisories for aviators across the 
Gulf of Mexico during the February 1 eruption of the Popocatepetl 
volcano in Mexico.
    These practical benefits are not only realized here at home, but 
also abroad as is currently the case for the recent devastating 
earthquake in Japan. As with the previous earthquakes in Chile, Haiti, 
and elsewhere, NASA has been collecting and analyzing data from 
multispectral, multi-angle, and multiple resolution sensors to support 
damage assessment and response activities. We will continue the vital 
work to expand our abilities to observe our planet Earth and make those 
data available for decisionmakers and international partners.
    NASA's FY 2012 budget request for Earth Science supports the 
development and launch of five foundational decadal missions guided by 
the priorities in the 2007 National Academy of Science Decadal report. 
We had certainly hoped to be examining and distributing new information 
from the Glory mission in 2012, but as is sometimes the case in the 
high-risk space business, the launch of Glory was unsuccessful. The FY 
2012 request does, however, support exciting and high priority missions 
that include Aquarius, NPOESS Preparatory Project, Landsat Data 
Continuity Mission, and the Global Precipitation Measurement mission. 
In addition, the FY 2012 request supports the development and launch of 
the Orbiting Carbon Observatory-2, as well as the continued formulation 
and development of Soil Moisture Active and Passive (SMAP) and Ice 
Cloud and land Elevation Satellite-2 (ICESat-2), the first two Tier 1 
Earth Science Decadal Survey missions, with targeted launch dates in 
November 2014 and January 2016, respectively.
Space Science
    Robotic space probes allow us to extend humankind's presence into 
Earth's orbit and beyond. Through these missions we learn about our 
moon, the outer planets and their moons, asteroids and comets, icy 
bodies of the solar system, and we unravel some of the mysteries of our 
universe. NASA's FY 2012 budget request supports a robust space science 
mission portfolio including the Mars Science Laboratory (MSL), the 
Nuclear Spectroscopic Telescope Array (NuSTAR), the Radiation Belt 
Storm Probes (RBSP) and continued support for U.S. scientists through 
the research and analysis programs. MSL launches later this year and 
will arrive at Mars in August 2012. About the size of a subcompact car, 
MSL will assess whether Mars ever was, or is today, an environment able 
to support microbial life. The Nuclear Spectroscopic Telescope Array 
mission will launch in early 2012 and become the first focusing hard X-
ray telescope to orbit Earth. NuStar will give us new insight into how 
black holes are distributed through the cosmos, how heavy elements were 
forged in the explosions of massive stars, and what powers the most 
extreme active galaxies. The FY 2012 budget provides stable footing for 
the James Webb Space Telescope (JWST) while the Agency develops a 
revised program plan and a reassessment of schedule and lifecycle cost. 
The new plan will be reflected in the 2013 President's Budget Request; 
however, the FY 2012 investment puts JWST well on its way to enabling 
us to view further into the universe and closer to its beginnings than 
ever before. Through NASA's research and analysis programs, scientists 
will continue to use the vast volumes of data from NASA spacecraft, 
sounding rockets, balloons, and payloads on the ISS to further fuel the 
Nation's research advancements.
    On March 7, 2011, the National Academy of Sciences (NAS), National 
Research Council (NRC) announced the results of the long-awaited 
decadal survey for NASA's planetary missions. In its report, Vision and 
Voyages for Planetary Science in the Decade 2013-2022, the Academy 
outlined the scientific priorities for planetary missions for the next 
decade. The committee emphasized the importance of utilizing realistic 
cost estimates, and recognized both the challenges we face in the 
current fiscal environment and the importance of capitalizing on our 
international partnerships to help us accomplish larger, flagship 
missions. The committee's two highest priority large-class missions 
include the Mars Astrobiology Explorer--Cacher and a Jupiter Europa 
Orbiter. The report also strongly endorsed the importance and 
fundamental contributions to planetary exploration made by NASA's 
competitive Discovery (small missions) and New Frontiers (medium 
missions) programs. As with other decadal surveys, NASA is assessing 
the committee's recommendations and will use them to guide the 
strategic planning for upcoming missions. This report follows another 
decadal survey in Astrophysics released in 2010, Astrophysics 2010: New 
Worlds, New Horizons in Astronomy and Astrophysics that continues to 
shape our astrophysics investments. A similar report for heliophysics 
is under way and is expected to be completed in 2012.
Life and Physical Sciences Research
    With the extension of International Space Station (ISS) operations 
to 2020 or beyond, we are able to expand the fundamental knowledge of 
biological and physical processes in the microgravity environment. 
NASA's FY 2012 budget provides for investments in this aspect of NASA 
research, taking advantage of the unique environment and capabilities 
of the ISS research facility. Fundamental space biology research will 
investigate the effects of gravity and the space environment on 
cellular, microbial, and molecular processes and comparative responses 
of whole organisms and their systems. This research will help 
scientists better understand the molecular and cellular basis for human 
disease and sub-optimal performance, with potential benefits both to 
astronaut health and the health of the general population. Under 
microgravity conditions, researchers gain important insights into gene 
differentiation and the structures of complex macromolecules, with 
potential applications in the design of new drugs and the development 
of vaccines. Physical sciences research will explore the fundamental 
laws of the universe and provide a foundation for the development of 
advanced exploration systems that will enable humans to explore space 
in a more sustainable and affordable way. In April, the National 
Research Council will deliver to NASA the first decadal survey on life 
and physical sciences that will provide us with the guidance to ensure 
we maximize the return on our science investments in ISS and in life 
sciences and microgravity research.
    The Human Research Program (HRP) and its associated projects will 
continue to develop technologies, countermeasures, diagnostics, and 
design tools to keep crews safe and productive on long-duration space 
missions. Utilizing the Bioastronautics Roadmap, a risk reduction 
strategy developed in conjunction with the Institute of Medicine, the 
HRP identifies the top priority risks to crew health and carries out 
research targeted at developing countermeasures to reduce these risks. 
The ISS is critical to validating many of these countermeasures.
    The ISS as a National Laboratory is a national resource to promote 
opportunities for advancing science and technology to other U.S. 
Government agencies, university-based researchers and private firms. 
These other organizations will use the ISS to pursue basic and applied 
research in fields such as human health, energy, the environment and 
STEM education. NASA currently has Memoranda of Understanding with five 
Federal agencies and nine Space Act Agreements (SAAs) with companies 
and universities for use of the ISS as a National Laboratory. These 
organizations include:

  <bullet> The National Institutes of Health (NIH), which issued a 3-yr 
        rolling Funding Opportunity Announcement for ISS-based 
        investigations in March 2009 to include two-phase awards of up 
        to $1.5M per grant over 5 years. Three first-round grants for 
        the ground-based phase totaling an estimated $1.3M were awarded 
        in August 2010;

  <bullet> The National Science Foundation, which funded a study using 
        ISS as a platform for deploying CubeSats to study the upper 
        atmosphere; and

  <bullet> AstroGenetix Inc., which continues to make progress on their 
        vaccine development project.

    In support of the National Laboratory effort, NASA recently 
released a Cooperative Agreement Notice (CAN) for an independent Non-
Profit Organization to manage the multidisciplinary research carried 
out by NASA's National Laboratory partners. This organization will: (1) 
act as a single entry point for non-NASA users to interface efficiently 
with the ISS; (2) assist researchers in developing experiments, meeting 
safety and integration rules, and acting as an ombudsman on behalf of 
researchers; (3) perform outreach to researchers and disseminate the 
results of ISS research activities; and (4) provide easily accessed 
communication materials with details about laboratory facilities, 
available research hardware, resource constraints, and more. NASA plans 
to make an award for this organization in late spring. The NPO will 
oversee all research involving organizations other than NASA and 
transfer current NASA biological and physical research to the NPO in 
future years.
Linkages with Technology
    Within NASA, technology and science work hand-in-hand, with 
technology enabling science and the science guiding technology. The 
Fiscal 2012 budget provides for continuation of our groundbreaking 
research into the next generation technologies. The investments are 
required to enable NASA's future Science missions as well as those in 
Aeronautics and Exploration. NASA invests in technology development in 
each of its Science areas. For Science, NASA's technology programs 
serve as an innovation engine, investing in the high payoff, high-risk 
ideas and technologies of tomorrow that industry cannot tackle today. 
This unique work also attracts bright minds into educational and career 
paths in STEM disciplines, and enhances the Nation's technological 
leadership position in the world.
Conclusion
    NASA science contributes directly and substantially to current 
national priorities. As a leader in fundamental research, NASA works in 
and across the fields of Astrophysics, Planetary Science, Heliophysics, 
Earth Science, Life Sciences, Physical Sciences and technology 
development in ways that are unique to NASA's mission. The Science 
budget funds these missions as well over 3,000 competitively-selected 
research grants involving over 10,000 scientists, engineers, 
technologists, and their students across the Nation. The U.S. science 
community's drive for innovation is unwavering and is ready to produce 
the new discoveries and technologies that feed a strong economy.
    NASA science is unique--targeting not only matters of the human 
mind, but also matters of the human spirit and nourishing our need to 
explore the unknown. With a balanced and diverse portfolio, we 
diligently seek to understand the world in which we live, the Sun that 
fuels us, our celestial neighbors, and the universe beyond. These 
endeavors both inspire and serve human kind. They are timeless and 
priceless. And they will continue to enable the United States to lead 
the world toward a future that will no doubt exceed what we can only 
imagine today.
                                 ______
                                 
                        Science Program Summary
    The President's FY 2012 request for NASA includes $5,016.8 million 
for Science. NASA continues to expand humanity's understanding of our 
Earth, our Sun, the solar system, and the universe with 56 science 
missions in operation and 28 more in various stages of development. The 
Science budget funds these missions as well as over 3,000 
competitively-selected research grants involving over 10,000 
scientists, engineers, technologists, and their students across the 
Nation. The Agency selects competed missions and research proposals 
based on open competition and peer review. NASA's science efforts 
continue to advance a robust and scientifically productive program 
while making difficult choices commensurate with the Government-wide 
priority to constrain the Federal budget.
    The challenges we face have been amplified by the failed launch of 
the Glory satellite on March 4th. This loss underscores the challenging 
nature of the space business. Reliable and affordable access to space 
is vital to NASA's science program.
Earth Science
    The FY 2012 budget request includes $1,797.4 million for Earth 
Science. NASA's constellation of Earth observing satellites provides 
many of the global environmental observations used for climate research 
in the United States and abroad.
    In early FY 2012, NASA plans to launch the National Polar-orbiting 
Operational Environmental Satellite System (NPOESS) Preparatory Project 
(NPP), continuing selected climate data records and becoming an 
integral part of the Nation's operational meteorological satellite 
system for weather prediction. We also plan to select new Venture Class 
science instruments and small missions in FY 2012.
    The Aquarius instrument on the Argentine Satelite de Aplicaciones 
Cientificas (SAC)-D mission (launching later this year) will deliver 
the first global ocean salinity measurements to the science community 
in FY 2012. The Orbiting Carbon Observatory 2 (OCO-2), Landsat Data 
Continuity Mission (LDCM), and the Global Precipitation Measurement 
(GPM) missions will be in integration and testing in FY 2012. The first 
two NRC Decadal Survey missions, Soil Moisture Active/Passive (SMAP) 
and the Ice, Cloud, and land Elevation Satellite-2 (ICESat-2), will 
both enter into development during FY 2012. This budget request also 
funds robust Research and Analysis, Applied Science, and Technology 
programs. In this climate of fiscal austerity there are some 
capabilities that will not be developed in order to keep the most 
important ones on track. Development of the second two Tier 1 Decadal 
Survey missions, the Deformation, Ecosystem Structure, and Dynamics of 
Ice (DESDynI); and the Climate Absolute Radiance and Refractivity 
Observatory (CLARREO), has been deferred. NASA will continue pre-
formulation work on the DESDynI and review international partner 
options. However, the FY 2012 request enables the Gravity Recovery And 
Climate Experiment Follow-on (GRACE-FO); the Pre-Aerosols-Clouds-
Ecosystems (PACE); and the Tier 2 missions Surface Water and Ocean 
Topography (SWOT); and Active Sensing of CO<INF>2</INF> Emissions Over 
Nights, Days, and Seasons (ASCENDS) to go forward as planned.
Planetary Science
    The Science budget request includes $1,540.7 million for Planetary 
Science in FY 2012. NASA and its partners consider the period from 
October 2010 to August 2012 (the length of a Martian year) to be the 
``Year of the Solar System.''
    The Juno mission will launch in August 2011 and arrive at Jupiter 
in 2016. The Gravity Recovery And Interior Laboratory (GRAIL) mission, 
following launch in September 2011, will enter lunar orbit and help 
determine the structure of the lunar interior from crust to core; the 
mission will advance our understanding of the thermal evolution of the 
Moon by the end of its prime mission in FY 2012. A webcam is giving the 
public an opportunity to watch technicians assemble and test NASA's MSL 
``Curiosity,'' one of the most technologically advanced interplanetary 
missions ever designed. More than one million people have watched 
assembly and testing of Curiosity via a live webcam since it went on-
line in October. Curiosity will launch in early FY 2012 and arrive at 
Mars in August 2012; it will be two times as large and three times as 
heavy as the Spirit and Opportunity rovers, and will focus on 
investigating whether conditions on Mars have been favorable for 
microbial life and for preserving clues in the rocks about possible 
past life. The MErcury Surface, Space ENvironment, GEochemistry and 
Ranging (MESSENGER) spacecraft will arrive at Mercury later this 
evening and will complete its first year in Mercury orbit in March 
2012. MESSENGER's instruments will map nearly the entire planet in 
color, image the surface in high resolution, and measure the 
composition of the surface, atmosphere and nature of the magnetic field 
and magnetosphere. During its nearly decade-long mission, the Dawn 
mission will study the asteroid Vesta and dwarf planet Ceres--celestial 
bodies believed to have accreted early in the history of the solar 
system. Dawn will enter into orbit around Vesta this summer and will 
depart in 2012 for its encounter with Ceres in 2015. NASA and the 
European Space Agency (ESA) have selected the five science instruments 
for the 2016 ExoMars Trace Gas Orbiter mission. The budget also 
supports robust Research and Analysis and Technology programs.
    NASA recently received the new National Academy of Sciences Decadal 
Survey for Planetary Science, entitled Vision and Voyages for Planetary 
Science in the Decade 2013-2022. We are grateful to the Academy and to 
all the Survey participants for their hard work and thoughtful 
recommendations. NASA will use this Survey to prioritize ongoing 
programs and future mission opportunities.
Astrophysics
    The FY 2012 budget request includes $682.7 million for Astrophysics 
(not including an additional $375 million for the James Webb Space 
Telescope [JWST] which is detailed below). This is a golden age of 
space-based Astrophysics, with 14 observatories in operation. 
Astrophysics research, technology investments, and missions aim to 
understand how the universe works, how galaxies, stars and planets 
originated and developed over cosmic time, and whether Earth-like 
planets and life exist elsewhere in the cosmos.
    The FY 2012 budget request reflects the scientific priorities of 
the new National Academy of Science Decadal Survey entitled, New 
Worlds, New Horizons in Astronomy and Astrophysics. The budget includes 
additional funding for the Explorer mission selection planned for 2012, 
sustains a vigorous flight rate of future astrophysics Explorer 
missions and missions of opportunity, and increases investments in 
recommended research and technology initiatives. Funding is also 
provided for pre-formulation investments in recommended large missions 
beyond JWST, while work on the Space Interferometry Mission (SIM) and 
Joint Dark Energy Mission (JDEM) has been brought to a close, 
consistent with the recommended Decadal Survey program. The 
Stratospheric Observatory for Infrared Astronomy (SOFIA) will complete 
its open door flight testing and conduct the first competed science 
observations in FY2012. The Nuclear Spectroscopic Telescope Array 
(NuSTAR) mission will launch in early 2012. The NASA Astrophysics 
budget also supports continuing operations of the Hubble Space 
Telescope (HST), Chandra X-ray Observatory, and several other 
astrophysics observatories in space. The budget increases funding for 
the core Astrophysics research program, including sounding rocket and 
balloon suborbital payloads, theory, and laboratory astrophysics.
James Webb Space Telescope
    The FY 2012 budget request includes $375 million for the James Webb 
Space Telescope (JWST). JWST is now budgeted as a separate theme, 
reflecting changes implemented in FY 2011 to improve management 
oversight and control over this critical project, as recommended by the 
Independent Comprehensive Review Panel's (ICRP) report in November 
2010. The project, which was previously managed within the Science 
Mission Directorate's (SMD) Astrophysics Division within NASA 
Headquarters, and was part of the Cosmic Origins Program, is now 
managed via a separate program office at NASA Headquarters. The JWST 
Project Manager at Headquarters now reports directly to NASA's 
Associate Administrator and the Associate Administrator of SMD. The 
lead Center for JWST, Goddard Space Flight Center, has also implemented 
changes, with project management now reporting directly to the Center 
Director. JWST was the top priority large mission recommended in the 
previous NRC Decadal Survey and is considered a foundational element of 
the science strategy in the new Decadal Survey for Astronomy and 
Astrophysics. Cost growth and schedule issues identified during the 
Mission Critical Design Review led to the formation of the ICRP. The 
ICRP report concluded that the problems causing cost growth and 
schedule delays on the JWST project are associated with cost estimation 
and program management, not technical performance. The $375 million 
funding in 2012 gives the program a stable footing to continue progress 
while the Agency develops a revised program plan that includes a 
realistic assessment of schedule and lifecycle cost. The revised 
schedule and lifecycle cost will be reflected in the 2013 President's 
Budget Request.
Heliophysics
    The FY 2012 budget request includes $622.3 million for 
Heliophysics. NASA's heliophysics satellites provide not only a steady 
stream of scientific data for NASA's research program, but also supply 
a significant fraction of critical space weather data used by other 
Government agencies for support of commercial and national security 
activities in space. Those agencies use the data to protect operating 
satellites, communications, aviation and navigation systems, as well as 
electrical power transmission grids. The spacecraft also provides 
images of the Sun with ten times greater resolution than high-
definition television in a broad range of ultraviolet wavelengths. On 
February 6, 2011, the two Solar Terrestrial Relations (STEREO) 
spacecraft reached 180 degrees separation; when combined with the Solar 
Dynamics Observatory (SDO), these spacecraft will enable constant 
imaging of the full solar sphere for the next 8 years, as the solar 
cycle peaks and begins to decline again. These three spacecraft working 
together and in combination with NASA's other solar observatories will 
give us unprecedented insight into the Sun and its dangerous solar 
storms that could threaten both satellites and humans in space as well 
as electric power systems on Earth. NASA has begun development of a 
mission, called Solar Probe Plus, that will visit and study the Sun 
from within its corona--a distance only 8.5 solar radii above its 
surface.
    The FY 2012 budget will enable completion of the Radiation Belt 
Storm Probes (RBSP) mission for launch in FY 2012 as well as the 
completion of development of the Interface Region Imaging Spectrograph 
(IRIS) Explorer mission. In FY 2012, the Magnetospheric Multiscale 
(MMS) mission will enter its assembly and integration phase, the Solar 
Orbiter Collaboration with ESA will undergo Mission Confirmation 
Review, and the Solar Probe Plus mission will enter into the 
preliminary design phase. NASA has increased funding for the next 
Explorer mission selection planned for 2012 to enable selection of up 
to two full missions, as well as instruments that may fly on non-
Explorer spacecraft. The budget also supports robust Research and 
Analysis and Sounding Rocket operations programs. The National Academy 
of Sciences has begun work on the next Decadal Survey for Heliophysics 
and we anticipate its release in the spring of 2012.
Life and Physical Sciences
    The FY 2012 budget request includes $66.5 million to support 
research in the Life and Physical Sciences on the International Space 
Station (ISS), including a non-profit organization (NPO) to stimulate, 
develop and manage the U.S. national uses of the ISS National Lab. The 
ISS has transitioned from the construction era to that of operations 
and research, with a 6-person permanent crew, 3 major science labs, an 
operational lifetime through at least 2020, and a growing complement of 
cargo vehicles, including the European Automated Transfer Vehicle (ATV) 
and the Japanese H-II Transfer Vehicle (HTV). The FY 2012 budget 
request reflects the importance of this unparalleled research asset to 
America's human spaceflight program and will enable fundamental science 
advances in the areas of biology and physics in the little-understood 
space environment. These science investments will be informed by 
recommendations in the National Academy of Science decadal survey for 
life and microgravity sciences, which will be released shortly.
    Many avenues of research being conducted aboard the ISS may have 
terrestrial applications. For example, ISS research has shown that 
Salmonella bacteria become more virulent in microgravity (i.e., more 
aggressive in causing disease). Scientists have identified the gene 
responsible for this increased virulence and are developing a potential 
vaccine against Salmonella. AstroGenetix, Inc. has funded their own 
follow-on studies on ISS and is now pursuing approval of a vaccine as 
an Investigational New Drug with the Food and Drug Administration. They 
are now applying a similar development approach to methicillin-
resistant Staph aureus (MRSA).
    Microcapsules are tiny micro-balloons used in cancer treatment to 
deliver anti-cancer drugs directly to a tumor site. Microcapsules with 
improved cancer treatment properties developed on the ISS were 
reproduced on Earth and were successful in targeting delivery of anti-
cancer drugs to successfully shrink tumors in ground tests. A device to 
produce similar capsules on Earth has now been patented, and clinical 
trials of the drug delivery method are beginning.
    Numerous plant growth experiments have investigated both the 
effects of microgravity, as well as the capability for growing 
regenerable food supplies for crew. Technology developed the for 
greenhouse flown on the ISS led to a new technology that is widely used 
on Earth, killing 98 percent of airborne pathogens (including Anthrax) 
for food preservation, doctors' offices, homes, and businesses.
    Finally, as part of the ISS National Laboratory effort, the 
National Institutes of Health (NIH) are hosting three rounds of 
competition for the BioMed-ISS initiative. The first round of grants 
for the ground-based phase has been awarded to support the following 
important research topics:

  <bullet> Studying bone-cells in a gravity-free environment in order 
        to uncover new therapeutic targets for osteoporosis and related 
        bone diseases.

  <bullet> Applying lessons learned from studies of immune cells in the 
        space environment, where the immune system is suppressed, to a 
        new model for investigating the loss of immune response in 
        older women and men.

  <bullet> Using microgravity three-dimensional cell culture models to 
        generate insights into how the barrier properties of the 
        intestines, which inhibits the movement of toxins into the 
        intestinal tract behave, and to explore how the absence of 
        gravity affects alcohol's ability to compromise this barrier. 
        The compromise of this barrier and the reduced resistance to 
        toxin transport is major factor in alcohol-related disease, The 
        microgravity environment is helping scientists understand the 
        underlying mechanisms for this process.

    Senator Nelson. Thank you, gentlemen.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    Dr. Suresh, in your testimony you mentioned increasing the 
number of international players in the global markets for 
graduates STEM degrees. In your opinion what are the--some of 
the short term and longer term steps we must take to encourage 
more high school and college students to pursue scientific and 
technical degrees?
    Dr. Suresh. NSF for several decades has played a key role 
in STEM education, not just by itself, but also in concert with 
other agencies such as the Department of Education. The 
distinction between what NSF does, and what other agencies do, 
is NSF sponsors research into best models, ways in which our 
STEM education can be strengthened, and then we work with other 
agencies so that it can be implemented on a larger scale.
    For example, Dr. Holdren mentioned, in his presentation, 
that recently NSTC has convened a committee on STEM education 
which aims to do exactly that. We have a number of programs 
that reach out to K through 12. We have a number of programs 
that reach out to undergraduate students. We have new programs 
that are introduced that will bring the latest science and 
technology into STEM education practices in the country. A lot 
of our programs are also aimed at supporting the President's 
mission of 100,000 new STEM teachers in the country. What are 
the best practices? What are the lessons learned?
    We also try to incorporate under-represented groups. By the 
year 2040 we will be a country with a majority of minorities. 
How do we incorporate these groups into the STEM workforce?
    These are all part and parcel of activities that NSF is 
engaged in.
    Senator Boozman. Do we do--do we embrace the scientific 
method of studying what we are doing, evaluating the programs 
that are working, measuring their effectiveness, and then again 
getting rid of the programs that aren't working?
    Dr. Suresh. Absolutely. In the Fiscal Year 2012 budget, for 
example, in the area of education, there are several programs 
that are scheduled for either termination or reduction, not 
because these programs have not worked in the past; but we have 
funded them for a long time, learned a lot of lessons from 
them, and as we launch newer programs with new tools, new 
technologies, and new evidence-based research methodologies for 
STEM education, we try to realign them. In the area of STEM 
education, we have several programs that fall into that 
category.
    By the way, I should also add, in the area of research and 
operations, we have eliminated several programs which will save 
the taxpayers more than $100 million. So the budget has been 
developed very responsibly.
    Senator Boozman. OK. Thank you.
    Dr. Suresh. Thank you.
    Senator Boozman. Director Gallagher, there have been 
concerns that other nations may be using the international 
standards setting process to benefit their own domestic 
industries. Is this happening? If so, how does this sort of 
protective standard setting occur and what impact could it have 
on U.S. businesses and scientific research?
    Dr. Gallagher. So, standards are interesting because they 
are a form of collective behavior among what would normally be 
competing companies. And they are powerful. I think that 
standards set the conditions for a market to take hold and they 
set the conditions for which technologies can evolve so that 
you achieve the desirable goals, like interoperability.
    But like any powerful collective behavior, it can be 
misused. And I think this is always a concern when you are 
looking at standards setting. Certainly there are examples of 
either developing countries that want to influence 
international standard setting to either advantage their local 
producers or to meet certain conditions that they feel are 
apparent in their markets. The most effective tool we have is 
actually to engage more. The truth of the matter is, even our 
own producers in this country are producing for a global market 
and it is to our own advantage that there be robust, 
technically sound standards that our own manufacturers can work 
toward.
    One of the strengths of the U.S. system is we tend to 
bring, because we have an industry led standard setting process 
and not a government led standard setting process, the experts 
in the technologies right to the table. And I think the cases 
where we have seen problems have been when for some reason we 
are not aggressive enough in getting our perspectives there 
first. So there is a great first mover advantage in the fact 
that we bring so much technology and capacity into the 
discussions.
    So this really just takes a careful monitoring of the 
various interests that are taking place and making sure that we 
are fully engaged.
    Senator Boozman. So it is a focus of the administration?
    Dr. Gallagher. Very much so.
    Senator Boozman. OK. Thank you, Mr. Chairman.
    Senator Nelson. And Dr. Gallagher, in those standards you 
are requesting 24 million for the Interoperability Standards 
for Emerging Technologies. Are there other emerging 
technologies that NIST should be working on with industry to 
develop interoperable standards?
    Dr. Gallagher. The answer is yes. It would be sad if we had 
a shortage of emerging technologies to work on, so I think that 
the list of potential areas where we are being asked to engage 
with industry is large. The focus of the request is in three 
areas, in particular where the federal government has a great 
interest in the formation of these standards.
    First, specifically looking at smart grid standardization 
so that the smart grid infrastructure is interoperable and 
secure. Second, the area of cloud computing where there is 
enormous advantage to federal agencies looking toward cloud 
services and making sure that cloud providers can still 
maintain the security and interoperability we still have access 
to our data and aren't locked in to a particular proprietary 
answer. And third, in the area of electronic medical records.
    Two of those three efforts were actually started with 
Recovery Act funding transferred to NIST. And so this request 
basically allows us to maintain these programs where we are 
working and in many cases with hundreds of industries at the 
same time. But our core programs continue to look at evolving 
and emerging technology areas like nanotechnology, synthetic 
biology and other areas where it is just as important to work 
with industry to make sure we are, again, moving out forward 
first so we can shape the way these standards take place.
    Senator Nelson. Are those standards for the electronic 
medical records ready to go?
    Dr. Gallagher. Well, I always hesitate to say ``ready'' 
because the standards setting activities tend to be continuous. 
So what I am often looking for is you have a very clear 
starting point where you get the activity going but the 
technology continues to evolve so that--what I look for has the 
effort achieved a maturity where it is self sustaining. And I 
think we are still early, I would say, in the case of 
electronic medical records. There are still some key issues to 
address to make sure that these systems can interoperate and we 
can securely and reliably share patient information across 
systems, between different doctors.
    We also want to make sure these systems are usable. I don't 
think doctors want to be struggling with complicated systems 
that they can't use. And I think patients want to understand 
that they can control how their medical information is used by 
different participants in that system. So it is a very active 
area but I wouldn't say we are done.
    Senator Nelson. Well, they are ready to go out there in the 
private sector, because they are setting up these electronic 
medical records as we speak. So, tell me about the disconnect.
    Dr. Gallagher. Well, this is true in all of these new 
technology areas. That is correct, we are deploying electronic 
medical records systems, they are commercially available. And 
in fact under the HITECH Act we are creating incentives to 
lower the barriers for doctors to purchase these systems.
    The way you address some of these areas where we are 
continuing to evolve standards is largely through upgradability 
requirements. So we do make sure, when we are early in a 
standards setting process, that if a system doesn't have the 
full capability or we haven't reached consensus among the 
technical community how we are going to provide for a certain 
type of interoperability, there is the pathway to upgrade those 
investments so that we can achieve that type of 
interoperability.
    So I think the capability of these electronic medical 
records systems is going to continue to evolve and it is going 
to continue to get better. But the road map and sort of the 
priority setting that we look at when we engage is to try to 
establish the core functionality, provide an upgradability and 
then make sure that the technology is moving toward the sort of 
the full scale interoperability that we would like to see in 
the end.
    Senator Nelson. I would like you to provide, to the 
committee, a timetable with a copy to the Secretary of HHS on 
when you think that these standards are ready.
    Dr. Gallagher. I would be happy to work with you.
    Senator Nelson. What I would like is a report on your 
timetable.
    Dr. Gallagher. Right. Right.
    Senator Nelson. When you see this, because if you all are 
still developing these things 10 years from now that is going 
to be too late.
    Dr. Gallagher. We will be happy to provide that. I don't 
think this is a case where the standards are not going to be 
ready in 10 years. There are a lot of standards that are 
already in place, all I am pointing out is that the technology 
itself is going to evolve and you want a standards setting 
process that not just addresses the needs for interoperability 
today but is still there working on standards as the technology 
itself improves. We worked closely with HHS on this and we 
would be happy to give you that time scale.
    Senator Nelson. Well, the President is requesting $24 
million for this Interoperability Standards for Emerging 
Technologies and I take it this is one of the emerging 
technologies.
    Dr. Gallagher. That is correct.
    Senator Nelson. And there are others. You mentioned smart 
grid, you said healthcare IT, cloud computing and other 
technologies. Could you play a role in coordinating market 
participants in the mobile payment industry?
    Dr. Gallagher. Yes, we could. In fact there are already 
ongoing discussions about roles that we could play in 
supporting standards for mobile payment interoperability. In 
fact within the Trusted Identity Initiative as well, some of 
the authentication technology that you will need to enable 
mobile transactions is part of that effort as well. So we 
certainly would see a role there.
    Senator Nelson. What are you doing on U.S. leadership in 
international standards?
    Dr. Gallagher. So the NIST role in standards is really a 
technical role. One of the ways that we work to achieve robust 
international standards is to make sure that the best technical 
work is being used as the basis for the standards. So, as I 
said before, I think one of the strengths of the U.S. 
standardization process is that we tend to put the best 
technology and the best technical experts around the table when 
these are forming.
    The U.S. standards process though is interesting, because 
unlike most other countries it is not government setting 
standards in the United States, it is industry setting 
standards. So the key participants in the international 
standards bodies are private sector organizations, not 
government organizations. So our role is largely in support of 
those private sector organizations to make sure that this work 
is technically sound.
    We also work with other federal agencies, including our 
trade agencies, to make sure that we are sensitive to any 
emerging technical barriers to trade, any concerns that these 
standards are creating a barrier, so we can work to address 
those from our technical perspective.
    Senator Nelson. Senator?
    Senator Boozman. Along that line, Secretary Gallagher, I 
wish we could turn you loose on the government agencies so the 
DOD and VA would have the same interoperability. There is just 
example after example where the government just doesn't do a 
very good job of that at all.
    Dr. Holdren, I really did enjoy our visit the other day. 
That was very helpful in helping me get up to speed with what 
you are trying to accomplish. As you know, two significant 
interagencies research programs are up for reauthorization, the 
National Nanotechnology Initiative and the Networking and 
Information Technology Research and Development Program. How 
effective do you believe the interagency research programs are 
at furthering transformational research in areas of national 
importance, such as energy independence and cybersecurity?
    And then also, could you provide some examples of success 
resulting from interagency collaborations in either of these 
programs?
    So we are really--you know, that--we are kind of getting 
back to interoperability in a way in that regard also, amongst 
our agencies.
    Dr. Holdren. Well thank you, Senator Boozman. I enjoyed our 
conversation a great deal as well.
    And let me say in starting to answer this, that the 
question of interoperability among the government agencies is 
one that the chief information officer or the chief technology 
officer, both of which we have for the first time in this 
executive branch, have really been working hard on. I think 
they are actually making a lot of progress. It is--it is a huge 
challenge, of course, but I think progress is being made there.
    As for the----
    Senator Boozman. I think so, and yet as someone that has 
been on the VA committee in the House and now in the Senate--it 
is a huge challenge.
    Dr. Holdren. Yes. Absolutely. I understand it, but I do 
know that the CTO and the CIO have been working with the VA, 
among others, on getting more of this right.
    You mentioned both the NITRD Initiative, the Networking 
Information Technology R&D Initiative, and the Nanotech as 
interagency initiatives that are trying to promote increased 
cooperation, not just across the agencies but with the private 
sector. And both do have that thrust in trying to get better at 
transferring discovery out of the universities and the national 
laboratories and into the private sector, through partnerships. 
I think we are already seeing many benefits in that domain, in 
the nanotech area in particular, which is one in which any 
number, I couldn't give you the exact number, but I can try to 
find it, any number of new startup companies have been 
benefiting from these public/private interactions. And we have, 
I know, successful companies marketing new nano-based products 
that have come out of this. I think we are getting better and 
better at it.
    We are also seeing real successes in the clean energy 
domain, where the national laboratories, the universities and 
the private sector are working more effectively on advanced 
batteries, for example, on improving fuel cell technology, on 
improving photovoltaic cell technology, as Chairman Nelson 
mentioned in his remarks. I think energy already provides us a 
rich array of examples in that domain.
    The President's Council of Advisors on Science and 
Technology (PCAST) has, in the last year, completed major 
reviews of both the National Nanotechnology Initiative and the 
NITRD Initiative and has made a number of recommendations about 
how we can improve the effectiveness of both of those at doing 
just what you are talking about. And it is my responsibility to 
see that those recommendations, with the approval of the 
President, get implemented.
    We have been doing that. We have got National Science and 
Technology Council subcommittees working hard in both of those 
domains.
    Senator Boozman. Thank you.
    Dr. Abdalati, in the America COMPETES Authorization of 
2010, NASA was directed to utilize their resources to create 
and support professional development for STEM teachers and STEM 
educators at all educational levels. We have had concerns in 
the past that NASA has not fully embraced this opportunity and 
direction. How does NASA plan on implementing this directive 
going forward? And then also, what commitment can you make that 
we will see NASA aggressively engage in this area?
    Dr. Abdalati. Well, first I think the level of NASA 
commitment is coupled to the leadership at NASA, and 
Administrator Bolden has made it very clear that this is a very 
high priority of his. He has made that clear publicly and he 
has certainly made that clear internally. One of the reasons he 
wanted a chief scientist, and in particular a chief scientist 
who understands NASA but is from academia, was for this 
purpose, to have this kind of link, someone who lives and 
breaths in the STEM world.
    So, the first and most important step is the Agency's 
commitment. When you couple that with the commitment of the 
President, I think there is great potential for what NASA can 
and will do.
    We have an Office of Education, and I believe you had the 
opportunity to speak with the Associate Administrators from 
NASA earlier in the week, and undoubtedly heard about the great 
things that our Office of Education is doing in STEM education. 
I am personally working to develop a strong relationship with 
Mr. Melvin, the lead of that office.
    At NASA, There are also education experts embedded within 
each of the directorates to ensure that the detailed activities 
within the directorates propagate into the educational domain, 
leaving the Education Office to manage education activities 
from an agency perspective.
    So, the biggest issue is the commitment--at the top from 
Administrator Bolden, to myself as Chief Scientist, to the 
Associate Administrator of Education. I can take, for the 
record, your question as to specific actions that will be 
undertaken at NASA on STEM education and I can also assure you 
that the commitment and support, which is really what makes it 
a success, from the President to the administrator on downward 
is there.
    [The information requested follows:]

    In January 2011, President Barack Obama stated that, ``over the 
next 10 years, nearly half of all new jobs will require education that 
goes beyond a high school education. And yet, as many as a quarter of 
our students aren't even finishing high school. The quality of our math 
and science education lags behind many other nations. America has 
fallen to ninth in the proportion of young people with a college 
degree. And so the question is whether all of us `as citizens and as 
parents' are willing to do what's necessary to give every child a 
chance to succeed.'' This speech echoes findings and calls-to-action by 
numerous committees, reports, professionals in education, and leaders 
in American industry. In response, the Department of Education has 
identified several strategies to improve science, technology, 
engineering and mathematics (STEM) education and ways in which Federal 
agencies can contribute to the Nation's STEM improvement efforts. NASA 
is a strong contributor to the national plan.
    Consistent with Section 202 of the America COMPETES Reauthorization 
Act of2010, NASA works with professional organizations, academia, and 
state/local education providers to identify and address needs in STEM 
education. Quality professional development for STEM educators is a 
prevalent need. Through the education staff at NASA's Centers, NASA 
works cooperatively with states and school districts to identify 
content needs and opportunities, and with university partners to ensure 
that NASA investments will be effective in improving teaching practice. 
NASA also works through communities of practice to identify content 
areas and special events that supplement informal education programming 
offered by museums and science centers. NASA higher education efforts 
increasingly target community colleges, which generally serve a high 
proportion of minority students. NASA programs build student STEM 
ability, preparing students for study at a four-year institution. 
Competitive opportunities support initiatives like the President's 
``Race to the Top'' and the Department of Education's ``Star Project,'' 
which promote state-based education reform and identify replicable 
strategies for improving K-12 education.
    NASA's education programs aim to increase the number of students 
who are proficient in, choose to major in, and pursue careers in STEM 
fields. Improving STEM ability, increasing public scientific literacy, 
increasing the talent pool of future STEM workers, and developing the 
STEM skills of the future workforce are imperatives if the Nation is to 
remain globally competitive and sustain a strong economy. NASA actively 
works through mutually beneficial relationships with over 500 colleges 
and universities, hundreds of K-12 schools and districts, and over 400 
museums and science centers to provide education experiences, so that 
all students can learn deeply and think critically in STEM disciplines. 
NASA supports cutting-edge undergraduate student research that 
contributes to NASA missions while training the next generation of 
scientists, engineers, and innovators. NASA targets recruitment and 
retention of underserved and underrepresented students, including women 
and girls, Hispanics, and students with disabilities.
    NASA is committed to providing equal access to its education 
activities by providing any student with the opportunity to contribute 
to the future STEM work force. NASA is responding by focusing its 
education investments on areas of greatest national need and ensuring 
that the Agency's education programs support national STEM priorities. 
With its wealth of science and technology content and its expansive 
network of education professionals, NASA is well equipped to address 
national needs such as meeting state requirements for educator 
professional development. NASA provides practical experience and skills 
development for those who will become the future workforce through 
internships, fellowships, and student research opportunities. NASA is 
especially qualified to attract students to pursue STEM study and 
careers. It also is able to engage these future workers through 
inspiring NASA missions, fostering collaborative relationships between 
students and the current workforce and offering students opportunities 
to work in ,.out of this world'' facilities. Hands-on challenges with 
expert mentors generate increased interest in STEM study.
    NASA has engaged students and teachers in its engineering 
challenges and scientific discoveries since its inception. From school 
presentations to seeds flown in space, from filmstrips and posters to 
podcasts and virtual tours through the galaxies, NASA's education 
programs have fostered inquiry, built curiosity, and encouraged 
innovation. Generations of Americans have participated in NASA's STEM 
education programs, and thereby learned basic skills, discovered new 
career paths, and developed interests in emerging academic disciplines.
    NASA is actively engaged in collaborations with other Federal 
agencies to ensure the Agency's programs are supportive of national 
STEM priorities. The NASA Associate Administrator for Education 
represents the Agency on the National Science and Technology Council 
(NSTC) Committee on STEM Education (CoSTEM). It was established 
pursuant to the requirements of Sec. 101 of the America COMPETES 
Reauthorization Act of2010. The NASA Office of Chief Scientist is also 
participating in the CoSTEM by providing the CoSTEM Executive 
Secretary, who works in close coordination with the Office of 
Education.
    NASA's Earth and space science missions have an essential role in 
NASA's education mission. The discoveries and new knowledge from our 
missions and research programs consistently engage people's 
imaginations, inform teachers, and excite students about science and 
exploration. We are committed to utilizing our resources to foster the 
broad involvement of the Earth and space science communities in 
education and public outreach with the goal of enhancing the Nation's 
formal education system and contributing to the broad public 
understanding of science, mathematics and technology. NASA's Science 
Mission Directorate creates education products using NASA's results in 
Earth-Sun system science, solar system research, universe exploration, 
and the development of new technologies to support learning. Through a 
``Train the Trainer'' model the SMD programs train master teachers, who 
reach their peers via in person and online professional development 
opportunities that range from one day to week-long workshops. Another 
aspect of Teacher Professional development includes providing summer 
research opportunities for in-service teachers.
    In 2010, NASA chartered an Education Design Team (EDT) to develop a 
strategy to improve NASA's education offerings, assist in establishing 
goals, structures, processes, and evaluative techniques to implement 
new sustainable and innovative STEM education programs. EDT has 
completed its task, and its recommendations are reflected in the FY 
2012 education budget for NASA's Office of Education.
    The FY 2012 budget provides NASA with the resources necessary to 
continue this rich tradition in STEM education through support for the 
Nation's students and educators, the leveraging of cutting-edge 
education technologies, and partnerships with industry. The budget 
proposal will:

  <bullet> Increase NASA's impact on STEM education by further focusing 
        K-12 efforts on middle-school pre- and in-service educator 
        professional development;

  <bullet> Increase emphasis on providing experiential opportunities 
        for students, internships, and scholarships for high school and 
        undergraduate students;

  <bullet> Increase NASA's role in national and state STEM policy 
        discussions;

  <bullet> Emphasize evaluation and assessment, including external 
        independent evaluation, to ensure that investments are 
        providing desirable STEM impacts;

  <bullet> Engage strategic partners with common objectives and 
        complementary resources; and

  <bullet> Use NASA's unique missions, discoveries, and assets (e.g., 
        people, facilities, education infrastructures) to inspire 
        student achievement and educator teaching ability in STEM 
        fields.

    Senator Boozman. Thank you.
    Thank you, Mr. Chairman.
    Senator Nelson. Well, contrary to Administrator Bolden's 
emphasis on STEM education, the President's budget cuts $200 
million from the 2010 levels across the Federal Government in 
STEM education. So Dr. Holdren, why this philosophy? What 
performance metrics was your office using when deciding to make 
these reductions?
    Dr. Holdren. Well, first of all Chairman Nelson, as I have 
said, we had to make some very hard choices in this budget. We 
all know that we don't have the money to do everything we would 
like to do and in this budget we reduced funding or cut funding 
for a wide variety of programs across a wide variety of domains 
that we would have preferred, under better circumstances, to be 
able to more fully fund.
    In the education domain, one of the things that I think 
needs to be recognized is the extent to which education 
activities are spread across a large number of R&D categories, 
in which education and training occurs without that particular 
label. I know Dr. Suresh could talk about this in greater 
detail, in terms of how it works at NSF where you have an 
education directorate and it does very important work. But I 
would say an even larger part of the education work at NSF goes 
on in connection with the research grants across the whole 
range of fields and those are going up.
    In other cases, we cut programs that seemed to have been on 
the metric of cost per student, or cost per new teacher to be 
extremely expensive even if successful by some other metrics. 
We are looking for ways to get the most bang for the taxpayer's 
buck in this domain and in this fiscal climate. We made some 
choices based on looking for ways to get more for our money 
than some of the more expensive programs on that per teacher or 
per student basis.
    Senator Nelson. Well, the information that I have is 
contrary to that. Dr. Suresh, it says that in your bailiwick of 
NSF, that you are actually reducing the funding requested for K 
through 12 educational activities. Why do that?
    Dr. Suresh. I'm happy to answer that and also provide some 
additional information on the point that Dr. Holdren made. If 
you look at graduate level funding, for example, one of our 
signature programs, which is also a Presidential priority, is 
the Graduate Research Fellowships. In 2012, we will have 2,000 
more graduate research fellows. Since 1952, NSF has funded 
46,000 graduate research fellows.
    We are not only increasing the number and funding 2,000 new 
fellows in 2012, we are also increasing the cost of the 
education allowance from $10,500 to $12,000 because it is long 
overdue. What is reflected in the education budget is just a 
little more than half of it. The other part of it comes from 
research directorates. So this is what Dr. Holdren was 
referring to.
    Another program like that is the IGERT program which is 
also interdisciplinary activities for graduate students. Fifty 
percent of the IGERT program support also comes from entities 
other than the education directorate within NSF.
    With respect to K through 12 education, we have other 
activities within the National Science Foundation that pick up 
aspects of this. We are also, at this point, strategically 
examining, based on evidence, programs that work, have done 
well, and that we can share through a variety of directorates 
within NSF. In fact, I have charged the head of our EHR 
directorate to look at two possibilities: how to engage all of 
the research directorates in educational activities, and also 
how to make sure that all of the best practices of the various 
research directorates are incorporated into the education 
activities.
    Senator Nelson. Well, following on that, it is true that 
the President's budget has a 3.8 percent increase for STEM 
education, in NSF. But when you get down into the weeds you see 
that Kindergarten through 12th grade is reduced by 15 percent. 
And I just heard the President give a speech about how 
important it is to get kids turned on to science and technology 
and education and mathematics. And I hear the Secretary of 
Education saying this all along. So I am wondering, if the 
policy is being set by the President, why is it being 
implemented by this 15 percent reduction and this cancellation 
of the NSF graduate and Kindergarten through 12th programs. 
Tell us about that.
    Dr. Holdren. Mr. Chairman, if I could say a word about the 
priorities and then I will turn it back to Dr. Suresh for some 
of the details. But one of the things that we are doing to 
implement the President's priorities is getting the private 
sector and the philanthropic sector much more heavily engaged 
in supporting K through 12 STEM education. The President's 
Educate to Innovate Initiative, which he first rolled out in 
November, 2009, with something over a quarter of a billion 
dollars in private sector and philanthropic support for 
improving K through 12 STEM education, now has over $700 
million in philanthropic and private sector support and has a 
new component called Change the Equation, which has a 100 
leading high tech CEOs contributing expertise and person power 
from their companies to work with teachers in classrooms, to 
provide role models and to provide more realistic and more 
hands-on experience for science and math and engineering 
students in K through 12.
    So one of the things we are doing, we are being creative 
here in getting more of the society engaged in this effort and 
more of the society engaged in paying for it.
    Senator Nelson. Is that filling this 15 percent cut to STEM 
education for K through 12?
    Dr. Holdren. Well, I can provide you an analysis of the 
extent to which the specific functions are being covered. I 
can't do that off the top of my head, but I think--even as we 
are forced in a time of great fiscal constraint, to economize 
in our federal budget--we are succeeding in bringing in 
resources for these very purposes, from the philanthropic and 
private sectors, I think is significant.
    Senator Nelson. Senator?
    Senator Boozman. Thank you, Mr. Chairman.
    Director Gallagher, the--can you tell us in regard to 
nanotechnology, can you discuss some of the standard setting 
challenges that we face there?
    And then also, as we reauthorize the National 
Nanotechnology Initiative, can you tell us how you feel that 
perhaps we could improve the current situation? You know, what 
do we need to do to improve the bill as we go forward, in other 
words improve the authorization?
    Dr. Gallagher. Thank you. So the NIST program, the NIST 
portion of the NNI includes our mission to advance measurement 
science and provide measurement capability. In the realm of 
standard setting, one of the key areas for any new emergent 
technology, and nanotechnology is a classic example, is as we 
move from the science realm into the technology development 
realm, in particular commercial technology development, is the 
acceptability in the market of these products that contain 
nanotechnology.
    And for this technology, it centers around questions of 
environment and health and safety. So a key part of the NIST 
effort and part of our request is to develop the supporting 
measurement capabilities so that we can assess risk of 
engineered nanoparticles so that you can determine whether 
there has been an environmental release, how do you 
characterize whether environmental samples contain 
nanoparticles. And it is really important, in fact it is 
imperative that this effort be very strong and move quickly 
because if public concerns about the safety of nanoparticles 
get ahead of where our science is, in terms of being able to 
articulate this, we will see a very significant barrier, 
through fear of these--and you will certain see that. So I 
think that is one of the most urgent standards needs in the 
area of nanotechnology.
    I think the NNI has reflected this very effectively in 
their strategy. From my perspective, the most important 
ingredient in the NNI initiative was the fact that you talked 
about the difficulty of many different agencies participating 
in something. This is one of those success stories where we 
have had a very broad interagency effort that is working 
extremely well together with really an integrated strategy 
approach. And, from my perspective, that is what I would like 
to see in any reauthorization effort.
    Senator Boozman. Very good.
    Just one more thing. Dr. Suresh, the--it is my 
understanding the National Science Board is beginning a review 
of modification to the merit review criterion at the NSF, 
specifically the intellectual merit and broader impacts 
criterion. What changes are being considered to ensure 
proposals that have received excellent reviews are funded?
    Dr. Suresh. Thank you for the question, Mr. Ranking Member.
    As you know, NSF funds proposals based on two criteria. The 
first and primary criterion is that it has scientific 
excellence. Then the additional criterion, the second 
criterion, is the broader impact, which encompasses a lot of 
different aspects, from translation to the marketplace to 
broadening participation and a variety of other factors.
    In the America COMPETES Reauthorization Act of 2010 there 
was language requesting the director of the National Science 
Foundation to provide a report to Congress within 6 months of 
the enactment of the America COMPETES Reauthorization Act. So 
that is due to Congress in June of this year.
    Almost in parallel with that, the National Science Board 
had established a task force to look into this. Because these 
two happened in parallel they were initially out of synch. So 
what we have done recently, since the passage of the America 
COMPETES Act, is to align the two together so that we will have 
one synergized version of the sentiments that develop from the 
study, that will be communicated broadly.
    In addition to that, we have launched outreach to the 
entire scientific community in the U.S. seeking their input on 
broader impact. This is currently on the National Science 
Foundation website, and a lot of letters have gone out. We have 
also sought input from the broader community. So we have had a 
number of teleconferences, joint teleconferences, between the 
Foundation and the Board. It is our expectation that we will 
have a cohesive set of recommendations ready by about early May 
or so, so that the report will be submitted to Congress on 
time.
    Senator Boozman. Thank you.
    Thank you, Mr. Chairman.
    Senator Nelson. Dr. Holdren, the President's budget had a 
considerable increase in NIST as well as the National Science 
Foundation, but it kept NASA flat-lined for the next several 
years. You want to explain that philosophy?
    Dr. Holdren. Well, first of all Chairman Nelson, the 
President had been clear from early in the administration about 
the importance he ascribed to investing in fundamental research 
as the foundation for advances all across the spectrum of 
applications. And that spectrum of applications of course 
includes space. But the President said, look what I think we 
need to do is get NSF, the DOE Office of Science and the NIST 
Laboratories on a doubling trajectory. And he has remained 
committed to that even through these budget difficulties.
    I would add that it is less expensive to do that than to 
expand the NASA budget by enough to do everything we would all 
like to do. And I think you and I share an appreciation for the 
importance of space and a desire to do more there. But in this 
budget environment the President felt that NASA could not be 
exempt and that we needed to try to meet the goals of the 2010 
NASA Authorization Act with a budget that did not go up overall 
compared to the 2010 appropriation.
    The division of the investments in NASA included, again, 
some difficult cuts that I would have preferred not to make, 
the President would have preferred not to make. We cut Earth 
Science research. I would have preferred not to do that, as the 
President would have preferred not to do it. We cut some of the 
investments in robotic missions, robotic precursor missions for 
the Human Exploration Program. I would have preferred not to do 
that.
    We don't have as much money for some of the major elements, 
including the heavy lift vehicle where we asked for a 
substantial amount of money but not as much as was authorized. 
Part of that difficulty, as you know, is that we have still not 
been freed from the constraints of the 2010 appropriation 
language. I know you have introduced a bill to do that, we very 
much appreciate it. But in order to be ready to spend as much 
in 2010 as one might have liked to spend, one needed to have 
done certain things in 2011 which we have not been able to do, 
because of the constraints of being under a continuing 
resolution which keeps those--the 2010 constraints on the 
Constellation Program in place.
    So these were tough choices, there is no question about it. 
And I for one would have been happy had we been able to do more 
across a wide range of government programs, but fiscal 
responsibility is a big part of the message that we are all 
working with at this juncture.
    Senator Nelson. Are you aware that we had all the Associate 
Administrators of NASA here last Tuesday and they testified 
that the language that you just referred to, requiring the 
investment in Constellation, which by the way will be stricken 
in this continuing resolution, but that NASA has not spent very 
little if any additional money, that it would not be spending 
in the development of the new heavy lift rocket?
    Dr. Holdren. I haven't had a chance to review that 
particular testimony. There have been a few other issues on my 
plate in the last week, as I know you will understand.
    Senator Nelson. Well, fine but I bring it----
    Dr. Holdren. But----
    Senator Nelson.--to your attention, because it has been the 
conventional wisdom of what--and talked about in the press, 
what you just said and what we are told in practice is exactly 
the opposite, that the language which required--it was Richard 
Shelby putting in the language to protect Constellation back a 
year ago and it is obsolete language that needs to be stricken, 
and it will be in this coming CR. However, when asked that 
question the two Associate Administrators involved in this said 
that very little additional money had been spent because of 
that requirement that would not have been otherwise spent.
    Dr. Holdren. Well, there is the question of what was spent 
that what--that otherwise wouldn't have been and there is also 
the question of what was not spent that otherwise would have 
been. I would want to look at that testimony and talk to those 
folks. It is my impression there have been some constraints. I 
think they probably said, well the constraints perhaps have not 
been all that bad. But my bottom line, Senator, is I am 
delighted that you are getting rid of that restriction in the 
continuing resolution going forward. And I thank you for that.
    Senator Nelson. Well, my bottom line is that I want a space 
program that is robust.
    Now, the President originally had come forth with a NASA 
budget a couple of years ago that was a $6 billion increase. It 
was one of the few agencies that was getting a substantial 
increase. And now with it being flat-lined, as with regard to 
the President's recommendation, flat-lined at the 2010 level, 
that $6 billion is evaporating. And yet the President's request 
lessens the heavy lift capability development and increases the 
commercial. Can you explain that?
    Dr. Holdren. I can certainly try. First of all, as 
Administrator Bolden has made clear and we agree, we have to 
continue to make the International Space Station and our 
capacity to get U.S. astronauts to it and back from it, a 
continuing backbone of our human space exploration program. And 
in our judgment, and I think in yours too, Senator, the 
duration of the gap during which we have to rely entirely on 
the Soyuz for the transport of our astronauts back and forth 
after the retirement of the shuttle, is a matter of concern. We 
think it is very important to reduce that gap and we think that 
commercial crew provides the best opportunity for doing that 
and that we need to make those investments in order to keep 
that gap to a minimum and to be able to use the International 
Space Station as the superb scientific and technology 
development platform that it is.
    Again, on the question of the heavy lift and on the 
question of the $6 billion increase over 5 years that we 
thought previously we would be able to get, I think it is a 
shame that the budget constraints under which we are now 
functioning make it impractical to get that increase. We are 
going to do absolutely the best we can to pursue all of the 
goals of the 2010 NASA Authorization Act with the money that we 
think is prudent and likely to be available.
    I am personally very much hoping that the President's 
proposal gets fully funded. And I know you are going to try to 
help us with that. But my bigger worry is what difficulty we 
will be in if we can't get the $18.7 billion through in the 
2012 budget.
    Senator Nelson. Well, let's talk reality now, because we 
are now facing the situation that the President's request for 
flat-lining NASA is in peril. We are facing, in the House 
position, significant cuts. Cuts that we had testimony the 
other day that would mean 4,500 people immediately laid off by 
NASA. I am talking about the additional cuts as enacted by the 
House. Over 800 of those would come from Goddard, about 800 of 
those would come from Kennedy, about a little more than over 
800 would come from Johnson. And then you can go around to all 
the centers and you could see what would add up to the 4,500 
immediate job cuts from those centers, the bulk of which is 
coming from those three centers that I just mentioned.
    What we are going to vote on at three o'clock today is 
another continuation for 3 weeks, and it is not going to have 
these cuts. But we are coming down to the moment of truth in 
another 3 weeks on enacting a budget for the remaining 6 months 
that not only is going to affect NASA but it is going to affect 
every one of your two other agencies, NIST as well as NSF. NSF 
would be down 4.4 percent, if you followed the House position, 
and NIST would be down 18.6 percent.
    So why don't you, the three of you share with us, and Dr. 
Holdren first, what those kind of gargantuan cuts would do to 
these various programs.
    Dr. Holdren. Chairman Nelson, first of all, you and I and 
the President and I am sure the colleagues here to my left are 
all on the same page in this. We don't favor those cuts, those 
cuts are not what the President proposed, either in his 2011 
budget or in his 2012 budget. And again, as I said when we were 
talking about NASA in particular, my worry is what happens if 
we don't get the $18.7 billion. I want to get that $18.7 
billion because I think we can keep the most important stuff 
going, I think we can move a robust space program forward, 
which you and I and the President all want.
    But if we experience these deep cuts that have been 
proposed by some in the House, it is going to be devastating. I 
think it is going to be devastating across the whole domain of 
investment in science, engineering, mathematics, innovation, 
which we have agreed have been the sources of our economic 
strength, the sources of our global leadership, the sources of 
our national security, the sources of our environmental 
equality. These cuts are a bad idea.
    Senator Nelson. I would love to get $18.7 billion for NASA. 
The House position is $18.1 billion, that is $600 million less 
and that would do what I just outlined. And of course 
additionally it would have those cuts that I just talked about 
for your two agencies.
    Dr. Suresh, you want to tell us what it would do to you?
    Dr. Suresh. Quite substantial damage, if you will. Let me 
just give you some numbers. Last year, in 2010, Fiscal Year 
2010, we received 55,000 proposals for funding at the National 
Science Foundation and we could have funded a lot more than we 
actually ended up funding, but we funded 13,000. There are so 
many outstanding young people out there whom we could not fund.
    Let me get specifically to the current House language and 
where we are and what damage it will do to NSF. The overall NSF 
cut will mean, if the House position passes, 900 fewer awards 
with a potential loss of 12,630 people from the Fiscal Year 
2010 enacted level. If we compare that to the Fiscal Year 2011 
request, there will be 2,075 fewer awards and a potential loss 
of nearly 30,000 people. This is for all of NSF.
    I can give you some numbers just for research. If we 
compare that to the 2011 request, there will be 20,200 fewer 
people who will be supported for research in the country.
    You mentioned STEM education earlier. 4,500 people will be 
lost from NSF support for STEM education. Yesterday I read the 
research funding in China is increasing 50 percent over the 
next few years, and that is the competition that we are facing 
at this point.
    Senator Nelson. OK. Dr. Gallagher?
    Dr. Gallagher. Thank you, Mr. Chairman.
    For NIST, to understand the impact of H.R. 1 or what it 
would have on the agency, it is important to point out that 
NIST has two types of programs. The NIST Laboratory program is 
an intramural program that are employees working in the 
laboratories. The MEP and TIP programs are extramural, that is 
they fund extramural research grants and cooperative programs. 
And that changes the impact on the two.
    At the proposed levels that were in that bill, for the 
intramural laboratory program the impact would be substantial. 
It was not deep enough, in our initial analysis, that we 
believe we would have to furlough employees, but the reduction 
to our other object accounts was significant enough that it 
would prevent us from renewing any new agreements. It would 
certainly result in a freeze. It would result in a curtailing 
of a number of our programs. Two of the most impacted programs 
are the ones that were being supported through other agency 
transfers under the Recovery Act; specifically smart grid and 
health IT would be very strongly impacted.
    In the extramural programs the Technology Innovation 
Program would not be able to fund any awards this year and the 
MEP program would have enough funding for the basic centers but 
none of the new services that--in the Next Generation MEP 
Program would be funded.
    Senator Boozman. Again, I've been very supportive of NASA 
and will. I think as our astronauts demonstrated, you know, it 
has been a great success story through the years, it is 
something that our Nation can be very, very proud of. I think 
the concern is, is that with a proposed one and a half trillion 
dollar deficit that over a period of 10 years, one and a half 
trillion dollar deficits as far as the eye can see, that an 
additional $13 trillion debt after 10 years, that's a real 
problem.
    Admiral Mullen testified a couple of months ago that our 
greatest threat to national security wasn't al Qaeda or 
Afghanistan or any of those threats, but was the debt. And so 
as we are wrestling around with this, you know, we do have to 
keep that in mind.
    My commitment is to, again this is something that, you 
know, this is something that only the government can do. You 
know, I think we all agree with that and I think, you know, 
Senator Nelson also agrees with, you know, the magnitude of the 
problem that we face. My concern, though, is as we look at the 
budget and things is that you have an authorization that is in 
regard to NASA. Money is being authorized in various programs 
and I think as the testimony or the--in listening to the 
senators, you know, as we have heard testimony, expressed 
feedback back, I think that we are pretty unanimous that those 
dollars need to be spent as they were authorized, as opposed to 
going in a different direction with the intent of the 
authorization that was really diligently worked out and worked 
out in good faith where, you know, we felt like we had reached 
a deal and now there is some concern that perhaps there is some 
variation from that.
    Thank you, Mr. Chairman.
    Senator Nelson. We are going to wrap up here. And we have 
got a number of other questions to submit for the record.
    I just want to say this. We had talked earlier about the 
need for clean energy, therefore the reduction of our 
dependence particularly on foreign oil. And one of you had 
commented in response to me commenting about this competition 
on photovoltaic which is another good example, that if we are 
successful in designing a better photovoltaic cell we could 
surely help ourselves in that realm.
    I just want to put into the record here, that China is 
investing up to $660 billion over the next decade in clean 
energy research. And South Korea is planning to invest $85 
billion over the next 5 years in clean energy research. So Dr. 
Suresh, we will let you be the clean up hitter here. Why don't 
you tell us what role NSF can play in increasing research and 
development of clean energy?
    Dr. Suresh. We have requested in excess of $550 million in 
the Fiscal Year 2012 budget for clean energy research, which 
will involve every office and directorate in the National 
Science Foundation. And this forms part and parcel of an 
umbrella that we call SEES: Science, Engineering and Education 
for Sustainability. As you mentioned in your opening remarks 
Mr. Chairman, and as my colleagues here have pointed out, this 
is an area where from NSF's perspective there are significant 
opportunities for new basic discoveries, which in concert with 
other agencies will lead to major economic benefits and society 
impact for the country.
    NSF is very committed to clean energy. We are looking at 
every aspect of clean energy. And this will really tap into the 
innovative spirit of the scientific workforce in the country.
    Senator Nelson. Gentlemen, we thank you for your public 
service. We thank you for your testimony today.
    The hearing is adjourned.
    [Whereupon, at 12:15 p.m., the hearing was adjourned.]
                            A P P E N D I X

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    America's expertise in science, technology and innovation has made 
us a leader in the global economy. But our role as a global leader is 
being challenged, and we need to be smart about how to maintain our 
competitive edge.
    Realizing the danger of inaction, this Committee worked to pass the 
America COMPETES Reauthorization Act of 2010, which cleared both the 
Senate and the House with overwhelming bipartisan support.
    But we still have a long way to go. Countries, like China and 
India, are devoting far more resources into research and development. 
They are finding new ways to use technology to deliver cleaner energy, 
cleaner water, cleaner air and more economic opportunity.
    And that's what brings us here today.
    I think in some ways we have become too comfortable in our previous 
success. We still remember our potential--and forget where we are 
today. Our future depends on the investments we make to keep this 
Nation competitive. Without a strong, bold and daring vision, we risk 
falling behind.
    For me this takes particular urgency in my state of West Virginia. 
West Virginia is in the midst of transitioning from a more industrial 
economy to one that, in the future, I hope is based more on technology. 
Our universities are thriving but we need to do more. We need the 
infrastructure for that. We are headed in the right direction but still 
have steps to take.
    America COMPETES offers a blueprint for our innovation 
infrastructure. It puts science and research investments on a doubling 
path over 10 years and strengthens science, technology, engineering and 
mathematics (STEM) education.
    However, in light of today's fiscal debate, we find our commitment 
to an innovative America in danger. This is despite the fact that the 
President's Deficit Commission itself called for an increase in 
government support for science R&D as a long-term gain for the budget.
    The President's FY 2012 budget proposal--with its call for 
increases in science at the National Science Foundation and the 
National Institute of Standards and Technology--sets the right agenda 
for the future. However, we must first take action in this fiscal year. 
We simply cannot afford to continue jeopardizing our Nation's future by 
failing to invest today.
    This hearing is an opportunity to identify the hurdles we must 
overcome on the path toward a more competitive America. I am pleased to 
welcome to this Committee a group of witnesses who have tremendous 
insight into the challenges we face.
    Dr. Holdren, President Obama's chief science advisor, is 
responsible for the broad Federal science portfolio as the Director of 
the Office of Science and Technology Policy.
    Dr. Suresh, the new Director of the National Science Foundation, is 
in charge of directing funding to the most innovative researchers in 
the country--people who seek to solve our most difficult scientific 
problems.
    Dr. Gallagher, the Under Secretary of Commerce for Standards and 
Technology, leads the agency best equipped to bring government and the 
private sector together, conducting cutting-edge measurement research 
for new technologies.
    And, last but not least, we have Dr. Abdalati. As NASA's Chief 
Scientist, Dr. Abdalati works to integrate science across the space 
portfolio.
    I want to thank our witnesses again for being here today. I look 
forward to their testimony.
                                 ______
                                 
 Response to Written Question Submitted by Hon. John D. Rockefeller IV 
                           to John P. Holdren
    Question. One R&D subject requiring significant improvement is the 
field of forensic science. As I'm sure you know, the National Research 
Council studied the forensic science system in the United States and 
found scientific deficiencies as described in their February 2009 
report, ``Strengthening Forensic Science in the United States: A Path 
Forward.'' That report recommended, ``removing all public forensic 
laboratories and facilities from the administrative control of law 
enforcement agencies or prosecutors' offices.'' On March 9, 2009, the 
President issued a memorandum on scientific integrity, which was 
followed by your memorandum on December 17, 2010, with more specific 
guidance to the executive branch. How can the standards you outlined in 
your memo be applied to protect the integrity of forensic science 
regardless of where/why it's conducted?
    Answer. First of all, a subcommittee of the National Science and 
Technology Council has been developing recommendations regarding how 
best to implement the changes called for in the National Research 
Council (NRC) report on forensic sciences. Approximately half of the 
NRC issues have been addressed by the Subcommittee in draft form to 
date, and recommendations relating to the rest of the NRC's findings--
including the one relating to the independence of forensic 
laboratories--are expected by this fall.
    A number of elements from my December 17, 2010, Memorandum to the 
Heads of Departments and Agencies are relevant to the issue of ensuring 
scientific independence for forensic laboratories. For example, my 
Memorandum notes in Section I that the integrity of scientific 
information generally is important ``both to ensure the validity of the 
information itself and to engender public trust in government.'' That 
is especially true when the science is linked to the criminal justice 
system, given that individuals' freedoms are directly at stake in such 
cases.
    Second, my memorandum also calls for the ``setting of clear 
standards governing conflicts of interest.'' Again, this is relevant to 
the issue of laboratory independence raised by the NRC, which found in 
its report that conflicts can arise when forensic laboratories are in 
fact--or are perceived to be--too closely affiliated with law 
enforcement or prosecutors' offices.
    A third area of relevance is my Memorandum's emphasis on the 
accurate conveyance of scientific and technological information. The 
NRC report noted that overly close relationships between forensic 
laboratories and law enforcement or prosecutors' offices can bias the 
reporting of results--a problem potentially exacerbated by another 
problem raised by the NRC: non-standardized forms and tools for 
reporting results. My Memorandum addresses the issue of how best to 
report scientific findings generally, calling for ``a clear explication 
of underlying assumptions; accurate contextualization of uncertainties; 
and a description of the probabilities associated with both optimistic 
and pessimistic projections, including best-case and worst-case 
scenarios where appropriate.''
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                            John P. Holdren
    Question. Basic research is the foundation of our economy; however, 
basic R&D only creates jobs when innovations are commercialized. What 
actions is the Administration taking to facilitate technology transfer 
and commercialization? Please provide specific examples of agency 
efforts in this regard. A recent report in the Wall Street Journal 
indicated that the percentage of organizations off-shoring R&D in the 
next 5 years is expected to double. How does OSTP see this impacting 
future U.S. innovation? What is the administration doing to keep that 
R&D spending in the United States?
    Answer. The Administration's recently revised A Strategy for 
American Innovation (February 2011) describes many of the 
Administration's actions to facilitate technology transfer and 
commercialization. For example:

  <bullet> The Department of Commerce's Office of Innovation and 
        Entrepreneurship promotes innovation-based, high-growth 
        entrepreneurship in pursuit of job creation and economic 
        growth. The Office plays a leading role in developing policy 
        recommendations and implementing initiatives to increase the 
        efficiency and effectiveness of efforts to commercialize 
        technology through university and federally-funded research.

  <bullet> The Small Business Administration's Innovation Fund will 
        support up to $1 billion in private-sector financing over the 
        next 5 years by matching private capital raised by investment 
        funds that are seeking to deploy capital in early-stage 
        innovative small businesses.

  <bullet> The U.S. Department of Agriculture's Agricultural Research 
        Service (ARS) established the Agricultural Technology 
        Innovation Partnership Program (ATIP) to provide opportunities 
        for the private sector to commercialize research outcomes 
        arising from USDA R&D investments.

    In addition, the Department of Energy (DOE) established a new 
policy on technology transfer and commercialization of innovations from 
the DOE National Laboratories, with the goal of reducing barriers to 
working with the DOE National Labs, increasing interactions with the 
private sector, communicating opportunities, and communicating 
outcomes.
    The Administration also announced a program as part of Startup 
America to facilitate start-up companies in identifying and obtaining a 
low-cost option to license Lab technologies. These options facilitate a 
startup in its first-year activities to raise capital and establish 
itself before facing the deferred costs of a license to commercialize 
the technology.
    OSTP is concerned about increased off-shoring of R&D investments by 
U.S. companies. If these trends continue and are not matched by strong 
R&D investments in the United States, there could be negative impacts 
on our Nation's capacity to innovate and compete in the global economy. 
Encouragingly, data show that, in recent years, off-shoring of R&D has 
been more than offset by increased ``on-shoring'' of R&D by foreign-
owned companies investing in R&D capabilities in the United States and 
by increased U.S. R&D investments by U.S.-owned companies (National 
Science Board, Science and Engineering Indicators 2010). The 
Administration has proposed several policies designed to keep R&D 
spending by both U.S.-owned and foreign-owned companies here in the 
United States. A leading example is the 2012 Budget's proposal to 
simplify, expand, and make permanent the Research and Experimentation 
(R&E) Tax Credit. The Treasury Department recently released an analysis 
showing that, if implemented, this proposal could leverage more than 
$100 billion in U.S. private-sector R&D over the next 10 years. The R&E 
Tax Credit can only be claimed for R&D performed in the United States 
and thus provides an incentive for companies to perform R&D in the 
United States rather than abroad. It is important to note that 
virtually all nations have R&D tax incentives. Many nations have tax 
incentive structures that are stronger than the current U.S. credit. 
Therefore, the proposal to improve and expand the U.S. R&E tax credit 
is essential to compete effectively for domestic and foreign corporate 
R&D capital.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                            John P. Holdren
    Question 1. In the coming months the Senate and House will debate 
the FY 2012 Federal budget. In light of the Nation's current fiscal 
situation, there is a potential for budget cuts to programs throughout 
OSTP. Could you prioritize the programs that you would allocate the 
most resources to should cuts occur? If not, why not? Can you merge 
existing research programs? If not, why not?
    Answer. In the spirit of shared sacrifice to address the fiscal 
situation, the 2012 Budget for OSTP requests $6.65 million, a 5 percent 
reduction from the $7.0 million 2010 enacted funding level. Sustaining 
the capabilities of OSTP's staff is a top priority in the Budget, and 
therefore resources for OSTP personnel and staff support are preserved. 
In the 2012 Budget, OSTP has proposed to reduce spending on other 
contractual services, resulting in fewer reports and technical analyses 
from the President's Council of Advisors on Science and Technology 
(PCAST). Because OSTP does not itself fund research, Federal research 
program mergers are not an appropriate strategy in the search for 
reductions in OSTP's 2012 Budget.

    Question 2. The National Science Foundation manages a small stream 
of Federal funding which helps to support the Industry-University 
Cooperative Research Centers and Engineering Research Centers. These 
programs appear to be significant in that they help to bridge the gap 
known as the ``valley of death,'' which many new companies and 
technologies face in their growth cycles. These programs are a 
relatively small investment of Federal resources, leveraged by private 
sector contributions and they reaffirm the strong comparative value of 
industry financial support.
    a. Is OSTP engaged in any assessment of the strengths and 
weaknesses of these types of programs, in comparison with other types 
of research programs offered by NSF, to determine whether or not our 
current mix of Federal R&D spending is optimal? If not, why not?
    b. Is OSTP engaged in any assessment of these types of programs, in 
comparison with programs such as Small Business Innovation Research 
(SBIR), Small Business Technology Transfer (STTR), Engineering Research 
Centers (ERC), Grant Opportunities for Academic Liaison with Industry 
(GOALI) Industry/University Cooperative Research Centers (I/UCRC), 
Materials Research Science & Engineering Centers (MRSEC), National 
Nanotechnology Infrastructure Network (NNIN), Nanoelectronics Research 
Initiative (NRI), Nanoscale Science & Engineering Centers (NSEC), 
Partnerships for Innovation (PFI), and Science and Technology Centers 
(STC) to determine which programs are the most effective? If not, why 
not?
    c. Has OSTP begun considering which programs are the most valuable 
in terms of future U.S. competitiveness? Do these assessments account 
for the need to consolidate and reduce duplicative programs and to get 
more value out of Federal research dollars? If not, why not?
    Answer. OSTP is well aware of and supportive of NSF's I/UCRC 
program and related efforts to improve the commercialization of 
promising ideas arising from NSF support of university-based research. 
I defer to NSF to provide details of its assessments of I/UCRC and 
other programs. OSTP is briefed regularly on both NSF-supported 
external assessments and NSF in-house assessments of programs in the 
NSF portfolio, and we work cooperatively with OMB and NSF as part of 
the annual budget process to optimize NSF and other Federal R&D 
investments based on the results of these assessments. In these ongoing 
discussions with OMB and NSF, we do not look at assessments of 
individual programs in isolation; rather, we look at the entire 
portfolio of programs organized around similar goals--for example 
commercialization of Federal research or Federal support of STEM 
education. These ongoing discussions consider which Federal programs 
are the most valuable in terms of future U.S. competitiveness and also 
consider the fiscal environment in which tough choices have to be made, 
including potential terminations or reductions in Federal programs, to 
maximize the impact of Federal research dollars.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                            John P. Holdren
    Question 1. I recognize the contributions NSF, NIST, and NASA have 
made to society and American innovation, but we are in dire economic 
times. Non-defense discretionary outlays grew 5.6 percent over the last 
decade. The continued deficits of our Federal Government are not 
sustainable and our country's growing debt is a threat to national 
security. With our current fiscal condition in mind, can you tell me 
how many jobs your budget proposal will create for Americans?
    Answer. We do not have precise, prospective estimates for the job-
creation impacts of the 2012 Budget although, as we describe in the 
answer to Question 3 below, we are working to improve impact measures 
for Federal R&D funding.

    Question 2. Is the creation of jobs a top priority for funding R&D 
at your respective agency?
    Answer. Because OSTP does not itself fund research, Federal R&D 
programs would not be affected by the proposed reductions in OSTP's 
2012 Budget.

    Question 3. How do you measure the impact Federal R&D funding has 
on job creation?
    Answer. The Federal Government relies on numerous metrics to 
measure the impact of Federal R&D funding on important national goals 
including job creation. Under OSTP's leadership, the National Science 
and Technology Council's Interagency Task Group on the Science of 
Science Policy released a report in November 2008 (The Science of 
Science Policy: A Federal Research Roadmap) that assesses existing 
impact measures for Federal R&D and sets out a research agenda for 
improving these measures. Since then, we have been working with the 
Federal research agencies to make progress on the roadmap's research 
agenda, with special attention to developing more real-time impact 
measures and to building a data infrastructure (STAR METRICS) for 
collecting better impact measures.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                        to Patrick D. Gallagher
    Question 1. One R&D subject requiring significant improvement is 
the field of forensic science. As I'm sure you know, the National 
Research Council studied the forensic science system in the United 
States and found scientific deficiencies as described in their February 
2009 report, ``Strengthening Forensic Science in the United States: A 
Path Forward.'' That report called out several areas where NIST could 
significantly contribute to needed improvements, such as ``to develop 
tools for advancing measurement, validation, reliability, information 
sharing, and proficiency testing in forensic science and to establish 
protocols for forensic examinations, methods, and practices.'' What do 
you see as NIST's role in improving forensic science overall and how 
would you specifically propose to address the above recommendation?
    Answer. NIST is aware of the National Research Council report, and 
is committed to addressing the important issues in forensic science in 
part by serving as co-chair (with Department of Justice's Bureau of 
Alcohol, Tobacco, Firearms, and Explosives) of the interagency 
Subcommittee on Forensic Science in the Committee on Science of the 
National Science and Technology Council. This Subcommittee is currently 
working to respond to the report's 13 recommendations.
    NIST has a mission-oriented focus on measurement science that is 
well-matched to the needs of the forensic science community (e.g., 
determining accuracy, efficacy, and quality assurance of measurements). 
NIST also provides measurement services in many areas such as reference 
materials, reference databases, and calibration services for a wide 
range of customers.
    NIST has a long history of providing innovative solutions to 
technological forensic science challenges like those described in the 
2009 NRC report. One example is the development at NIST of truncated 
DNA polymerase chain reaction primers to accurately detect and identify 
DNA short tandem repeats (STRs) in highly decomposed and partially 
incinerated human remains recovered from Ground Zero at the World Trade 
Center in 2001.
    The current efforts at NIST in forensic science-related areas are 
largely driven by funding from other agencies (e.g., DOJ, DHS, and DOD) 
on a short-term directed task basis. This has allowed NIST to establish 
some competency in certain forensic science areas. For example, NIST 
research in human identity and forensic DNA testing, developed in 
collaboration with the National Institute of Justice (NIJ/DOJ), has 
resulted in the development of standard reference materials, new 
testing methods, inter-laboratory validations, and the creation of 
training materials.

    Question 2. That report also described the importance of nationwide 
interoperability for Automated Fingerprint Identification Systems 
(AFIS) and the difficulty in achieving that goal. NIST has a history of 
working on AFIS interoperability issues. Can you please describe the 
technical challenges and legal barriers preventing interoperability of 
the multitude of systems that comprise AFIS, the role of NIST in 
addressing these issues, and specific actions that NIST might take to 
enhance interoperability?
    Answer. While NIST participates in the National Science and 
Technology task force on AFIS Interoperability, the bulk of NIST's work 
in this area is targeted at addressing the technical challenges to AFIS 
interoperability.
    Some of the key technical challenges to AFIS interoperability are 
linked to the identification and recognition of features in latent 
fingerprints.

  <bullet> The issue of AFIS interoperability arises in the latent 
        fingerprint forensic application. Because latent images can be 
        of arbitrarily poor quality, a successful recognition requires 
        human assistance. Typically, a trained latent examiner will 
        mark the minutia points and other features that appear in 
        images, and submit the markup, and sometimes the image, to a 
        remote AFIS identification server. A list of zero or more 
        possible candidates will be returned by an AFIS machine, and 
        the examiner will adjudicate the latent against the 
        ``exemplar'' candidate images (e.g., collected in a prior 
        arrest).

  <bullet> AFIS interoperability is defined as the ability of AFIS A to 
        be able to correctly find matching fingerprints when the 
        examiner used a latent workstation intended for AFIS B.

  <bullet> The interoperability issue arises because the fingerprint 
        examiner will use a vendor-supplied ``latent workstation'' 
        which embeds graphical user interface tools to assist the 
        examiner. More importantly, the workstation also embeds vendor-
        specific encodings of the minutia points, and there are 
        semantic differences in the way the coordinates and angles of 
        minutiae are computed even if that information is transmitted 
        in a standardized format (the generic fields of Type 9 of ANSI/
        NIST ITL 1-2007).

  <bullet> A second challenge is that different AFIS minutia extraction 
        algorithms report different numbers of minutiae from the same 
        input image because some minutiae are missed, and others are 
        detected erroneously. The differences are influential on the 
        core AFIS matching algorithms.

    To address these AFIS interoperability issues, NIST has been active 
in research and standardization in three areas:

        1. NIST has conducted tests of latent fingerprint technology in 
        its ELFT (Evaluation of Latent Fingerprint Technologies) 
        program. In its recent phase, the new standardized Extended 
        Feature Set (EFS, proposed for the 2011 ANSI/NIST standard) was 
        implemented by the major AFIS vendors, and evaluated at NIST. 
        Those tests also tested image-only searches, which do not 
        require examiner markup. As stated above, interoperability is 
        assured at the image-level.

        2. In addition, NIST runs the Minutia Exchange (MINEX) test 
        which measured the recognition accuracy available from 
        standardized minutia records generated by vendors A and B when 
        matched with an algorithm (AFIS core) from vendor C.

        3. NIST is the standards development body for the ANSI/NIST ITL 
        standard. It includes Type 9 for fingerprint features, 
        including minutiae and EFS. NIST also serves in the ISO/IEC SC 
        37 committee which is developing a standardized conformance 
        test for the correct placement semantics of minutiae. That 
        standard will become part of ISO/IEC 29109-2.

    Looking forward, NIST's participation in other appropriate 
standards bodies and technical scientific working groups will help to 
realize AFIS interoperability. Further engagement with the AFIS 
industry and the consolidation of technical findings into standards 
will also further this objective.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                          Patrick D. Gallagher
    Question 1. Basic research is the foundation of our economy; 
however, basic R&D only creates jobs when innovations are 
commercialized. What actions is NIST taking to facilitate technology 
transfer and commercialization? Please provide specific examples of 
agency efforts in this regard.
    Answer. The President has made investment in R&D, and the resulting 
economic growth that comes through innovation, a cornerstone of his 
economic policy. I want to applaud this Committee for its foresight and 
leadership in advancing the America COMPETES Reauthorization Act of 
2010 which continued the doubling path for NIST and the National 
Science Foundation and the Department of Energy's Office of Science. 
This Committee and the Administration agree that such investments in 
R&D are fundamentally important to accelerating technological 
innovations which, when commercialized, can have transformational 
impacts.
    NIST's critical role in this effort is to promote U.S. innovation 
and industrial competitiveness by advancing measurement science, 
standards, and technology in ways that enhance economic security and 
improve our quality of life. NIST's programs from the laboratories to 
the extramural programs provide a ``tool kit'' that addresses unique 
needs and gaps spanning the entire innovation and technology 
development cycle. From incentivizing and supporting long-term 
industry-led directed basic research to accelerating technology 
deployment and adoption by America's manufacturers, the NIST extramural 
programs along with the NIST laboratories, provide a critical 
infrastructure that supports the type of high-tech innovation, 
development, and manufacturing that is critical for our Nation's long-
term sustainable economic growth and job creation.

  <bullet> The NIST laboratories provide measurement solutions to 
        innovators and manufacturers that increase efficiency and 
        facilitate the use and adoption of advanced technology. For 
        example the NIST work in advanced sensors, robotics, and 
        modeling and simulation will provide the infrastructure that 
        facilitates the adoption of new technology systems that will 
        help manufacturers:

    <bullet> transform a new idea into production easily

    <bullet> reconfigure a factory to produce multiple types of 
            products using the same facility

    <bullet> adapt to changes in production while maintaining high 
            quality and minimizing waste

    <bullet> organize subcontractors, OEMs, and customers into 
            efficient and dynamic supply chains

  <bullet> The new AMTech will collapse the timescale of technological 
        innovation by including partners that span the innovation 
        lifecycle from idea to discovery, from invention to 
        commercialization. Through cost-sharing and a common research 
        agenda, these consortia would support the development of 
        innovative new technologies directed at creating high-wage jobs 
        and economic growth across the industry sector. These consortia 
        will develop road-maps of critical long-term industrial 
        research needs and provide support for research and equipment 
        at leading universities and government laboratories directed at 
        meeting.

  <bullet> TIP funds small companies and consortia of small companies 
        and universities to support high-risk transformational Research 
        and Development. TIP funding helps small companies develop and 
        demonstrate new high-risk, cutting edge technologies, when no 
        other sources of funding are available.

  <bullet> MEP helps small and medium manufacturers strengthen their 
        competitive positions by accelerating the adoption of 
        technological innovations, facilitating the adoption of 
        environmentally sustainable business practices, promoting 
        renewable energy initiatives, fostering market diversification, 
        and connecting domestic suppliers to manufacturers to assist 
        manufacturers in successfully competing over the long term in 
        today's complex global manufacturing environment.

    Question 2. Please provide to the Committee and the Secretary of 
HHS a timetable for the development of the electronic medical records 
standards.
    Answer. Based on industry and national needs, NIST anticipates the 
need for standards in emerging areas and plays a critical role by 
participating early in the development process and by helping ensure 
that the requisite infrastructural standards and associated tests are 
robust, complete, and unambiguous.
Timeline for Electronic Health Records (EHRs) Standards
    Standards, implementation specifications, and certification 
criteria for EHRs are scheduled to be adopted through rulemaking by HHS 
every 2 years consistent with its proposed sequence for the stages of 
meaningful use. This sequence will indicate needs over time for 
standards development, where NIST will likely play an important role.
Standards for Stage 1 Meaningful Use: complete
    Electronic Health Records that satisfy Stage 1 Meaningful Use 
standards and certification criteria are already available for 
physicians' practices and many hospitals. Recent surveys show that more 
than 80 percent of all hospitals and 40 percent of all office-based 
physicians intend to achieve meaningful use and qualify for incentive 
payments by using certified EHRs in a meaningful way. We anticipate 
that these numbers will increase in time, especially as the private 
sector continues to embrace the opportunity to innovate with less 
expensive and more user friendly EHRs.
Standards for Stage 2 Meaningful Use: operational by 2013
    Stage 2 Meaningful Use may stipulate additional and enhanced 
standards and certification criteria that could lead to more robust 
interoperable EHRs and greater adoption rates.
    The two Federal Advisory Committees (FACAs) established by the 
HITECH Act, namely, the HIT Policy Committee and the HIT Standards 
Committee, are advising the National Coordinator for Health Information 
Technology within the Department of Health and Human Services (HHS) on 
the priorities for Stage 2 and, subsequently, the requisite standards. 
NIST is represented on the HIT Standards Committee as well as on its 
workgroups.
    Based on the advice of these advisory committees, as well as on 
broad public input, ONC implements its Standards and Interoperability 
(S&I) Framework to: establish use cases; identify and harmonize 
standards; prepare implementation specifications, reference 
implementations, and pilot demonstrations; develop tests procedures; 
and, implement the certification process. It is anticipated that the 
proposed standards and certification criteria for Stage 2, will be 
published in the 4th quarter of CY 2011.
Standards for Stage 3 Meaningful Use: operational by 2015
    Stage 3 Meaningful Use activities will follow the same sequence as 
those for Stage 2. It is anticipated that Stage 3 requirements will be 
more stringent than those of Stage 2.
    The above timeline and work plan will result in operational EHRs by 
the deadline of 2014.

    Question 3. Last year you testified that the Technology Innovation 
Program (TIP) had the right ingredients for innovative research, but at 
the current level of funding, we wouldn't see a large national impact. 
The FY 2012 request of $75 million for this program is $4.9 million 
less than last year's request. What metrics are you using to evaluate 
the performance of this program? Are we making progress on the research 
in areas of critical national need targeted by the program? How long 
does NIST intend to maintain TIP in a pilot phase before deciding 
whether or not to expand the program?
    Answer. Measurement of program performance is a top priority for 
TIP. TIP measures outputs as short-run indicators of progress toward 
program goals. TIP measures outcomes in the longer run to assess the 
program's impact.
    Each year, TIP estimates the following performance results as 
measures of key outputs and indicators of progress in meeting short-run 
program goals:

  <bullet> Number of TIP projects funded

  <bullet> Evidence of fostering research collaborations

  <bullet> Patents, papers, and publications developed through the TIP 
        projects that accelerate the creation and dissemination of 
        knowledge

    A full description of TIPs performance measurement practices can be 
found in the TIP Annual report (http://www.nist.gov/tip/upload/
tip_2009_annual_report
.pdf)
    Since its authorization, the program has awarded 38 grants during 
the period FY 2008-2010, representing a TIP investment of approx $136 
million, for a total investment of about $280 million in new high-risk, 
high-reward research:

  <bullet> In 2008, $42.5 million from TIP funds supported nine 
        projects in advanced sensor technologies for civil 
        infrastructure such as roads, bridges, and water systems, for a 
        total of $88.2 million in new research (TIP + awardee cost 
        share).

  <bullet> In 2009, TIP funded twenty projects at $71M, for a total 
        potential new research investment of $145.6M, to address 
        critical national needs in manufacturing and civil 
        infrastructure.

  <bullet> In 2010, TIP provided more than $22.2 million for nine 
        projects for advanced manufacturing research in electronics, 
        biotechnology and nanotechnology, for a total of $45.9 million 
        in new research.

    Despite being a young program, results from the R&D are already 
being shared and tested, which is indicative of the impact of the 
program. Technologies in civil infrastructure have been tested in state 
highway facilities and several of the projects have agreements with 
state transportation authorities (e.g., California, Michigan, and 
Massachusetts) to serve as test beds for this next generation of 
technologies.
    The scientific findings from these projects are also being actively 
shared within the scientific community, enabling these efforts to 
benefit R&D in areas beyond the organizations partnering with TIP. In 
March 2011, organizations working with TIP in the 17 civil 
infrastructure projects presented 47 research papers at a smart 
structures conference hosted by SPIE. This interaction across 
scientific disciplines allows TIP participants to share important R&D 
findings that can subsequently be used by other researchers. These 
early research results and strong partnering relationships suggest the 
research currently underway has laid the foundation for transforming 
today's research into tomorrow's solutions.
    The FY12 request supports the Administration's priorities of 
promoting technological innovation and providing support for 
manufacturing.

    Question 4. How is the AMTech (Advanced Manufacturing Technology 
Consortia) Program different from existing activities at NIST, such as 
the TIP and Manufacturing Extension Partnership (MEP) programs?
    Answer. AMTech will collapse the timescale of technological 
innovation by including partners that span the innovation lifecycle 
from idea to discovery, from invention to commercialization. Through 
cost-sharing and a common research agenda, these consortia would 
support the development of innovative new technologies directed at 
creating high-wage jobs and economic growth across the industry sector. 
These consortia will develop roadmaps of critical long-term industrial 
research needs and provide support for research and equipment at 
leading universities and government laboratories directed at meeting 
these needs. This approach deepens industrial involvement in 
determining how to best leverage government resources to promote 
technological innovation.
    TIP funds small companies and consortia of small companies and 
universities to support high-risk transformational Research and 
Development toward targeted and immediate needs. The cost-share 
provisions of TIP enable TIP to leverage significant non-Federal 
investment for high-risk, cutting edge technologies, and serves as an 
important source of funding when no other sources are reasonably 
available. In contrast to TIP funds, which are given to single 
institutions or small groups of awardees, AMTech provides a framework 
for entire industry sectors to address pre-competitive research needs. 
Participants in an AMTech consortium include both large industry 
players, with acknowledged expertise in the critical needs facing a 
particular sector, as well as small and medium enterprises, whose 
smaller organization may allow for increased agility and innovation.
    NIST's MEP program complements AMTech by helping small and medium 
manufacturers strengthen their competitive positions through assistance 
provided by a nationwide network of centers and field staff consisting 
of over 1,400 technical experts. MEP helps small and medium 
manufacturers by accelerating the adoption of technological 
innovations, facilitating the adoption of environmentally sustainable 
business practices, promoting renewable energy initiatives, fostering 
market diversification, and connecting domestic suppliers to 
manufacturers to assist manufacturers in successfully competing over 
the long term in today's complex global manufacturing environment.
                                 ______
                                 
      Response to Questions Submitted by Hon. Roger F. Wicker to 
                          Patrick D. Gallagher
    Question 1. I recognize the contributions NSF, NIST, and NASA have 
made to society and American innovation, but we are in dire economic 
times. Non-defense discretionary outlays grew 5.6 percent over the last 
decade. The continued deficits of our Federal Government are not 
sustainable and our country's growing debt is a threat to national 
security. With our current fiscal condition in mind, can you tell me 
how many jobs your budget proposal will create for Americans?
    Answer. As the President has said, ``The first step in winning the 
future is encouraging American innovation.'' The Administration in 
February proposed a record $66.8 billion investment in civilian 
research and development reflecting its firm belief that investment in 
civilian research is a key ingredient for cultivating the innovation 
that is so important to growing the American economy of the future.
    NIST's mission is to promote U.S. innovation and industrial 
competitiveness through advances in measurement science, standards and 
technology to enhance U.S. economic security and improve the quality of 
life of U.S. citizens. The foundational nature of measurements have a 
multiplier effect on job creation. While NIST does not directly count 
the number of jobs created, NIST programs have a direct and measurable 
impact on the number of jobs created and retained. A 2009 survey of 
NIST's Manufacturing Extension Partnership (MEP) clients indicated that 
as a direct result of the MEP program, the MEP clients had created 
17,721 jobs, and retained 54, 354 jobs.
    Similarly, we know from anecdotal data that grants made by NIST's 
Technology Innovation Program (TIP) or the Small Business Innovation 
Research (SBIR) program awards are often the key resource that enable 
the continued existence of small businesses involved in very technical 
and specialized R&D and innovation related research or 
commercialization activities. In its 3 years of existence, TIP has 
awarded 38 grants covering civil infrastructure and manufacturing. 
These 38 projects have supported 88 small and medium-sized businesses.
    As yet another example, NIST research in developing measurement 
techniques and instrumentation at the nanoscale to examine an exciting 
new form of carbon, graphene, has resulted in the commercialization of 
a new breakthrough product, an ultra-high vacuum compatible dilution 
refrigerator. A manufacturer of specialty scientific instrumentation is 
now manufacturing this refrigerator for commercial sales, thereby 
creating and supporting jobs in manufacturing and service.

    Question 2. Is the creation of jobs a top priority for funding R&D 
at your respective agency?
    Answer. Creation and preservation of high quality U.S. jobs is a 
key priority for the Administration. NIST does its part by enabling job 
creation through the development and dissemination of its products and 
services such as new measurement technologies, improving existing 
measurements, supporting manufacturing and innovation related programs, 
cyber security awareness, education and practices, etc. These products 
and services underpin numerous industries such as manufacturing, 
healthcare, automotive, financial services, etc. NIST developed 
technologies and services enable manufacturers to improve their 
products, processes and efficiency thereby making their companies more 
competitive.
    The effort to design, develop, and implement a ``smart'' electrical 
grid is one such example. One estimate by the GridWise Alliance, a 
Smart Grid industry group, anticipates up to 280,000 new jobs (http://
gigaom.com/cleantech/smart-grid-could-create-280000-smart-jobs/) 
related to the realization of a Smart Grid. Next generation photo-
voltaic panels are another example of where NIST's foundational efforts 
can lead to significant job growth in a high tech sector. The advanced 
photo-voltaic industry already counts 93,000 solar-panel related 
positions in the U.S. (http://www.pv-magazine.com/news/details/beitrag/
solar-jobs-in-the-us-on-the-rise_10000
1376/). Further technological advancements are anticipated to grow that 
number.

    Question 3. How do you measure the impact Federal R&D funding has 
on job creation?
    Answer. Measuring the impact of Federal R&D funding on job creation 
is a complex problem that NIST cannot address on its own. However, as 
the President has stated, we need to ensure that the Nation out-
innovates, out-educates, and out-builds the rest of the world in the 
years ahead.
    NIST participates in the Science and Technology for America's 
Reinvestment: Measuring the Effect of Research on Innovation, 
Competitiveness and Science (STAR METRICS) project, a multi-agency 
project led by the National Institutes of Health, the National Science 
Foundation (NSF) and the White House Office of Science and Technology 
Policy, in partnership with research institutions. STAR METRICS is 
developing a common framework that can be used to assess the impact of 
Federal R&D investments including number of jobs created through 
Federal R&D funding.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                          to Dr. Subra Suresh
Forensics
    Question. One R&D subject requiring significant improvement is the 
field of forensic science. As I'm sure you know, the National Research 
Council studied the forensic science system in the United States and 
found scientific deficiencies as described in their February 2009 
report, ``Strengthening Forensic Science in the United States: A Path 
Forward.'' That report indicated, ``Research is needed to address 
issues of accuracy, reliability, and validity in the forensic science 
disciplines.'' Does NSF have any current grant programs that would 
address this need? If yes, how many awards have been made over the past 
year in these areas of research? How could these programs be expanded 
to more specifically target this need? If no, how could NSF address 
this recommendation? This report also commented that ``to correct some 
of the existing deficiencies, it is crucially important to improve 
undergraduate and graduate forensic science programs.'' How could NSF 
improve the education and training in forensic science?
    Answer. NSF does not have a specific program focused on forensic 
sciences. However, the Foundation supports basic scientific research in 
dozens of scientific fields, and some of this research is useful in 
forensic settings. In FY 2010, it is estimated that 85 awards, for a 
total of $22.5 million, were made for programs relevant to forensic 
research.
    NSF recommends that to address the issues mentioned, practitioners 
and basic scientists should be brought together to look at areas of 
mutual interest. Improvements could be made in areas such as how basic 
scientists could better communicate results to practitioners, how 
practitioners could better communicate needs to basic scientists, how 
to develop collaborations, or how to assess the quality of a piece of 
scientific research. In addition, workshops, advanced training 
partnerships, or research coordination networks might be useful to 
focus on areas of specific interest to both groups, such as neural 
aspects of pattern matching. These interactions would also be essential 
to improving education and training in the forensic sciences.
EPSCoR
    Question. The EPSCoR Interagency Coordinating Committee was 
established in FY 1993 to coordinate Federal EPSCoR and EPSCoR-like 
programs to maximize the program's impact and minimize duplication in 
states receiving EPSCoR support from more than one agency. NSF chairs 
the committee. This coordination mandate was expanded in the 2010 
America COMPETES Reauthorization. The committee is designed to ensure 
the EPSCoR programs are effectively addressing their missions, and we 
would like to be kept informed of its activities. Please provide 
specifics on how often this committee meets, what agencies have 
attended, and what business has been conducted. What could be done to 
improve the effectiveness of the coordination mandate?
    Answer. The EPSCoR Interagency Coordinating Committee (EICC) meets 
annually. Recurrent agenda topics include eligibility criteria by 
agency, current priorities, budget, key program thrusts, and 
synergistic partnerships for investment, evaluation, and communication. 
In addition to these meetings, EICC members are invited to participate 
in NSF EPSCoR national conferences and annual project directors and 
project administrators meetings; committee members and agency 
representatives routinely participate in these meetings.
    Five agencies currently fund EPSCoR or EPSCoR-like programs: the 
Department of Energy, the National Institutes of Health, the National 
Aeronautics and Space Administration, the U.S. Department of 
Agriculture, and the National Science Foundation.
    The last meeting of EICC took place on May 9, 2011 and the 
discussions focused on the EPSCoR specific items in Section 517 of 
Public Law 111-358, the America COMPETES Reauthorization Act of 2010. 
The next meeting is targeted for mid-August, 2011 and will also focus 
on of the issues listed in this Act and action plans expected to 
improve effectiveness of cross-agency coordination.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                            Dr. Subra Suresh
Research Funding Activities
    Question 1. Basic research is the foundation of our economy; 
however, basic R&D only creates jobs when innovations are 
commercialized. What actions is NSF taking to facilitate technology 
transfer and commercialization? Please provide specific examples of 
agency efforts in this regard.
    Answer. Although NSF awards to individual investigators frequently 
result in innovations that are commercialized, we recognize that the 
road from discovery to commercialization is challenging. Several types 
of NSF awards provide opportunities to speed technology transfer and 
commercialization. For example, many of NSF's Centers programs require 
a plan for knowledge transfer and encourage partnerships with industry. 
Centers programs that encourage partnerships with industry include the 
Science and Technology Centers (STC) program, the Engineering Research 
Centers (ERC) program, and the Centers for Chemical Innovation (CCI). A 
recent American Association for the Advancement of Science (AAAS) 
review of the Science and Technology Centers program found that a 
majority of the STCs served as a springboard for start-up companies.
    Centers also provide a rich student training environment that 
encourages innovation. Many of the students involved in center research 
activities obtain jobs working for industry partners. The National 
Center for Innovation Education program (a collaborative effort of the 
Engineering Directorate and the Directorate for Education and Human 
Resources) funds a comprehensive and coordinated set of activities to 
address the challenge of educating engineers to be innovators.
    In addition to the integration of knowledge transfer into these 
programs from across the foundation, there are also specific targeted 
programs that facilitate technology transfer and commercialization. The 
Division of Industrial Innovation and Partnerships (IIP), within the 
Directorate for Engineering, has several programs that support these 
goals: the Small Business Innovation Research (SBIR) program, the Small 
Business Technology Transfer (STTR) program, the Partnerships for 
Innovation (PFI) program, the Industry/University Cooperative Research 
Centers (I/UCRC) program, and the Grants Opportunities for Academic 
Liaison with Industry (GOALI) program.

    Question 2. There has been discussion that NSF should implement 
blind proposal review to avoid institutional bias in grant awards. 
Please provide NSF's views on blind proposal review. How is NSF 
encouraging fair competition among all colleges and universities in the 
review of research proposals?
    Answer. Program officers at the National Science Foundation come 
from a broad range of colleges and universities and understand that 
high-quality research is conducted at both small and large 
institutions. Program officers also recruit reviewers and panelists 
from diverse types of institutions. Thus, a broad range of perspectives 
are brought to bear throughout the review process. Program officers 
also receive training on the importance of building a robust portfolio, 
which includes funding diverse types of institutions as one element. 
One of the examples of representative activities provided in NSF's 
guidance on broader impacts is the involvement of faculty and students 
at community colleges, colleges for women, undergraduate institutions, 
and EPSCoR institutions. NSF considers the ability to recognize these 
broader impacts related to institutional type to be extremely 
important. If proposal review were blind to the identity of the 
institution we would lose our ability to recognize these important 
characteristics. Another important disadvantage to blind review is that 
it would limit our ability to evaluate information about the 
availability of specific facilities necessary to conduct the proposed 
research.

    Question 3. What is NSF doing to raise awareness of its programs 
among all colleges and universities, including community colleges?
    Answer. The National Science Foundation regularly makes outreach 
presentations to diverse institutions across the country in an effort 
to help increase their awareness and participation in NSF programs. 
Program Officers conduct outreach when visiting academic institutions 
(including community colleges) or participating in scientific meetings. 
NSF hosts informational booths at scientific meetings such as the 
annual meeting of the AAAS. In 2010, two Regional Grants Conferences 
were organized by the Office of Budget, Finance, and Award Management, 
and hosted by Jackson State University and Case Western Reserve 
University. The Office of Legislative and Public Affairs also organizes 
``NSF Days'' held at various locations throughout the country. In 2010, 
the foundation hosted ``NSF Days'' in Arizona, California, Florida, 
Georgia, Idaho, Iowa, Missouri, Ohio, and Tennessee. Representatives 
from most of NSF's directorates and offices attended each of these 
conferences.
    An NSF Day hosted by a research or masters level institution 
includes presentations on NSF's history, proposal and merit review 
process, Foundation-wide programs, and international programs. Breakout 
sessions are held by directorate and on proposal preparation. These 
provide excellent networking opportunities and allow informal 
conversations with NSF program officers. NSF Days at community colleges 
are focused on programs of interest to two-year institutions. In 
addition to a general introduction to NSF, workshops include 
presentations on the Advanced Technological Education (ATE) program and 
other programs in the Division of Undergraduate Education. 
Additionally, there is a proposal presentation and usually a panel of 
local principal investigators who have previously won NSF awards 
talking about their experiences.
    NSF began conducting Community College NSF Days in 2003. A total of 
seven events have taken place, all at the invitation of the community 
colleges themselves. Examples from 2010 include a workshop at Rio Hondo 
Community College in Whittier, California, where 75 people from 22 
different institutions participated, and a workshop at Clark College in 
Vancouver, Washington, where 33 people attended from 7 community 
colleges in Oregon and Washington. In addition, NSF has held 67 regular 
NSF Day events, which included attendees from community colleges. In 
total, over 730 community colleges representatives have attended either 
Community College NSF Days or NSF Days.
    Outreach workshops are sponsored by individual directorates, as 
well as EPSCoR, the Small Business Innovation Research (SBIR) program, 
and other NSF-wide programs. The ATE program regularly sponsors a 
workshop for the Council for Resource Development (CRD) which includes 
grants officers from community colleges. NSF outreach to scientists and 
engineers from underrepresented groups includes efforts such as 
workshops for tribal colleges and minority-serving institutions, 
including historically black colleges and universities.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                            Dr. Subra Suresh
Wireless Technologies
    Question 1. In its March 2010 National Broadband Plan, the Federal 
Communications Commission (FCC) recommended that NSF should fund a 
``wireless testbed for promoting the science underlying spectrum 
policymaking.'' As stated in the FCC's plan, ``Wireless testbeds can 
permit empirical assessment of radio systems and the complex 
interactions of spectrum users, which are nearly impossible to assess 
through simulation or analytical methods. As a result, they can reveal 
a great deal about how sharing can best be facilitated, how spectrum 
rights might be established, and the impact of dynamic spectrum access 
radios on existing and future communications services.'' The 
President's FY12 budget request for the NSF includes a plan to invest a 
large portion of the receipts from spectrum auctions in targeted 
research and experimental wireless technologies that expect to improve 
spectrum efficiency. Of the $150 million investment from the new 
Wireless Innovation (WIN) Fund proposed for FY12, how much would be 
made available for wireless technology testbeds, including those 
recommended by the FCC?
    Answer. $65 million is proposed for developing wireless technology 
testbed research and experimentation in FY12.

    Question 2. How would these testbed funds be made available to 
small business entrepreneurs to test their innovative, spectrum 
efficient wireless technologies?
    Answer. NSF provides grants to small businesses through its Small 
Business Innovation Research & Small Business Technology Transfer 
programs, as well as through many of its core programs in all the 
science and engineering directorates. If WIN funding becomes available 
to NSF, competitions will be organized to specifically target small 
business entrepreneurs who are interested in trying out their new ideas 
on the wireless testbed.
    NSF is piloting the use of prizes through Challenge.gov in an 
effort to go beyond NSF's traditional grantee pool and to reach out to 
small businesses and entrepreneurs. Two competitions are under 
development with prizes to be given during the course of the next year.
    More generally, a suite of wireless testbeds will be made available 
for pre-commercial, open use by small business entrepreneurs across the 
country.

    Question 3. How would these testbed funds potentially be combined 
with additional amounts from the WIN Fund to be distributed to other 
agencies such as the Defense Advanced Research Projects Agency (DARPA) 
and the National Institute for Standards and Technology (NIST)?
    Answer. The Director of the National Science Foundation will 
consult with the Secretary of Defense, the Secretary of Commerce, the 
Secretary of Energy, and the Attorney General in carrying out the 
wireless testbed research and experimentation.
    NSF plans to sponsor workshops with these mission agencies to 
explore areas of mutual research interest and to foster collaboration. 
As these agencies carry out the research and exploratory development of 
wireless applications and services related to their missions, the 
wireless testbed will be made available for testing their new ideas.
    In addition, NSF co-chairs (with the National Telecommunications 
and Information Administration) the Wireless Spectrum R&D (WSRD) Senior 
Steering Group of the National Information Technology R&D (NITRD) 
program. Through WSRD, NSF consults and collaborates on a regular basis 
with all Federal agencies that have active interests in wireless R&D, 
including testbeds. WSRD is presently conducting an inventory of all 
Federal testbed activities, and we expect that WSRD will play a key 
role in coordinating Federal testbeds going forward.

    Question 4. What would be the necessary steps for NSF to coordinate 
with the National Telecommunications and Information Administration 
(NTIA) to use portion of these testbed funds to support NTIA's existing 
``Spectrum Sharing Innovation Testbed'' program?
    Answer. The Institute for Telecommunications Sciences (ITS), the 
research and engineering laboratory of the NTIA, in Boulder, CO has 
very specific goals. It uses a spectrum sensor van to carry out 
spectrum surveys or measurements of the radio spectrum and analysis of 
spectrum interference, which feed back into improved Federal management 
of the spectrum. Their experiences will be invaluable to NSF as it 
moves forward with the development of its national-scale wireless 
testbed. NSF plans to work with ITS in at least two different ways: 1) 
to foster investments in the tools and techniques used to carry out 
spectrum measurement; and 2) to foster investments in new models of 
propagation and detection. NSF would take these steps early on to 
ensure that ITS becomes a true partner in these endeavors.

    Question 5. What steps have been taken to coordinate these NSF 
initiatives with the FCC?
    Answer. NSF has worked closely with several of the authors of the 
FCC Broadband Plan in the development of its testbed plans. The FCC is 
represented on the NITRD WSRD Senior Steering Group, through which 
coordination on testbed activities is being facilitated. In August 
2010, NSF held a spectrum-focused workshop (the EARS workshop) that 
included presentations by FCC Commissioner Meredith Atwell-Baker and 
Commerce Secretary Gary Locke, which helped set the stage for close 
collaboration among the regulatory agencies and NSF. NSF is also in 
routine contact with the FCC Chief Technology Officer, Dr. Doug Sicker, 
and he recently participated in an early review of the next stage of 
development in the wireless testbed at NSF.

    Question 6. In what other ways could NSF ensure a more rapid return 
on these proposed innovation investments from the new WIN fund?
    Answer. NSF has a long history of investing in networking testbeds 
at university campuses across the United States. NSF is currently 
funding the federation of these testbeds to provide interoperability 
and to increase accessibility. Testbed resources (e.g., sensor and bus 
networks, cloud computing) that were previously available only to local 
researchers will now be available more broadly across the country via 
the new wireless testbed.
    NSF's testbed activities to date have focused on networking 
technologies, which are a very important part of many wireless 
technologies. At this point, cognitive radios are part of the testbed 
as well as data obtained from some radars and remote sensing devices. 
There are other wireless devices and services, such as, radio and 
television broadcasts, navigation beacons, point-to-point links, many 
unlicensed devices (including white space devices and ultrawideband 
systems), and related applications that need to be included, and that 
operate outside of network models. With WIN funds, NSF would be able to 
expand its investments to include a wider variety of wireless testbed 
capabilities. Their use would speed the time-to-market of new concepts 
and new technologies that can make more efficient and more innovative 
use of the radio spectrum, or that expand access to the radio spectrum 
to traditionally underserved populations and areas.
    In developing the wireless testbed, NSF will deploy a spiral 
development methodology that over a short period of time will increase 
the scale, novelty, and types of technologies that are deployed in a 
comprehensive national-scale wireless testbed.
    A series of workshops and prize competitions are already being 
planned; which will allow NSF several ways to reach beyond the 
principal investigator research community to the entrepreneurs and 
small businesses that normally do not submit proposals to NSF. First, 
it will facilitate the development of partnerships across academia, 
industry, and government. Second, it will enable NSF and others to 
showcase and broadly advertise the types of new ideas developed through 
these competitions and demonstrate what might be possible with 
innovative new wireless technologies. Third, it will allow for more 
rapid technology transfer from prototype, to testbed, to business 
models; especially for wireless gigabit applications and services in 
areas of national interest, including health, education, 
transportation, energy, and advanced manufacturing.
University-Industry Partnerships
    Question 1. A recommendation from the 2008 study called Encouraging 
Industry-University Partnerships: Report from the Engineering Advisory 
Committee, Subcommittee on Industry-University Partnerships was as 
follows, ``The Engineering Advisory Committee's Subcommittee on 
Industry-University Partnerships (EAC-UIP) was convened in the Spring 
of 2007. The group first conducted a workshop to study the landscape of 
partnership programs at NSF (plus DARPA and NASA) and identify best 
practices. This was followed by an analysis of NSF's current portfolio 
of partnership programs, which examined funding levels, the relative 
roles of small and large industry, and where partnerships fit along the 
``innovation supply chain'' (discovery-to-commercialization process). 
We also reviewed the National Science Board's decision to discontinue 
industry cost-sharing as part of a larger moratorium on cost-sharing, 
and submitted a recommendation to them that industry investment be 
reinstated by the Foundation.
    All members of the Subcommittee believe that industry investment in 
NSF-funded research is of long-term strategic importance and should be 
encouraged. Requiring or endorsing industry contributions helps 
incentivize academics to form partnerships outside the academic 
environment. It also sends an important message to the public about the 
project's relevance--and that industry and government are both vested 
in R&D.
    Our discussions identified several issues that make university-
industry partnerships challenging. From these, the Subcommittee 
formulated the following recommendations to the Engineering Director:

        1. Expand existing partnership programs so as to better fill 
        the university-industry landscape.

        2. Pilot new partnering programs that address the remaining 
        gaps in the university industry landscape.

        3. Expand mechanisms to motivate/reward industry financial 
        investment in NSF sponsored projects, by extending matching-
        funds supplements to other ENG programs.

        4. Continue participating on the National Academies' UIDP, and 
        do whatever possible to expedite the release of software to 
        assist in negotiating partnership IP.

        5. Take a more proactive role in making companies more aware of 
        the benefits of investing and participating in NSF-sponsored 
        research projects.

        6. Mount an awareness campaign with the goal of helping 
        companies understand NSF's partnership programs.

        7. Take a proactive role in making faculty aware of the 
        benefits of seeking and participating in partnerships with 
        industry.

        8. Mount an awareness campaign with the goal of helping 
        university administrators and faculty understand NSF's 
        partnership programs.

        9. Champion, within NSF, the need to offer many different types 
        of university-industry partnership mechanisms--and encourage 
        the broader adoption of partnership mechanisms so that they are 
        available to a much wider cross-section of faculty researchers.

        10. Continue monitoring the progress of all university-industry 
        partnership mechanisms, Foundation-wide, and periodically re-
        assess them to ensure that the number and type of opportunities 
        meet the diverse needs of academic and industry constituencies.

    Question A. How many of these recommendations have been implemented 
at NSF?

    Question B. Which recommendations have not and what are the reasons 
why not?

    Question C. Based on these recommendations, what is NSF doing to 
increase funding for these types of partnership programs?
    Answer. In order to answer this question, we have chosen to address 
each of the individual recommendations separately and then provide 
specific answers to a, b, and d at the end. In addition to the specific 
details below, it is important to note that the Engineering Directorate 
has made these recommendations a focus of directorate presentations to 
professional societies, universities, etc., to emphasize the portfolio 
of partnerships with industry we support, and the role of translational 
research in our investments.
    Recommendation 1: Expand existing partnerships programs so as to 
better fill the university-industry landscape.

  <bullet> The Industry/University Cooperative Research Centers (I/
        UCRC) program's Fundamental Research Program (FRP) funds 
        centers to embark into new areas of discovery ripe for 
        exploration and innovation. The I/UCRC has modified the FRP to 
        require industry inspired proposals, thus building upon and 
        expanding the existing partnerships of the center.

  <bullet> The I/UCRC program has extended its membership duration from 
        a maximum of 10 to 15 years (Phase III) with decreased NSF 
        funding in the third phase. This allows for continued building 
        of partnerships on the NSF brand.

  <bullet> Small Business Innovation Research (SBIR) firms are joining 
        the I/UCRC and increasing small business memberships in the 
        center Industry Advisory Boards (IABs).

    Recommendation 2: Pilot new partnering programs that address the 
remaining gaps in the university-industry landscape.

  <bullet> Both the Translational Research in the Academic Community 
        (TRAC) and Accelerating Innovation Research (AIR) programs seek 
        to leverage existing partnerships to advance innovative 
        capacity. I/UCRCs have had the highest response among center 
        programs to the AIR Program Solicitation.

  <bullet> The Partnerships for Innovation (PFI) program's ultimate 
        goal is to enable business partners to grow and radically 
        change how businesses are doing what they do and thereby 
        contribute to U.S. competitiveness.

    Recommendation 3: Expand mechanisms to motivate/reward industry 
financial investment in NSF sponsored projects, by extending matching-
funds supplements to other ENG programs.

  <bullet> The concept of extending matching funds is prohibited by 
        current National Science Board policy. The I/UCRC and ERC 
        programs are the only partnership programs eligible for 
        matching funds.

  <bullet> The I/UCRC program contains a component entitled Cooperative 
        Opportunities for Research between I/UCRCs (CORBI) where 
        industry members of two separate centers allocate money to fund 
        collaborative research between the centers. NSF matches the 
        amount committed by both centers' Industrial Advisory Boards 
        (up to $50,000 for each center pair collaborating).

    Recommendation 4: Continue participating on the National Academies' 
UIDP, and do whatever possible to expedite the release of software to 
assist in negotiating IP.

  <bullet> NSF is continuing to support the UIDP effort and has 
        provided focused support through various program initiatives 
        within ENG's Industrial Innovation and Partnerships (IIP) 
        division.

  <bullet> NSF is actively participating with UIDP's release of their 
        ``TurboNegotiator'' software and assisting in organizing 
        negotiating workshops on selected technology areas using 
        `TurboNegotiator' as a tool.

    Recommendation 5: Take a more proactive role in making companies 
more aware of the benefits of investing and participating in NSF-
sponsored research projects.

  <bullet> NSF program directors play a significant active role in 
        marketing I/UCRC concepts to member companies at planning grant 
        meetings for the formation of new centers and IAB meetings for 
        existing centers. Program directors also have discussions with 
        companies off-line.

  <bullet> NSF personnel have created awareness within 30 industries 
        during UIDP annual meeting presentations.

  <bullet> IIP has joined the Industrial Research Institute (IRI), 
        composed of approximately 200 Fortune 500 companies, and 
        participated in their External Technology and Innovation 
        Leadership networks.

  <bullet> NSF has presented at both American Society of Mechanical 
        Engineers (ASME) and Council for Chemical Research (CCR) 
        meetings.

    Recommendation 6: Mount an awareness campaign with the goal of 
helping companies understand NSF's partnership programs.

  <bullet> This is a current practice with SBIR companies through such 
        activities as the I/UCRC membership supplemental Dear Colleague 
        Letter. IIP personnel also routinely talk to various large 
        companies and other agencies at various I/UCRC meetings.

  <bullet> The responses to recommendation #5 also addresses this 
        recommendation.

    Recommendation 7: Take a proactive role in making faculty aware of 
the benefits of seeking and participating in partnerships with 
industry.

  <bullet> This is an on-going effort with all potential faculty and 
        faculty within existing centers.

  <bullet> The new PFI solicitation requires collaboration with two or 
        more small businesses. The generous lead time, use of Letters 
        of Intent (LOI), and program director's interactions with 
        potential principal investigators (PIs) represent aggressive 
        attempts to promote partnerships.

  <bullet> NSF personnel participate in approximately eight ``NSF 
        Days'' annually across the country.

    Recommendation 8: Mount an awareness campaign with the goal of 
helping university administrators and faculty understand NSF's 
partnership programs.

  <bullet> The I/UCRC program has not separately mounted an awareness 
        campaign for university administrators; however, the I/UCRC 
        program staff takes every opportunity to discuss the Center 
        model with university tech transfer offices and others.

  <bullet> The PFI program requires the participation of a senior 
        university administrator by requiring them to lead the research 
        effort.

  <bullet> Several senior administrators were made aware of the PFI 
        solicitation and served on PFI review panels.

  <bullet> NSF personnel presented partnership program information at 
        the American Society for Engineering Education (ASEE) annual 
        conference and conducted a UIDP webinar. IIP personnel 
        participated in UIDP panels.

    Recommendation 9: Champion, within NSF, the need to offer many 
different types of university-industry partnership mechanisms--and 
encourage the broader adoption of partnership mechanisms so they are 
available to a much wider cross-section of faculty researchers.

  <bullet> The new/recent AIR, TRAC, and i6 Challenge solicitations are 
        good examples of the different types of university-industry 
        partnership mechanisms and their availability to a larger pool 
        of researchers.

  <bullet> The NSF Director has articulated partnership mechanisms in 
        his recent FY 2012 budget press conference and in other venues.

    Recommendation 10: Continue monitoring the progress of all 
university-industry partnership mechanisms, Foundation-wide, and 
periodically re-assess them to ensure that the number and type of 
opportunities meet the diverse needs of academic and industry 
constituencies.

  <bullet> The I/UCRC program has made evaluation a cornerstone of the 
        program since its inception over 30 years ago. Each center has 
        an appointed evaluator that provides information to the I/UCRC 
        Program on the center structure and operations. Data is 
        aggregated on an annual basis for use in case studies and 
        longitudinal studies of center impact and program 
        effectiveness.

  <bullet> NSF is looking to develop mechanisms for measurement through 
        STAR METRICS and the Data Information Management System (DIMS) 
        that are ongoing approaches.

    Question A. How many of these recommendations have been implemented 
at NSF?
    Answer. NSF has implemented 9 out of 10 recommendations.

    Question B. Which recommendations have not and what are the reasons 
why not?
    Answer. Implementing recommendation #3 would require a change in 
NSF policy.

    Question C. Based on these recommendations, what is NSF doing to 
increase funding for these types of partnership programs?
    Answer. The NSF FY 2012 Budget Request includes a total $19.50 
million for Accelerating Innovation Research (AIR). These funds will 
expand on the AIR 2011 launch and will build stronger university 
industry collaboration by engaging industry in defining high risk 
fundamental research that has the potential to overcome scientific/
engineering barriers to innovation and thus impact on its innovation 
readiness for third party investment.
                                 ______
                                 
Response to Written Question Submitted by Hon. Kay Bailey Hutchison to 
                            Dr. Subra Suresh
STEM Education
    Question. During the reauthorization of the America COMPETES Act, 
the Senate Commerce, Science and Transportation Committee created a 
STEM-Training grant program at the National Science Foundation. As you 
know, this program is designed to increase the number of qualified STEM 
teachers in America's classrooms and was a recommendation in the 
Gathering Storm report and its many follow-up reports.
    Could you please provide the Committee with a timeline for 
implementation of this program? Specifically, what role does the NSF 
intend to have in implementing this STEM-Training grant program? How 
soon will the NSF begin funding the programs first class of STEM 
teachers in training?
    Answer. The NSF has a long-standing history of investing in the 
improvement of STEM teacher preparation and continuing professional 
development, and is committed to the President's goal of preparing 
100,000 STEM teachers. The FY 2012 Budget Request includes Teacher 
Learning for the Future (TLF) within the Directorate for Education and 
Human Resources. TLF is focused on building understanding, through 
research and demonstration, about what it takes to prepare truly great 
STEM teachers. NSF's Office of Integrative Activities, in conjunction 
with the Directorate for Education and Human Resources, will convene a 
stakeholders' workshop early in FY 2012 to focus on best practices in 
STEM teacher preparation. In preparation for the workshop, NSF will 
engage in planning and mapping of current programs concerned with 
teacher preparation (including the Noyce Scholars program, the Math and 
Science Partnership Program, and the proposed TLF program). These 
programs already incorporate key elements of teacher preparation 
programs that have demonstrated success in terms of pupil learning, 
including attention to replication of effective programs, and could be 
expanded or reconfigured to address new expectations.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                            Dr. Subra Suresh
Budget Priorities and Performance
    Question 1. I recognize the contributions NSF, NIST, and NASA have 
made to society and American innovation, but we are in dire economic 
times. Non-defense discretionary outlays grew 5.6 percent over the last 
decade. The continued deficits of our Federal Government are not 
sustainable and our country's growing debt is a threat to national 
security. With our current fiscal condition in mind, can you tell me 
how many jobs your budget proposal will create for Americans?
    Answer. It is not possible to provide accurate and reliable, 
prospective estimates for the number of jobs that will be created by 
investing in basic research, or for the proportion of created jobs 
which will go to American citizens. The Science and Technology for 
America's Reinvestment: Measuring the Effect of Research on Innovation, 
Competitiveness and Science (STAR METRICS) collaboration project, 
currently in Phase I, will measure the impact of science spending on 
job creation in the academic sector.

    Question 2. Is the creation of jobs a top priority for funding R&D 
at your respective agency?
    Answer. Stimulating long-term economic growth and job creation is a 
long-standing priority for NSF. As the only Federal agency specifically 
dedicated to the support of basic research and education across all 
fields of science and engineering, NSF connects forefront science and 
engineering with potential economic, societal, and educational benefit. 
NSF's high-risk, potentially transformative investments enable 
important discoveries and cutting-edge technologies that help to keep 
the Nation globally competitive, prosperous, and secure.

    Question 3. How do you measure the impact Federal R&D funding has 
on job creation?
    Answer. NSF co-leads the STAR METRICS collaboration. STAR METRICS 
is a Federal and research institution collaboration to create a 
repository of data and tools that will be useful to assess the impact 
of Federal R&D investments. In the project's first phase, it is 
developing uniform, auditable and standardized measures of the impact 
of science spending (ARRA and non-ARRA) on job creation, using up-to-
date data from research institutions' existing database records.
Clean Energy
    Question. NSF has requested a 13 percent increase in overall 
funding compared to 2010 enacted levels. Within this request is a 
substantial increase for programs related to climate change--including 
$576 million for Clean Energy Investments. The Department of Energy's 
Office of Science also supports areas of basic energy science, climate 
change, and science education. To what degree do increases for research 
related to clean energy by NSF overlap or duplicate the efforts by the 
Department of Energy's Office of Science?
    Answer. In FY 2012, NSF will continue to strengthen its long-
standing investments in basic clean energy related research. In FY 
2010, the clean energy portfolio was $324 million, which grows to $576 
million in the FY 2012 request. The portfolio is quite diverse, 
including research related to fuel cells, biofuels, solar and wind 
power, process efficiencies for vehicles and electrical transmission, 
and many other topics. Research is supported in nearly all NSF 
directorates and offices through both existing core programs and in the 
newer investment areas, such as Science, Engineering and Education for 
Sustainability (SEES) and Research at the Interface of the Biological, 
Mathematical and Physical Sciences and Engineering (BioMaPS).
    Avoiding overlap of effort across agencies is important to NSF. In 
order to leverage, not duplicate, Federal investments, the Foundation's 
activities in the energy arena are developed in consultation with the 
Department of Energy (DOE), the National Oceanic and Atmospheric 
Administration (NOAA), the U.S. Geological Survey (USGS), the U.S. 
Department of Agriculture (USDA), and other Federal agencies. NSF 
provides research support to the academic community and focuses on 
early stage to pre-competitive programs that complement DOE's 
activities. An example of this synergy is the Foundational Program to 
Advance Cell Efficiency (F-PACE), which is a DOE/NSF joint program in 
photovoltaics. DOE picks up support for clean energy research at the 
pre-competitive through commercialization stage. Other existing NSF 
programs focusing on innovation (such as Engineering Research Centers, 
the Industry-University Cooperative Research Centers Program, the 
Accelerating Innovation Research program, and supplements for 
Translational Research in the Academic Community) are excellent 
examples of programs where NSF's strength at the most basic end of the 
innovation and education chain benefits and could increasingly benefit 
both agencies in meeting national needs for energy security. There are 
many examples where NSF-DOE complementarity has benefited discovery and 
innovation, for example, current leaders of a number of DOE energy 
research centers got their start with NSF Research Initiation Awards 
and/or CAREER awards.
    In expanding research related to clean energy, NSF will make unique 
contributions to the pursuit of energy efficiency and new energy 
sources. NSF's mission to pursue fundamental basic research makes us 
ideally situated to investigate important questions outside the 
interests of other agencies. Further, in FY 2012, NSF has proposed 
increased funding for an approach to clean energy using a ``pathways'' 
approach that integrates research on topics that range from resource 
characterization, to the technology needed to develop and efficiently 
utilize a resource, to the social and environmental impact of 
widespread adoption of that energy source. The span of NSF's interests 
in natural and social sciences, engineering, and science education 
differentiates us from other agencies and enables us to take on such a 
complex topic in such a comprehensive manner. It also enables NSF to 
target resources at educating graduate, postdoctoral, and early career 
scientists who will be able to use interdisciplinary knowledge and 
skills to address a critical scientific and societal challenge and 
collaborate adeptly with private and public partners.
EPSCoR
    Question. Funding for the Experimental Program to Stimulate 
Competitive Research (EPSCoR) has received a modest increase in NSF's 
FY2012 budget request. This is a long-standing, successful program that 
helps institutions from smaller states, such as Mississippi, compete 
for merit-based research funding. Can you explain the reasoning for 
your request for substantial increases in climate change funding while 
successful programs such as EPSCoR only receive modest support?
    Answer. The FY 2012 Request for EPSCoR funding is consistent with 
the NSF growth trend for the Research and Related Activities account 
for FY 2009 through FY 2012.
    Climate change and its associated impacts on energy, environment, 
and water are important to many EPSCoR jurisdictions. One objective of 
the EPSCoR program is to catalyze fuller participation of EPSCoR 
researchers in all of the Foundation's activities. EPSCoR jurisdictions 
are also eligible to submit proposals to the Foundation's climate 
change programs.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                          Dr. Waleed Abdalati
    Question 1. Basic research is the foundation of our economy; 
however, basic R&D only creates jobs when innovations are 
commercialized. What actions is NASA taking to facilitate technology 
transfer and commercialization? Please provide specific examples of 
agency efforts in this regard.
    Answer. Since its inception, NASA has worked to find ways to 
facilitate the transfer of its cutting-edge technologies to the public 
sector. NASA has a long and successful history of transferring its 
technology for public good, with long-standing efforts involving NASA's 
field centers dedicated to patenting and licensing new technology.
    NASA's Small Business Innovation Research (SBIR) and Small Business 
Technology Transfer (STIR) programs tap the innovative potential of 
hundreds of small businesses around the country; the products of those 
efforts serve specific NASA mission needs as well as those of customers 
in the private sector and other government agencies. The SBIR and STIR 
programs are the foundation ofNASA's investment in early stage 
technology development, and often serve as technology pathfinders for 
larger efforts that are adopted by prime contractors and the NASA 
centers.
    In addition, NASA has developed a program to foster the release of 
NASA software for a wide range of applications; and also uses Space Act 
Agreements for many ofNASA's innovative partnerships. In terms of 
volume, NASA executed over 1,000 new collaborative R&D relationships in 
2010 and has over 4,000 that are currently active. These numbers 
reflect a close alliance between R&D development at NASA's field 
centers and the commitment by the field center technology transfer 
professionals to foster application of that technology for commercial 
development and other objectives.
    Many NASA technologies are transferred to existing companies, or to 
new companies that are created to take advantage of NASA's inventions. 
These inventions and technologies provide more than just an economic 
benefit: many of them improve the environment, make us healthier and 
safer, and improve our quality of life.
    Several recent examples of successful NASA technology transfer are 
highlighted below and represent a fraction of the wide range of 
technology transfer efforts undertaken at the NASA field centers.

  <bullet> A ground-based inflatable antenna based on a design 
        developed for space communication is now providing high-
        bandwidth communication in remote areas and after emergencies 
        such as the 2010 earthquake in Haiti.

  <bullet> A technique for strengthening metal engine components that 
        undergo extreme heat and stress is being applied to completely 
        eliminate a common failure in modular hip implants.

  <bullet> Light sensors invented by NASA researchers provide imaging 
        capabilities for digital cameras, web cameras, automotive 
        cameras, and one of every two cell phone cameras on the planet.

  <bullet> NASA funding supported the development of a whole aircraft 
        parachute system that is now standard equipment on many of the 
        world's top-selling general aviation aircraft and is credited 
        with saving 246 lives to date.

  <bullet> Fuel cell technology originally devised for generating 
        oxygen and fuel for missions to Mars has been adapted to 
        generate clean energy on Earth, providing an environmentally 
        friendly, scalable power source for a host of Fortune 500 
        businesses.

  <bullet> Bacteria isolated for use in water-purifying technology for 
        the International Space Station is providing a safe, 
        environmentally sound method for oil spill cleanup and for 
        cleansing municipal and industrial wastewater.

    Each year NASA documents 40-50 of the top recent technology 
transfer successes such as the ones listed above, in its annual Spinoff 
publication (http://spinoff.nasa.gov). More than 1,700 of these top 
successes have been published in Spinoff and are documented online and 
available via a searchable database at this website.
    Feeding this pipeline of innovation are new technologies developed 
by NASA. In FY 2010, NASA documented the development of 1,647 new 
technologies through new technology reports (NTRs). NASA seeks to make 
these technologies available to industry, academia and other agencies 
for further development and application. Each month 40-50 recent NTRs 
are published in NASA TechBriefs, the largest circulation design 
engineering magazine in the country, reaching over a quarter of a 
million technologists in all industries. The monthly magazine features 
exclusive reports of innovations developed by NASA and its industry 
partners/contractors that can be applied to develop new and improved 
products and solve engineering or manufacturing problems. In addition 
to the print edition, TechBriefs is also available online at http://
www.techbriefs.com/.
    In addition to these longstanding technology transfer efforts, NASA 
is engaged in new and exciting ways to push its innovations out to the 
public.
    The Agency is an active participant in the Federal Laboratory 
Consortium, a national organization chartered by Congress to foster 
technology transfer from Federal laboratories to the private sector. 
NASA currently has several individuals serving on FLC planning 
committees, and NASA researchers have also played an active part 
presenting their technologies at various FLC forums and encouraging 
private sector collaboration/partnership development, such as a 
nanotechnology partnership forum held at the National Institute of 
Standards and Technology last September, and a recent forum at the 
College of William and Mary dedicated to energy technology 
partnerships, energy efficiency, and energy conservation.
    In addition to conducting research in support of future human 
missions into deep space, astronauts aboard the ISS will carry out 
experiments anticipated to have terrestrial applications in areas such 
as biotechnology, bioengineering, medicine, and therapeutic treatment 
as part of the National Laboratory function of the Station.In support 
of this effort, in February 2011, NASA released a Cooperative Agreement 
Notice (CAN) for an independent Non-Profit Organization to manage the 
multidisciplinary research carried out by NASA's National Laboratory 
partners. This organization will: (1) act as a single entry point for 
non-NASA users to interface efficiently with the ISS; (2) assist 
researchers in developing experiments, meeting safety and integration 
rules, and act as an ombudsman on behalf of researchers; (3) perform 
outreach to researchers and disseminate the results of ISS research 
activities; and (4) provide easily accessed communication materials 
with details about laboratory facilities, available research hardware, 
resource constraints, and more.
    NASA has also initiated several innovative approaches to licensing, 
such as one through collaboration between NASA's Goddard Space Flight 
Center and Ocean Tomo, to use live auctions as a means to broadcast a 
range of NASA technologies available for licensing. NASA also recently 
published a Request For Information (RFI) seeking ideas from industry 
for innovative ways to inform the public of available NASA licenses and 
for new ways to create these licenses.
    NASA is also actively engaged in several initiatives to bring NASA 
technology to areas traditionally not associated with the civilian 
space program. For example, a recent partnership with the Colorado 
Association for Manufacturing and Technology (CAMT) has resulted in the 
development of a regional economic cluster aimed at bringing NASA 
technology, high tech jobs, and small businesses together to focus on 
accelerating the process for bringing advanced aerospace and 
environmental technologies to market. NASA intends to look for 
additional regional opportunities and partners across the country to 
strengthen the U.S. economy by partnering technology developed for the 
space program with other industrial and research sectors, such as bio-
agriculture, robotics, and alternative energy.
    Additionally, NASA is constantly seeking new ways to use its 
technology for public benefit. Recent partnerships have NASA providing 
medical, engineering, and psychological support for the rescue of the 
trapped Chilean miners; providing space-based remote sensing as well as 
ground-based remediation technology for the oil spill cleanup in the 
Gulf Coast; and launching aerial support of wildfire management along 
the West coast. NASA-derived robots have even been deployed to analyze 
the damaged Fukushima nuclear reactor following the recent earthquake 
and tsunami in Japan.
    To help communicate to the public the linkage between NASA's 
research and technology and benefits from resulting commercialized 
products, NASA created a web feature called NASA @ Home and City which 
is available online at http://www.nasa.gov/city. This website makes it 
easy to see how space technology improves our everyday lives, from the 
bedroom, bathroom or kitchen to the hospital, grocery store, firehouse, 
or sports arena.
    NASA technologies make a difference in our lives every day. 
Knowledge provided by weather and navigational spacecraft, efficiency 
improvements in both ground and air transportation, super computers, 
solar- and wind-generated energy, the cameras found in many of today's 
cell phones, improved biomedical applications including advanced 
medical imaging and even more nutritious infant formula, as well as the 
protective gear that keeps our military, firefighters and police safe, 
have all benefited from our Nation's investments in aerospace 
technology. By investing in space and aeronautics technology, NASA will 
continue to make a difference in the world around us.

    Question 2. Your testimony indicated that your goal is to deliver 
the most valuable science for the taxpayer investment. How will you 
determine what the most valuable science is? What metrics are used to 
evaluate the performance of current investments?
    Answer. NASA science provides value in several ways that include, 
but are not limited to: (a) increasing basic knowledge, as we gain new 
insights into our ever changing universe, (b) inspiring future 
generations to pursue science and engineering professions through our 
performance of incredible technical and scientific feats such as 
sending rovers to explore the surface of Mars, and (c) directly 
improving the human condition, for example through critical insights 
into the behavior of our changing planet with continual and improving 
Earth observations.
    While the intrinsic value of these pursuits may be clear in a 
qualitative sense, ensuring that we deliver the most valuable science 
for the taxpayers' investments requires that we develop means of 
objectively assessing relative value of and returns on our investments. 
This is challenging, because in science, the importance of a theory, 
observation, or discovery may not be fully realized until long after 
its occurrence.
    Nonetheless, there are means by which we can increase the 
likelihood that our investments are of the greatest value, and at NASA 
we employ a number of such strategies. These include the following:

  <bullet> Widely advertising our funding opportunities

    By reaching as broad an audience as possible, we ensure the 
greatest likelihood of receiving the most creative ideas, and the 
highest quality proposals. We advertise funding opportunities through 
the NASA Solicitation and Proposal Integrated Review and Evaluation 
System (our online database of potential investigators) as well as 
through our website and other mechanisms.

  <bullet> Relying on competition and peer review for the vast majority 
        of our investments

    Except in a few instances that require results on very short time 
scales, or specific expertise that exists in-house, our research is 
selected through competition and rigorous peer-review. Even the few 
direct-funded activities are subject to peer review prior to award. By 
relying on this process, we ensure that the scientific investigations 
and the missions we support are of the highest quality as judged by 
experts in the relevant areas.

  <bullet> Relying on recommendations from the external scientific 
        community

    NASA has a long history of seeking advice from the National 
Research Council (NRC) to help us develop priorities for our 
investments. The most visible are our decadal surveys, which lay out 
science priorities and mission priorities which we at NASA work 
diligently to follow. By relying on these recommendations for our 
largest, multi-billion-dollar science investments, we ensure that we 
are investing our resources in the highest-priority science as 
indicated by the broader scientific community. This advice extends to 
establishing priorities for infrastructure investments and reviewing 
our strategic plans.

  <bullet> Seeking advice through our Federal Advisory Committees

    In addition to the NRC recommendations, we also rely on 
recommendations on scientific matters from the NASA Advisory Council 
and in particular its Science Committee, and discipline-specific 
subcommittees. These groups, comprised of scientific leaders who have a 
comprehensive understanding of NASA, provide advice on the execution 
ofNASA science programs. NASA carefully considers their advice and 
implements it according as commensurate with broader NASA and national 
objectives, availability of resources, and capabilities of the agency.

  <bullet> Reviewing annual progress reports of individual scientists. 
        and making funding renewal contingent on satisfactory progress

    Scientists are required to demonstrate measurable progress in their 
scientific investigations in order to continue to receive funding under 
multi-year grant proposals. These annual gates provide opportunities to 
terminate unproductive projects or to provide guidance on projects that 
are not fully living up to their promise.
    NASA also has established metrics for evaluating the returns from 
our science investments. We submit with our annual budget requests an 
Annual Performance Plan that outlines the annual performance goals we 
intend to achieve in science with the budget requested; at the end of 
each fiscal year we report our success in achieving those goals in our 
Performance and Accountability Report. The annual performance goals 
cover the breadth of NASA's science research, and we rely on the 
subcommittees of the NASA Advisory Council Science Committee to 
evaluate our progress in our many research areas.
    In addition, NASA uses several other indicators to assess the value 
of the science we fund. While these measures do not report the annual 
progress of our research as our annual performance goals do, they serve 
as informal markers of the utility of our research results.

  <bullet> Tracking the number and quality of publications and 
        citations in the peer-reviewed scientific literature of NASA 
        funded investigations, projects or missions.

    The currency of many scientific endeavors is the peer-reviewed 
literature. Citation indices make it very easy to track the 
publications associated with particular grants or research topics, as 
well as particular investigators and how often these are cited by other 
publications. Moreover, journal impact factors provide a means of 
assessing the quality of the publications in which these papers appear, 
and thus provide some insight into the significance of the publications 
themselves. While the numbers themselves are not a sole metric for 
scientific quality, they do provide a useful tool as part of a broader 
assessment strategy.

  <bullet> The use of research results by partner agencies

    The employment of NASA research results by other agencies within 
the U.S. Government is an indication that the science undertaken has 
produced a capability to support other national objectives and is of 
direct value to the Nation. This is primarily the case with our Earth 
Science investments, and past examples include the use of ocean 
altimetry and ocean surface winds in weather forecasts, algorithms for 
forest fires detection and associated products now in use by the U.S. 
Forest Service, and the continuity of Landsat measurements for use by 
the U.S. Geological survey.

  <bullet> Tracking the number and quality of various awards and 
        recognitions made to NASA sponsored researchers

    When the achievements of scientists in the NASA community are 
recognized as making profound contributions to the body of knowledge, 
such recognition is an indication of the significance and value of the 
research supported. These awards can include scientific achievement 
(e.g., Nobel prizes, professional society awards), or fellowships to 
scientific organizations (such as the National Academies and 
professional societies).

  <bullet> The amount of and nature of media coverage of our research 
        and findings.

    While this is not typically a very good measure of science quality, 
it is an indication of relevance and interest in the research and 
missions being pursued, and is an appropriate element of our value-
assessment portfolio.

    Question 3. One of NASA's largest scientific investments is 
arguably the International Space Station (ISS). With final assembly now 
complete, the program is shifting its focus toward the research 
opportunities afforded by the ISS's microgravity environment. The FY 
2012 budget request proposes a 70 percent increase in the ISS research 
budget to utilize this investment. How are ISS research activities 
improving life here on Earth? What is NASA doing to ensure that this 
facility is effectively utilized as a National Lab?
    Answer. The ISS has transitioned from the construction era to that 
of operations and research, with a 6-person permanent crew, 3 major 
science labs, an operational lifetime through at least 2020, and a 
growing complement of cargo vehicles, including the European Automated 
Transfer Vehicle (ATV) and the Japanese H-II Transfer Vehicle (HTV).
    The Station is the largest crewed spacecraft ever assembled, 
representing a unique research capability aboard which the United 
States and its partner nations can conduct a wide variety of research 
in biology, chemistry, physics and engineering fields which will help 
us better understand how to keep astronauts healthy and productive on 
long-duration space missions.
    In addition to conducting research in support of future human 
missions into deep space, astronauts aboard the ISS will carry out 
experiments anticipated to have terrestrial applications:

  <bullet> ISS research has shown that bacteria can become more 
        virulent in microgravity (i.e., more aggressive in causing 
        disease). In several cases, scientists have successfully 
        identified the genes responsible for this increased virulence 
        and are now developing vaccine candidates. AstroGenetix, Inc. 
        has funded its own follow-on studies on ISS and is now 
        preparing to submit Investigational New Drug applications to 
        the Food and Drug Administration for the treatment of both 
        salmonella-induced food poisoning and methicillin-resistant 
        Staph aureus (MRSA).

  <bullet> Microcapsules are tiny micro-balloons used in cancer 
        treatment to deliver anti-cancer drugs directly to a tumor 
        site. Microcapsules with improved cancer treatment properties 
        developed on the ISS were reproduced on Earth and were 
        successful in targeting delivery of anti-cancer drugs to 
        successfully shrink tumors in ground tests. A device to produce 
        similar capsules on Earth has now been patented, and clinical 
        trials of the drug delivery method are planned at M.D. Anderson 
        Cancer Center and the Mayo Clinic.

  <bullet> A Japanese scientist crystallized the HQL-79 protein (human 
        prostaglandin D2 synthase inhibitor protein) on the ISS, 
        producing an improved structure that identified the location of 
        critical hydrogen bonds that were not previously known. This 
        allowed drug design for a candidate treatment to inhibit the 
        progression of Duchenne muscular dystrophy. Continuing work is 
        examining other proteins and viruses.

  <bullet> Numerous plant growth experiments have investigated both the 
        effects of microgravity, as well as the capability for growing 
        regenerable food supplies for crew. Technology developed for a 
        greenhouse flown on the ISS is now widely used on Earth, 
        killing 98 percent of airborne pathogens (including Anthrax) 
        for food preservation, doctors' offices, homes, and businesses.

    The ISS will also serve as an incubator for growth of the low-Earth 
orbit space economy. NASA is counting on its Commercial Resupply 
Services (CRS) suppliers to carry cargo to maintain the Station. It is 
hoped that these capabilities, initially developed to serve Station, 
may find other customers as well, and encourage the development of 
further space capabilities and applications.
    Non-NASA research into areas such as biotechnology, bioengineering, 
medicine, and therapeutic treatment will be enabled by the National 
Laboratory function of the Station. NASA has 5 Memoranda of 
Understanding (MODs) with other U.S. Government agencies, and 9 
agreements with non-government organizations to conduct research aboard 
the ISS. NASA will pay for the transportation and ISS infrastructure 
costs (i.e., use of power, thermal control systems, communications, 
etc.) associated with National Laboratory research, and provide some 
grant funding for experiments conducted by research institutions. 
However, experiments sponsored by private firms will be funded by the 
National Laboratory partners--not by NASA. On February 14, 2011, NASA 
released a Cooperative Agreement Notice (CAN) for an independent non-
profit organization to manage the multidisciplinary research carried 
out by NASA's National Laboratory partners. This organization will: (1) 
act as a single entry point for non-NASA users to interface efficiently 
with the ISS; (2) assist researchers in developing experiments, meeting 
safety and integration rules, and acting as an ombudsman on behalf of 
researchers; (3) perform outreach to researchers and disseminate the 
results of ISS research activities; and (4) provide easily accessed 
communication materials with details about laboratory facilities, 
available research hardware, resource constraints, and more. The Agency 
anticipates making a selection in late spring with final award by mid-
summer.
    As a tool for expanding knowledge of the world around us; advancing 
technology; serving as an impetus for the development of the commercial 
space sector; demonstrating the feasibility of a complex, long-term, 
international effort; and, perhaps most importantly, inspiring the next 
generation to pursue careers in science, technology, engineering, and 
mathematics, the ISS is without equal.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                          Dr. Waleed Abdalati
    Question 1. Could you provide an example of the type of content and 
outreach activities you expect to participate in?
    Answer. As a scientist and a teacher of science, I have always 
valued the opportunities I've had to reach out to students, other 
educators, and members of the public. As NASA Chief Scientist, I have 
the opportunity to serve as the face of NASA's incredible science 
capabilities to a wide range of audiences, and I intend to make full 
use of that opportunity. From giant distant galaxies to molecules of 
air and water here on Earth, I believe that science plays a critical 
role in our Nation's future, and I plan to communicate that as broadly 
and effectively as I can through as many channels as possible. It is 
for this reason that I have working with me an experienced 
communications officer who works directly with our Office of 
Communications and is developing a multi-faceted public communications 
strategy, which will emphasize the importance of science in the 
agency's and the Nation's future.
    I plan to partner with the NASA Office of Education on science 
projects designed for K-12 STEM students and educators that use the 
inspirational nature of our pursuits and discoveries. I plan to speak 
at events that reach large numbers of science teachers. In an effort to 
target higher education, I also plan to visit universities around the 
country where I will reach out directly to undergraduate, graduate and 
post-graduate students and faculty through seminars and academic 
lectures to encourage them to seek and find opportunities to thrive in 
science careers. My office is actively engaged in OSTP's Committee on 
STEM Education.
    I will reach out directly to members of the American public through 
events such as science festivals, lectures at museums and science 
centers, television, radio, print media, and social media. I look 
forward to taking advantage of NASA's web-based interactive programs 
such as science casts and web chats and will encourage participants to 
pursue careers in science, technology, engineering and math. I have a 
long history of public outreach through channels such as these, and I 
look forward to using my position as Chief Scientist and the NASA 
communication infrastructure to expand the reach of the agency. Through 
NASA's Open Government initiatives, I will interact directly with 
citizen scientists and encourage them to take an active role in the 
Nation's space program and in doing so rediscover its magic and wonder 
and practical value.

    Question 2. In the America COMPETES Authorization of 2010, NASA was 
directed to utilize their unique resources to create and support 
professional development for STEM teachers and STEM educators at all 
levels. We have had concerns in the past that NASA has not fully 
embraced this opportunity and direction. How does NASA plan on 
implementing this directive going forward? Could you provide a timeline 
and status update on implementing this directive?
    Answer. In January 2011, President Barack Obama stated that, ``over 
the next 10 years, nearly half of all new jobs will require education 
that goes beyond a high school education. And yet, as many as a quarter 
of our students aren't even finishing high school. The quality of our 
math and science education lags behind many other nations. America has 
fallen to ninth in the proportion of young people with a college 
degree. And so the question is whether all of us `as citizens and as 
parents' are willing to do what's necessary to give every child a 
chance to succeed.'' This speech echoes findings and calls-to-action by 
numerous committees, reports, professionals in education, and leaders 
in American industry. In response, the Department of Education has 
identified several strategies to improve science, technology, 
engineering and mathematics (STEM) education and ways in which Federal 
agencies can contribute to the Nation's STEM improvement efforts. NASA 
is a strong contributor to the national plan.
    Consistent with Section 202 of the America COMPETES Reauthorization 
Act of 2010, NASA works with professional organizations, academia, and 
state/local education providers to identify and address needs in STEM 
education. Quality professional development for STEM educators is a 
prevalent need. Through the education staff at NASA's Centers, NASA 
works cooperatively with states and school districts to identify 
content needs and opportunities, and with university partners to ensure 
that NASA investments will be effective in improving teaching practice. 
NASA also works through communities of practice to identify content 
areas and special events that supplement informal education programming 
offered by museums and science centers. NASA higher education efforts 
increasingly target community colleges, which generally serve a high 
proportion of minority students. NASA programs build student STEM 
ability, preparing students for study at a four- year institution. 
Competitive opportunities support initiatives like the President's 
``Race to the Top'' and the Department of Education's ``Star Project,'' 
which promote state-based education reform and identify replicable 
strategies for improving K-12 education.
    NASA's education programs aim to increase the number of students 
who are proficient in, choose to major in, and pursue careers in STEM 
fields. Improving STEM ability, increasing public scientific literacy, 
increasing the talent pool of future STEM workers, and developing the 
STEM skills of the future workforce are imperatives if the Nation is to 
remain globally competitive and sustain a strong economy. NASA actively 
works through mutually beneficial relationships with over 500 colleges 
and universities, hundreds ofK-12 schools and districts, and over 400 
museums and science centers to provide education experiences, so that 
all students can learn deeply and think critically in STEM disciplines. 
NASA supports cutting-edge undergraduate student research that 
contributes to NASA missions while training the next generation of 
scientists, engineers, and innovators. NASA targets recruitment and 
retention of underserved and underrepresented students, including women 
and girls, Hispanics, and students with disabilities.
    NASA is committed to providing equal access to its education 
activities by providing any student with the opportunity to contribute 
to the future STEM work force. NASA is responding by focusing its 
education investments on areas of greatest national need and ensuring 
that the Agency's education programs support national STEM priorities. 
With its wealth of science and technology content and its expansive 
network of education professionals, NASA is well equipped to address 
national needs such as meeting state requirements for educator 
professional development. NASA provides practical experience and skills 
development for those who will become the future workforce through 
internships, fellowships, and student research opportunities. NASA is 
especially qualified to attract students to pursue STEM study and 
careers. It also is able to engage these future workers through 
inspiring NASA missions, fostering collaborative relationships between 
students and the current workforce and offering students opportunities 
to work in ``out of this world'' facilities. Hands-on challenges with 
expert mentors generate increased interest in STEM study.
    NASA has engaged students and teachers in its engineering 
challenges and scientific discoveries since its inception. From school 
presentations to seeds flown in space, from filmstrips and posters to 
podcasts and virtual tours though the galaxies, NASA's education 
programs have fostered inquiry, built curiosity, and encouraged 
innovation. Generations of Americans have participated in NASA's STEM 
education programs, and thereby learned basic skills, discovered new 
career paths, and developed interests in emerging academic disciplines.
    NASA is actively engaged in collaborations with other Federal 
agencies to ensure the Agency's programs are supportive of national 
STEM priorities. The NASA Associate Administrator for Education 
represents the Agency on the National Science and Technology Council 
(NSTC) Committee on STEM Education (CoSTEM). It was established 
pursuant to the requirements of Sec. 101 of the America COMPETES 
Reauthorization Act of 2010. The NASA Office of Chief Scientist is also 
participating in the CoSTEM by providing the CoSTEM Executive 
Secretary, who works in close coordination with the Office of 
Education.
    NASA's Earth and space science missions have an essential role in 
NASA's education mission. The discoveries and new knowledge from our 
missions and research programs consistently engage people's 
imaginations, inform teachers, and excite students about science and 
exploration. We are committed to utilizing our resources to foster the 
broad involvement of the Earth and space science communities in 
education and public outreach with the goal of enhancing the Nation's 
formal education system and contributing to the broad public 
understanding of science, mathematics and technology. NASA's Science 
Mission Directorate creates education products using NASA's results in 
Earth-Sun system science, solar system research, universe exploration, 
and the development of new technologies to support learning. Through a 
``Train the Trainer'' model the SMD programs train master teachers, who 
reach their peers via in person and online professional development 
opportunities that range from one-day to week-long workshops. Another 
aspect of teacher professional development includes providing summer 
research opportunities for in-service teachers.
    In 2010, NASA chartered an Education Design Team (EDT) to develop a 
strategy to improve NASA's education offerings, assist in establishing 
goals, structures, processes, and evaluative techniques to implement 
new sustainable and innovative STEM education programs. EDT has 
completed its task, and its recommendations are reflected in the FY 
2012 education budget for NASA's Office of Education.
    The FY 2012 budget provides NASA with the resources necessary to 
continue this rich tradition in STEM education through support for the 
Nation's students and educators, the leveraging of cutting-edge 
education technologies, and partnerships with industry. The budget 
proposal will:

  <bullet> Increase NASA's impact on STEM education by further focusing 
        K-12 efforts on middle-school pre- and in-service educator 
        professional development

  <bullet> Increase emphasis on providing experiential opportunities 
        for students, internships, and scholarships for high school and 
        undergraduate students;

  <bullet> Increase NASA's role in national and state STEM policy 
        discussions;

  <bullet> Emphasize evaluation and assessment, including external 
        independent evaluation, to ensure that investments are 
        providing desirable STEM impacts;

  <bullet> Engage strategic partners with common objectives and 
        complementary resources; and

  <bullet> Use NASA's unique missions, discoveries, and assets (e.g., 
        people, facilities, education infrastructures) to inspire 
        student achievement and educator teaching ability in STEM 
        fields.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                          Dr. Waleed Abdalati
    Question 1. I recognize the contributions NSF, NIST, and NASA have 
made to society and American innovation, but we are in dire economic 
times. Non-defense discretionary outlays grew 5.6 percent over the last 
decade. The continued deficits of our Federal Government are not 
sustainable and our country's growing debt is a threat to national 
security. With our current fiscal condition in mind, can you tell me 
how many jobs your budget proposal will create for Americans?
    Answer. The number of jobs created depends on many factors and 
assumptions making a specific number challenging to defend. However we 
have regularly observed that NASA's investments have immediate direct 
effects, as well as long term and indirect effects on jobs and economic 
growth. NASA's research and development work has been shown to 
stimulate new business lines that create future jobs. This is validated 
in the National Research Council (NRC) report ``Rising Above the 
Gathering Storm: Energizing and Employing America for a Brighter 
Economic Future'' by the Committee on Prospering in the Global Economy 
ofThe 21st Century, chaired by Norman R. Augustine. NASA has provided 
numerous achievements in the fields of aeronautics, electronics, 
computers, aerospace systems, health technology, imaging detectors, 
telescopes, and high performance materials, for example. These 
technologies for NASA's science and engineering achievements are 
transferred into the Nation's economy through industries that apply 
them in innovative ways. The NRC reported Research and Development 
(R&D)investments, like those that NASA's missions require, have 
``social rates of return of from 20-100 percent, with an average of 50 
percent.''
    In the near-term, NASA will facilitate the growth of the commercial 
space industry through its commercial cargo and crew development Space 
Act Agreements and with launch vehicle demands from its science and 
human exploration missions. These emerging commercial space industries 
have the potential to help drive the Nation's economy in the 21st 
century. Already, we see growth with Space Exploration Technologies 
(SpaceX) which was founded in 2002. Working on NASA and other 
contracts, SpaceX has grown from 150 employees in 2005 to over 1,100 
employees today. The advances made through aeronautics research will 
expand airspace capacity, enable fuel-efficient flight planning, reduce 
the overall environmental footprint of aviation, diminish delays on the 
ground and in the sky, and improve the ability of aircraft to operate 
safely in all weather conditions. NASA will continue architecture 
planning for a Multi-Purpose Crew Vehicle (MPCV) capable of taking 
human explorers to distant locations throughout the inner solar system. 
The Space Launch System (SLS) Program will develop the heavy lift 
vehicle that will launch the MPCV, other modules, and cargo for these 
missions. The ISS is the centerpiece of NASA's planning for extended 
space missions, as it serves as a research laboratory and technology 
test bed for basic and advanced studies in life sciences, human health, 
material sciences, Earth science, and fundamental physics. A new 
independent non-profit organization is being established to coordinate 
and oversee all of the ISS research and technology efforts and extends 
the reach of the ISS as a National Lab to further encourage the 
Nation's investments in R&D.
    NASA technology investments are of benefit to more than the 
Agency's missions and the aerospace industry. As one example, consider 
the case of Bloom Energy. In 2000, NASA and the University of Arizona 
developed the Mars Oxygen Generator, a two-pound experiment designed to 
generate oxygen for life support and fuel production on Mars. The 
device used solid oxide electrolysis cells to convert carbon dioxide 
and water into oxygen and fuel. When operated in reverse as a fuel 
cell, this device has been shown to produce clean, reliable electricity 
here on Earth. Development and commercialization of this technology as 
a NASA spin-off began with the founding ofBloom Energy in 2001 with a 
team of8 people, and now supports a direct and contracted workforce of 
around 1,000 people. Largely supported by the private sector, Bloom has 
moved their ``Bloom Box'' beyond the early demonstration phase, 
generating electricity at prices lower than traditional methods while 
producing half the amount of greenhouse gases. They expect to add 1,000 
cleantech jobs as they quadruple their manufacturing capacity.
    NASA's investments in the Small Business Innovation Research 
program helped Dr. John Langford grow Aurora Flight Sciences. Created 
in 1989 with two employees in two small rented offices, today, Aurora 
is home to over 750 employees. Aurora Flight Sciences has grown to 
support a corporate headquarters in Manassas, VA and operates 
production plants in Bridgeport, WV and Columbus, MS and a Research and 
Development Center in Cambridge, MA. The firm's annual revenues exceed 
$75 million. Aurora is a worldwide leader in the design of unmanned air 
vehicles (UAV's), robotic aircraft that can fly a variety of missions 
from research on the planet Mars to defense reconnaissance. Over the 
years, Aurora has been the recipient of numerous Small Business 
Innovative Research (SBIR) grants with NASA and Defense Advanced 
Research Projects Agency (DARPA).

    Question 2. Is the creation of jobs a top priority for funding R&D 
at your respective agency?
    Answer. The top priority for R&D funding at NASA is creating 
capability and providing knowledge. Funding R&D leads not only to 
direct employment opportunities, but innovations that create new 
products, services and industries, which in turn expands employment, 
creating the jobs that make our Nation great and make our Nation 
competitive in the world. By fueling the imagination and creativity of 
the national spirit, NASA is a major player in developing interest in 
science, technology and engineering fields.
    As NASA explores space and our planet, it stimulates U.S. economic 
growth in numerous ways. NASA's Aeronautics program performs the mid- 
and long-term research that provides the technologies that keep the 
U.S. aerospace industry competitive in the global marketplace. NASA's 
development programs provide demand for workers who are best in the 
world at what they do, further supporting the competitiveness of our 
aerospace industry. The challenge of living and working in space--
either with people or robots--drives the continual improvement of 
technologies, many of which are then applied to the day-to-day life of 
the taxpayers through the marketplace. The agency's competitive, peer-
reviewed basic research programs support the education and training of 
the aerospace workforce of tomorrow. By providing demand for scientists 
and engineering professionals, promoting technology innovation, and 
preparing the workforce of the future, NASA strives to enhance the 
health, growth, and long-term competitiveness of the Nation.
    A further example of the priority NASA places on job creation is in 
the Agency's Space Technology Implementation Plan. NASA's plan 
emphasizes partnering, small business innovation, and technology 
development; all elements that support job creation. NASA also will use 
novel approaches to facilitate technology transfer, ensuring its 
technologies are infused into commercial applications, to promote the 
creation of new jobs and to advance new products and services that will 
benefit the Nation and the world. This was an important element of the 
2010 NASA Authorization Act and appropriating the President's 2012 
budget request will enable the implementation of these space technology 
plans.

    Question 3. How do you measure the impact Federal R&D funding has 
on job creation?
    Answer. NASA does not currently collect quantitative data on the 
impact of its R&D funding on job creation.
    Each year NASA documents 40-50 of the top recent technology 
transfer successes in its annual Spinoff publication (http://
spinoff.nasa.gov). More than 1,700 of these top successes have been 
published in Spinoff and are documented online and available via a 
searchable database at this website. The Agency is also an active 
participant in the Federal Laboratory Consortium, a national 
organization chartered by Congress to foster technology transfer from 
Federal laboratories to the private sector. NASA technology transfer 
activities are reported annually through an FLC collected report.
    There are many organizations, both within the U.S. and 
internationally that are working to improve measurement of R&D funding 
on job creation. For example, the Organization for Economic Co-
operations and Development (OECD) has defined several metrics related 
to science and technology impacts. Some examples are Gross Domestic 
Expenditure on R&D (GERD), GERD as a percentage of GDP, Total 
researchers, Government researchers, Business Enterprise researchers, 
total R&D personnel, and many others. (see the following link: http://
www.oecd.org/dataoecd/30/35/34250656.pdf).

                                  <all>

</pre></body></html>
